<html>
<title> - ENSURING HOMELAND SECURITY WHILE FACILITATING LEGITIMATE TRAVEL: THE CHALLENGE AT AMERICA'S PORTS OF ENTRY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 ENSURING HOMELAND SECURITY WHILE FACILITATING LEGITIMATE TRAVEL: THE 
                 CHALLENGE AT AMERICA'S PORTS OF ENTRY

=======================================================================

                             FIELD HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 3, 2008

                               __________

                           Serial No. 110-90

                               __________

       Printed for the use of the Committee on Homeland Security

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
44-893 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012008


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Vacancy
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1

                               Witnesses
                                Panel I

Mr. Thomas S. Winkowski, Assistant Commissioner, Office of Field 
  Operations, Customs and Border Protection, Department of 
  Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Ms. Lurita A. Doan, Administrator, General Services 
  Administration:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Mr. Richard M. Stana, Director, Homeland Security and Justice, 
  Government Accountability Office:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22

                                Panel II

Mr. Bob Cook, President, El Paso Regional Economic Development 
  Corporation (REDCO):
  Prepared Statement.............................................    49
Ms. Colleen M. Kelley, National President, National Treasury 
  Employees Union:
  Oral Statement.................................................    50
  Prepared Statement.............................................    52
Ms. Kathleen Campbell Walker, President, American Immigration 
  Lawyers Association:
  Oral Statement.................................................    58
  Prepared Statement.............................................    61

                             For the Record

Mr. Victor Carrillo, County Supervisor, First District, Imperial 
  County, California:
  Statement......................................................    79
Mr. John F. Cook, Mayor, City of El Paso, Texas:
  Statement......................................................    80
Mr. Richard E. Dayoub, President and CEO, and Mr. Conrad Conde, 
  Chairman of the Board, 2007, The Greater El Paso Chamber of 
  Commerce:
  Statement......................................................    83
Mr. Eliot Shapleigh, Texas State Senator:
  Statement......................................................    88
Mr. Dan Stamper, President, Detroit International Bridge Company, 
  Detroit, Michigan:
  Statement......................................................    97
Mr. Miguel Teran, Commissioner, El Paso County, El Paso, Texas:
  Statement......................................................   102

                               Appendix I

Questions From Chairman Bennie G. Thompson.......................   107


 ENSURING HOMELAND SECURITY WHILE FACILITATING LEGITIMATE TRAVEL: THE 
                 CHALLENGE AT AMERICA'S PORTS OF ENTRY

                              ----------                              


                       Thursday, January 3, 2008

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                       El Paso, TX.
    The committee met, pursuant to call, at 10 a.m., at the 
Chamizal National Memorial Theater, 800 South San Marcial 
Street, El Paso, Texas, Honorable Bennie G. Thompson [Chairman 
of the committee] presiding.
    Present: Representatives Cuellar, Carney, and Davis of 
Tennessee.
    Also present: Representatives Reyes and Rodriguez.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today to receive 
testimony regarding ``Ensuring Homeland Security While 
Facilitating Legitimate Travel: The Challenge at America's 
Ports of Entry,'' and we are happy that all of you are here.
    Before we begin, I'd like to pause in remembrance of El 
Paso's Sheriff Leo Samaniego, who passed away on December 28, 
as most of you know. So if I might for just a moment of silence 
in respect for the passing.
    At this time I'd like to acknowledge my friend and 
colleague from El Paso, the Chairman of the House Permanent 
Select Committee on Intelligence, Representative Silvestre 
Reyes. It is at his request that the Committee on Homeland 
Security is holding this hearing today here in his 
congressional district. Representative Reyes is a recognized 
leader on border issues, and you are fortunate to have him 
representing you in Washington, DC on this issue which I know 
is so vital to your community.
    I would also like to recognize another area Member present 
here today, Representative Ciro Rodriguez. Representative 
Rodriguez represents an enormous stretch of the border from 
outside El Paso to past Eagle Pass, and his constituents face 
similar situations with respect to growing wait times at ports 
of entry. He is an excellent advocate in Congress on their 
behalf, and I thank him for joining us here today.
    Neither Member sits on the committee, but they do have a 
great deal of insight to share on the subject matter of today's 
hearing. They have actively participated consistent with the 
rules and practices of the committee. We're pleased to honor 
their request.
    I now ask for unanimous consent to allow Representative 
Reyes and Rodriguez to sit and question the witnesses at 
today's hearing. Without objection, so ordered.
    Today we'll hear testimony from Government witnesses about 
the challenges they face in keeping our Nation secure while 
also facilitating legitimate travel and trade throughout ports 
of entry. We will also hear testimony from local stakeholders 
who are directly affected by increasing wait times at bridges 
in this growing border community. I look forward to the 
discussion because it is increasingly apparent that there is a 
growing problem in America's ports of entry.
    Last year America witnessed the well-publicized Andrew 
Speaker incident. A patient with a very serious strain of 
tuberculosis was able to re-enter the United States through a 
northern border port of entry, though he should have been 
detained. We know that the Speaker incident was not an isolated 
one.
    In addition, a recent Government Accountability Office 
report revealed that thousands of unauthorized individuals 
entered the United States through ports of entry in a single 
year. At the same time the lines to enter the United States 
continue to get longer, which El Pasoans and residents living 
along both our Nation's land borders know all too well.
    It is important to note that the overwhelming majority of 
Customs and Border Protection officers and other personnel at 
our ports of entry are dedicated individuals working under 
extraordinarily difficult conditions for relatively low pay.
    We need more of these personnel, and they need better 
working conditions and additional training to do their jobs 
more efficiently. We also need to expand and improve aging 
infrastructure at our ports of entry and build new ports to 
accommodate growing demand.
    Unfortunately, we cannot fully address all of these issues 
overnight. It is my hope, however, that today's hearing will 
help us continue to work together to better secure our Nation's 
ports of entry and improve the lives of those who call border 
communities home.
    Again, thank you for having us here in El Paso.
    If you have your cell phone, please put it on silent. It 
would help us out a whole lot. We have people who really have 
something to say to us today, and we really don't want to be 
interrupted. Thank you very much.
    The Chair now recognizes the gentleman from Texas, Mr. 
Reyes, for opening statement.
    Mr. Reyes. Thank you, Chairman, and welcome back again to 
El Paso. We appreciate the support that you have shown our 
border community for three of us here that represent border 
communities. I especially wanted to welcome our colleagues 
Congressman Carney and Congressman Davis to the border. They 
have expressed a desire to know and see more of our border 
communities, so we're pleased that they are here as well.
    Over the last several months, both northern and southern 
border communities have faced increased wait times at the 
international ports of entry, and recent reports estimate the 
times have escalated upwards to 2 or 3 hours. This problem must 
be solved. The Federal Government must create a workable system 
that provides security while allowing for the free flow of 
trade and commerce.
    Two major issues that have surfaced are infrastructure and 
staffing. According to the General Services Administration, the 
Nation's land ports of entry are faced with over $5 billion in 
deficiencies, which we will need to prioritize in order to make 
it a safer and more secure border. This figure, by the way, is 
at the current construction allowance, close to 40 years if we 
do not address it in an expedited fashion. In addition, the 
bridges are extremely understaffed and therefore resulting in 
Customs and Border Protection's inability to properly staff the 
inspection booths around-the-clock.
    On an average day in fiscal year 2007 El Paso saw over 
95,500 crossings, both travelers and cargo, between what is one 
of the largest binational metropolitan regions in the world. 
While the number of crossings this past year has decreased in 
comparison to years past, the Nation has seen an increase in 
bridge wait times. We must solve this issue as quickly as 
possible.
    In my recent meetings with El Paso Central Business 
Association and other business organizations in my district, it 
was clear that the economic impact of the delays on the 
business community is very disturbing. Waits at land border 
ports have forced some businesses to spend enormous amounts of 
money to transport their goods via air in order to meet their 
deadlines. Thousands of individuals travel across the 
international boundaries daily, supporting El Paso's economy, 
and with the holiday season just recently passed, the need for 
an immediate solution to these delays is ever more important.
    In Washington, DC I continue, with collective efforts, to 
inform our colleagues and others about the concerns and 
frustrations that we are experiencing in border communities 
like the El Paso-Juarez area. We must find a workable solution.
    Over the last several months we have all worked closely 
with some of our witnesses here today, in particular a 
gentleman that wasn't able to be here because we had to 
reschedule this hearing, but Commissioner Ralph Basham. I 
wanted to express my personal appreciation, as well as GSA 
administrator Lurita Doan, who is here this morning. Thank you 
so very much for rescheduling so you could be here with us this 
morning.
    When Secretary Chertoff traveled to El Paso last August, I 
expressed the urgent need to solve the emerging problem for 
families and businesses in our area while at the same time 
understanding and not wanting to compromise our Nation's 
security at the border. The Department of Transportation 
Secretary Mary Peters recently visited here in the El Paso 
region, and while she was here I asked her to examine and 
determine how her Department might be able to work with us and 
other agencies to decrease international commuting times for 
both passengers and cargo.
    Mr. Chairman, both as a former Border Patrol agent and in 
my current capacity as Chairman of the House Permanent Select 
Committee on Intelligence, safety and security are my 
priorities, and by no means are we looking to seek a solution 
to the long waiting times by relaxing security. However, all of 
us need to understand that as border residents, myself 
included, I firmly believe that there are appropriate ways to 
allow for goods and people to cross our borders without 
creating the long extended delays.
    In this next session of Congress, I intend to introduce 
legislation for a multiyear proposal to focus on our ports of 
entry. You and I have had a number of discussions, and as 
always, I appreciate your support as well as the support of my 
colleagues from the border. So with that, Mr. Chairman, I 
deeply appreciate you being here and holding this very 
important hearing for our community.
    I should tell people here that last week you and I were in 
Portland, Oregon, which gives you an idea of the schedule that 
my colleague, Chairman Thompson, has to keep, and that we all 
keep, in order to address the many concerns of our committee. 
So thank you for being here, and thank you for holding this 
hearing.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from Texas--I'm 
sorry--recognizes Mr. David Davis of Tennessee for an opening 
statement that he might have.
    Mr. Davis of Tennessee. There's a lot of history between 
Texas and Tennessee. Thank you, Mr. Chairman. I appreciate you 
holding this hearing today, and I'd like to thank our witnesses 
for being here, as well.
    It is important to evaluate the Department of Homeland 
Security's efforts to improve security at the ports of entry 
while facilitating legitimate trade and travel. Customs and 
Border Protection officers are the first line of defense 
against terrorists, criminals, and inadmissible aliens seeking 
illegal entry into the United States, and it is critical that 
we continue to support their mission.
    CBP is responsible for inspecting travelers seeking to 
enter the United States by air, land, and seaports of entry. In 
fiscal year 2007, in addition to processing millions of 
travelers and vehicles, CBP officers seized more than 820,000 
pounds of narcotics; arrested more than 25,000 suspected 
criminals; interdicted more than 170,000 inadmissible aliens; 
and conducted 1.5 million agriculture interceptions. CBP also 
expanded the Container Security Initiative, launched the Secure 
Freight Initiative and improved the C-TPAT program. By the end 
of fiscal year 2000, CBP deployed over 140 radiation portal 
monitors throughout the Nation's ports of entry. While some 
progress has been made, more still needs to be done to protect 
our Nation's borders and reduce our security vulnerabilities.
    During today's hearing, I would like to hear from our 
witnesses on several key issues, including: Progress in 
improving the physical infrastructure at land border 
facilities, participation in trusted traveler programs, Border 
Patrol recruitment and retention, and CBP's effort to respond 
to the GAO's recommendations. GAO recently highlighted 
significant vulnerabilities in traveler inspection procedures 
and noted that while CBP has developed broad strategic goals, 
it continues to face challenges in developing measures to link 
performance with these goals and objectives. I would like to 
hear from CBP on what steps they can take to improve the 
inspection process and performance measures.
    I look forward to the testimony today and hearing about the 
status and plans for improvements to our land ports of entry. I 
would like to thank the witnesses for being here and express my 
appreciation to the Chair.
    Chairman Thompson. Thank you very much.
    The Chair consents to allow an opening statement from Mr. 
Rodriguez.
    Mr. Rodriguez. Thank you, Mr. Chairman. Let me begin also 
by thanking you and Congressman Reyes for having this 
opportunity to have this hearing. I want to personally thank 
you also for making the trip and going to the border yesterday, 
Mr. Chairman, and meeting with the members of--the city mayor, 
go out to the border, meeting with the sheriff, go out to the 
border, meeting with the chief of police throughout the border, 
and I think that those hearings and those meetings that we've 
had hopefully have been well-served in terms of educating 
ourselves in terms of the needs.
    I would also like to welcome the other Members of the 
committee here to the part--the 23rd Congressional District is 
also part of El Paso, and I have the distinction of having one 
of the largest districts in the country spanning from here to 
Eagle Pass and to San Antonio and back to El Paso. It's a 
district that has entry ports all over the region, and I'm real 
pleased to announce that we will soon be having another entry 
port here in El Paso in the new bridge.
    But let me also add that one of the reasons that we've 
asked to have this hearing is because we get local complaints 
from our constituents in terms of the waiting periods, and we 
have gotten conflicting information in terms of the number of 
hours that people have to wait. We also note, for those of us 
that live on the border, that things are never going to be the 
same, but at the same time we need to see how we can maximize 
that effort that when we're on the border--I know that I used 
to just go across and eat. I cannot do that anymore, because I 
know of the waiting periods and the times, and that has a 
direct impact economically. So this is why this hearing is 
important, so we can begin to look at striking that balance 
between the issue of security, which is essential and that we 
have to continue to work on, but also commerce because that's 
also essential, terrorists, who want to hit us and impact us 
economically, and we've got to make sure we don't do that to 
ourselves.
    So I'm certain that we will hear from the panelists on 
border security and how we can co-exist with the flow of 
traffic in assuring that we have security but also ensure that 
traffic can continue to come forward.
    I serve on the appropriations Homeland Security committee, 
so I want to thank you for allowing me to sit on the committee 
on Homeland Security authorizing committee. With that I also 
know that the committee is going to hear about the plans, the 
projects, the personnel recommendations, additional inspection 
booths, additional lanes at current ports of entry. I look 
forward to the hearing from everyone's perspective, and I hope 
that we leave today with a constructive understanding of the 
issues that confront us, not only here in El Paso but 
throughout the border.
    As I mentioned, I also represent six ports of entry, both 
here in El Paso, one in Presidio, one in Val Verde and two in 
Maverick County. Every one of these crossings has come to a 
degree of increased waiting times, but also the issues have 
also had a direct impact on not only that particular economy 
but in the entire region. I believe that this is a very 
difficult task to specifically tailor solutions to individual 
bridge's problems without even having concrete empirical data 
for the volumes of commercial passersby and the traffic that we 
have.
    For these reasons I filed legislation, along with Senator 
Hutchison, that will authorize a detailed analysis in the study 
of the volume of traffic patterns of commercial and passenger 
vehicles at international land ports of entry in both the 
northern and southern borders. Additionally the legislation 
would document the effects of waiting times on the economy, 
especially the economies of border communities. These studies 
would be conducted by the U.S. Department of Transportation and 
Commerce in conjunction with the Department of Homeland 
Security. This legislation is co-sponsored also by both 
Congressman Cuellar and Congressman Reyes, and I want to thank 
them for their allegiance. It's also supported by the Border 
Trade Alliance and the Texas Border Coalition.
    Finally I would also like to mention a project currently 
underway here in eastern El Paso County, which will greatly 
improve our current situation here in El Paso, and that's the 
Tornillo-Guadalupe New International Bridge. It is an integral 
part of any solution designated to relieve the regional waiting 
times and traffic congestions at our existing ports of entry. 
This project is a reality. It will be completed well before 
most other plans, and hopefully it will relieve some of the 
congestion here in El Paso.
    Back in March 2002 President Bush stood here in El Paso, 
Texas, less than 6 months after the attack of 9/11, and stated 
in front of a large crowd: ``The commerce that takes place 
between Mexico and Texas and the United States is good for both 
countries, and therefore we must work to make sure our border 
is modernized so that the commerce that takes place can move 
more freely and can be expedited so that it makes it easier for 
people to have jobs and find work.''
    We have to continue to push forward on that agenda. I know 
that it's been 6 years since those comments were made, and we 
have moved a long way. We need to continue to move further.
    Mr. Chairman, once again thank you for coming to El Paso 
and thank you for the work that you continue to do for us. To 
the entire committee, thank you very much.
    Chairman Thompson. Thank you very much.
    Other Members are reminded that under committee rules 
opening statements may be submitted for the record.
    I'd like to now welcome the first panel of witnesses. Our 
first witness, Mr. Thomas Winkowski, was appointed Assistant 
Commissioner, Office of Field Operations at U.S. Customs and 
Border Protection in August 2007. In that capacity, he manages 
an operating budget approaching $2.5 billion, directs the 
activity of 24,000 employees, and oversees programs and 
operations at 20 major field offices, 326 ports of entry, 58 
Container Security Initiative ports and 15 fleet clearance 
stations. Kind of busy fellow.
    Our second witness is Ms. Lurita Doan, Administrator, U.S. 
General Services Administration. Administrator Doan was sworn 
into her current position on May 2006, making her the first 
woman to serve as chief executive of GSA. Until 2005 Ms. Doan 
was president, CEO and sole owner of a surveillance technology 
company she founded in 1990.
    Our third witness, Mr. Richard Stana, is the Director of 
Homeland Security and Justice Issues at the Government 
Accountability Office. During his 31-year career with GAO, he 
directed, reviewed on a wide variety of complex military issues 
in headquarters, the field, and overseas offices. Most recently 
he directed GAO's work related to law enforcement, drug 
control, immigration, Customs, corrections, court 
administration and election systems.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Assistant Commissioner Winkowski.

   STATEMENT OF THOMAS S. WINKOWSKI, ASSISTANT COMMISSIONER, 
  OFFICE OF FIELD OPERATIONS, CUSTOMS AND BORDER PROTECTION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Winkowski. Well, thank you very much, Chairman Thompson 
and Chairman Reyes and distinguished Members of the committee. 
I'm pleased to be here today to discuss U.S. Customs and Border 
Protection's role in building a more secure yet more efficient 
border.
    Congressman Reyes, I would like to begin by thanking you 
for your commitment and leadership on this important issue. On 
October 4, 2007, you spent nearly 3 hours of your valuable time 
working with CBP senior managers on possible solutions for 
addressing wait times at land border ports of entry without 
compromising our Nation's security. Again, I would like to 
thank you very much for your support, Congressman.
    I would also like to express my thanks to the men and women 
of CBP who work on the front lines every day defending this 
great country. CBP is responsible for protecting more than 
5,000 miles of border with Canada, 1,900 miles of border with 
Mexico, and operating 326 official ports of entry. Each day CBP 
inspects more than 1.1 million travelers, nearly 94,000 of 
those travelers coming through the port of El Paso.
    Though the vast majority of people that CBP officers 
interact with are legitimate travelers, there are those who 
seek to harm us. Annually CPB intercepts in excess of 21,000 
fraudulent documents and over 200,000 inadmissible aliens. 
During fiscal year 2007 alone CBP officers arrested over 25,000 
individuals representing murderers, sexual predators, drug 
smugglers and individuals with links to terrorism. Within the 
last week officers at ports of entry were able to apprehend 
multiple individuals with felony warrants for homicides.
    Yet in our mission of protecting the homeland also comes 
the responsibility for facilitating legitimate trade and 
travel. These are CBP's twin goals: Safeguarding the American 
homeland by fostering our Nation's economic well-being through 
lawful international trade and travel. It's a difficult 
balancing act, but it is one we take very seriously.
    There are those who say CBP is our choke point for commerce 
and tourism; we are impeding business and travelers. Others say 
we are not being thorough enough in checking for terrorists, 
drugs and illegal aliens. We know that if we are going too far 
in either direction, we can slow down our economy or take the 
chance of letting a potential terrorist into the country. We 
continually look for smarter, more efficient ways to secure the 
border, from increased use of technology to inspectional 
processes to enhanced document requirements.
    Putting our progress in perspective, before 9/11 there were 
no radiation portal monitors at our U.S. ports of entry. Today 
we have over 1,000 radiation portal monitors Nation-wide, which 
mean 100 percent of the cargo coming from Mexico and 91 percent 
entering from Canada.
    We have trusted traveler programs like FAST and SENTRI that 
allow members who have been vetted by CBP to use dedicated 
crossing lanes and enter the country faster yet more secure. 
With the Western Hemisphere Travel Initiative, or WHTI, we will 
further improve traveler processing and the Nation's security. 
Right now our officers review as many as 8,000 different kinds 
of identification. Beginning on January 31, travelers will be 
required to present specific types of documentation regarding 
their identity and citizenship.
    As we move to its full WHTI implementation in June 2009, 
RFID-enabled identification and citizenship documents will 
allow CBP officers to quickly obtain vital information from our 
databases, including previous traveler violations, outstanding 
felony warrants, and possible links to terrorism. WHTI results 
in America having a smarter, more efficient and more secure 
border.
    Finally I would like to mention an issue that concerns all 
of us: Infrastructure at our ports of entry. The rapid 
evolution in CBP's mission, coupled with the age of these 
facilities, has stretched our physical resources well beyond 
what they were designed to handle and the dire need of 
modernization and expansion. We have evaluated our ports of 
entry Nation-wide and developed a strategic resource assessment 
which prioritize our modernization expansion needs. CBP and GSA 
are working together to streamline the current planning and 
construction process in addition to expediting vitally needed 
repairs to those locations.
    Let me conclude by saying there are no quick fixes to these 
problems. We live in a world vastly different from the one we 
knew of on September 10, 2001. We must work together to 
maintain a delicate balance which will keep our economy strong 
and our Nation secure.
    Thank you very much, Mr. Chairman.
    [The statement of Mr. Winkowski follows:]

               Prepared Statement of Thomas S. Winkowski
                            January 3, 2008

    Good morning Chairman Thompson, Congressman Reyes, and 
distinguished Members of the committee. I am pleased to be here today 
to discuss how the Department of Homeland Security (DHS), particularly 
U.S. Customs and Border Protection (CBP), is building a more secure and 
efficient border, while continuing to facilitate the flow of legitimate 
trade and travel.
    I would like to begin by expressing my thanks to the men and women 
of CBP who work on the frontlines everyday, protecting this Nation. 
Since its creation in 2003, CBP has made significant progress in 
effectively securing our borders and protecting our country against 
terrorist threats. Sometimes we forget to recognize the efforts of 
these officers and agents on the frontlines and everything they have 
accomplished.
    The creation of CBP, which established a single, unified border 
agency for the United States, is a profound achievement, and our 
responsibilities are immense and challenging. CBP is responsible for 
protecting more than 5,000 miles of border with Canada, 1,900 miles of 
border with Mexico and operating 326 official ports of entry. Each day 
CBP inspects more than 1.1 million travelers, including 327,000 cars 
and over 85,000 shipments of goods approved for entry; processes more 
than 70,000 truck, rail and sea containers; collects more than $84 
million in fees, duties, and tariffs; seizes more than 5,500 pounds in 
illegal narcotics; and seizes more than 4,400 pounds of agricultural 
items and pests at ports of entry. CBP also intercepts over 70 
fraudulent documents a day and refuses entry to almost 600 inadmissible 
aliens, that translates to over 21,000 fraudulent documents and more 
than 200,000 inadmissible aliens each year. During fiscal year 2007 
alone, CBP officers at our land, sea, and air ports of entry arrested 
25,693 individuals, representing murderers, sexual predators, drug 
smugglers, and individuals with links to terror.
    During fiscal year 2007, the Port of El Paso, which includes the 
crossings at Stanton Street, Ysleta, Bridge of the Americas, and Paso 
Del Norte, processed over 34 million travelers, 14.3 million vehicles, 
and nearly 759,000 trucks. CBP officers at these ports intercepted 
4,552 fraudulent documents, seized over 193,000 pounds of narcotics, 
and arrested 2,830 individuals. Our agricultural specialists 
intercepted 5,246 pests that could threaten our Nation's food supply 
and we collected nearly $215 million in fees, duties, and tariffs.
    CBP continues to increase its work force, hiring 2,156 new CBP 
officers, for a net increase of 648 officers, and 340 agriculture 
specialists, for a net increase of 151 specialists in fiscal year 2007. 
CBP has also significantly enhanced its ability to provide timely and 
actionable intelligence to its operational customers, and enhanced its 
ability to support its mission partners through information sharing, by 
successfully piloting a field intelligence capability and organization 
called an Intelligence Coordination Team (ICT). Planned deployment of 
ICTs, and an even richer capability called Intelligence and Operations 
Coordination Centers (IOCC) will provide CBP and its mission partners 
an integrated, end-to-end intelligence capability.
    Although 6 years have passed since September 11, 2001, that day 
remains a vivid memory to all of us. CBP is keenly aware of its 
responsibility to remain ever vigilant in protecting the homeland. We 
understand that the threat is ever present and the risks ever-changing. 
For this reason we continually seek better and smarter means to ensure 
the security of our border, by enhancing all areas of our operations 
including technology, document security, infrastructure, inspectional 
processes, work force, and training of our officers.
    From a strategic and operational standpoint, CBP has significantly 
increased our ability to execute our anti-terrorism and traditional 
missions at our Nation's borders more effectively than ever before, 
thereby enhancing the security of the United States, its citizens, and 
the economy. We continue to perform our traditional missions, including 
apprehending individuals attempting to enter the United States 
illegally; stemming the flow of illegal drugs and other contraband; 
protecting our agricultural and economic interests from harmful pests 
and diseases; protecting American businesses from theft of their 
intellectual property; regulating and facilitating international trade; 
collecting import duties; and enforcing United States trade laws, all 
while executing our primary mission of preventing terrorists and 
terrorist weapons from entering the United States.
    I am here before you today to discuss how CBP is creating a more 
secure border--executing our priority mission of preventing the entry 
of terrorists and terrorist weapons--while efficiently balancing 
facilitation of legitimate trade and travel. I will focus on our 
traveler inspection procedures, physical infrastructure, staffing and 
training of our officers, and the performance measures we use for 
determining our successes and areas of improvements at the ports of 
entry. I will outline for you today CBP's advancements over the past 4 
years, and the challenges we face every day.

                     TRAVELER INSPECTION PROCEDURES

Technology and Document Security
    Border security is the cornerstone of national security, and if we 
are to protect our homeland from those who mean us harm, we must use 
all the tools at our disposal. These tools include the use of smart 
technology and improved document security, which will make our ports 
more secure and our inspectional processes more robust and efficient.
    DHS, in partnership with the Department of State (DOS), is working 
to secure our homeland by strengthening our ability to identify 
accurately all persons--U.S. citizens and potential visitors alike--
before they enter the United States. We are accomplishing this through 
instituting secure documentation requirements for entry into the United 
States. Our approach to implementing the Western Hemisphere Travel 
Initiative (WHTI), which represents both a statutory mandate and 9/11 
Commission recommendation; will increase security while also 
facilitating trade and the flow of legitimate travelers.
    WHTI is necessary to strengthen our security but will also 
facilitate the flow of legitimate trade and travel into the United 
States. Currently, U.S., Canadian, and Bermudian citizens entering the 
United States across our land and sea borders are not required to 
present or carry any specific set of identity or citizenship documents. 
Not surprisingly, this significantly complicates our ability to verify 
that people are who they say they are in a matter of seconds. In an era 
when we, as a country, were less concerned about the security threats 
posed by persons seeking to enter or re-enter our country, a mere 
verbal declaration of citizenship, if credible, could suffice. Now, 
both the administration and Congress recognize that this practice must 
end.
    The institution of a travel document requirement and the 
standardization of travel documents are critical steps to better 
securing our Nation's borders at the ports of entry and increasing the 
facilitation of legitimate travelers. Currently, travelers at our land 
and sea ports of entry may attempt to demonstrate citizenship and 
identity by presenting any of thousands of different documents to CBP 
officers when attempting to enter the United States, creating a 
tremendous potential for fraud.
    Exploiting vulnerabilities to gain entry to our Nation is critical 
for any terrorist to plan and carry out attacks on our homeland. As the 
9/11 Commission's Final Report states, ``For terrorists, travel 
documents are as important as weapons. Terrorists must travel 
clandestinely to meet, train, plan, case targets, and gain access to 
attack. To them, international travel presents great danger, because 
they must surface to pass through regulated channels to present 
themselves to border security officials, or attempt to circumvent 
inspection points''.
    Our layered security strategy involves identifying and interdicting 
terrorists as early as possible--if not before they enter our country, 
then at the port of entry. As populations increasingly mix and 
extremists recruit native-born youth and converts, travel documents 
become even more critical in identifying terrorists. Travel documents 
and travel patterns can provide our CBP officers at the border with 
terrorists indictors--sometimes the only advance indicator the 
Government will receive.
    DHS must be able to capitalize on our border inspection process. We 
must be able to verify the identity and citizenship of those who seek 
to enter the United States. Through its requirement that individuals 
carry secure documents, such as a passport or an alternative document 
designated by the Secretary, WHTI will greatly reduce the opportunities 
for fraud or misrepresentation of one's true identity. Advanced 
technology embedded in these travel documents, with the appropriate 
privacy protections and infrastructure, will allow DHS the ability, for 
the first time, to verify an individual's identity even before our 
officers begin to question them and to perform real-time queries 
against lookout databases. Full implementation of WHTI will allow DHS 
to focus even greater time and attention on each individual traveler. 
We have an opportunity to install an integrated secure land border 
system through WHTI and that opportunity should not be squandered.
    The process for implementing WHTI in the land and sea environments 
will be a deliberate, phased, and flexible approach. DHS is proposing a 
transition period to ensure that U.S., Canadian, and Bermudian citizens 
will be able to obtain the documents necessary to satisfy WHTI. We 
recognize that 100 percent compliance will not occur overnight and we 
want to give travelers sufficient time to become accustomed to this new 
requirement. The practice of accepting verbal declarations of 
citizenship alone at our land and sea ports of entry will end on 
January 31, 2008. U.S. citizens and Canadian citizens will be required 
to carry a WHTI-compliant document or Government-issued photo 
identification, such as a driver's license, and proof of citizenship, 
such as a birth certificate. At a later date, we will implement the 
full requirements of the land and sea phase of WHTI. The precise date 
will be formally announced with at least 60 days notice to the public. 
This vital layer of security must be put in place as soon as possible, 
and not be subject to repeated delays and endless new and ever-shifting 
requirements. By delaying, through appropriations language, 
implementation of WHTI, Congress would prevent us from closing a 
vulnerability that can be exploited by terrorists and others who mean 
us harm. We must continue to advance to a smarter, more efficient, and 
more secure border that includes these document controls.
    Also, under the auspices of WHTI, new facilitative technology will 
be implemented to assist in the efficient flow of legitimate travel. 
CBP is in the process of awarding a contract for the installation of 
infrastructure and technology required to read travel documents in 
vehicle primary lanes at land borders at the 39 highest-volume ports, 
which combined process 95 percent of travelers entering the United 
States through our land borders.
    This technology provides significant advantages for our officers, 
while providing a clear benefit for the traveler: The document is read 
as the vehicle queues for inspection at the primary booth. In seconds, 
the system displays the traveler's biographic information, photo, and 
the results of checks against the terrorist watch list, National Crime 
Information Center (NCIC) database, and various law enforcement 
databases to the CBP officers. This enables CBP to enforce more than 
400 laws from 40 different Federal agencies, without impeding traffic 
flow. The CBP officer can look at the results quickly and focus on the 
individuals in the vehicle--better for officer safety and faster, more 
effective processing.
    CBP has used facilitative technology successfully in operations 
along our land border with Canada and Mexico since 1995. Through our 
Trusted Traveler Programs, such as NEXUS, SENTRI and FAST, CBP officers 
are able to expedite legitimate cross-border travel and trade. 
Membership in these programs currently exceeds 385,000. Our Trusted 
Traveler Program, SENTRI, has been very successful in El Paso where we 
have nearly 23,000 people participating in SENTRI, and the Stanton 
Street crossing is designated a SENTRI-only crossing.
Inspectional Process
    CBP constantly and continually monitors our activities and 
operations in the field to identify areas that need improvement and to 
implement these improvements--whether they are policies or procedures 
and processes. After noting that there were weaknesses in our land 
border inspectional procedures, CBP directed our officers to increase 
the number of primary name queries being performed at the land ports of 
entry, consistent with our strategic goal to screen all persons 
arriving at ports of entry. The implementation of WHTI, through 
facilitative technology, and secure documents, will allow us to further 
raise our query rates through more efficient and expeditious screening.
    Additionally, CBP developed a training module using actual land 
border videotape footage to be viewed by all managers and frontline 
officers in order to demonstrate the need for effective and thorough 
inspections. In conjunction with this presentation, CBP developed and 
implemented the land border primary inspection directive, which defines 
CBP policy regarding land border inspections. All land border officers 
received training regarding the policy and are required to take annual 
refresher courses.
    CBP uses a layered approach to monitor and assess compliance of our 
existing inspectional policies and procedures. The Assistant 
Commissioner, Office of Field Operations, is responsible for policy 
oversight, which includes the formulation and implementation of 
guidelines and procedures. The Executive Director, Admissibility and 
Passenger Programs, is responsible for the formulation and 
implementation of the guidance to the field regarding traveler 
inspection and programs. The Office of Admissibility and Passenger 
Programs is also responsible for conducting reviews of enforcement 
actions and ensuring compliance with policies and procedures. The 
Office of Field Operations works closely with the Management Inspection 
Division to conduct self-inspection and compliance reviews. At any 
time, if an incident occurs, CBP's Office of Internal Affairs conducts 
a thorough investigation into the incident, ensuring that all 
responsible parties are held accountable for their actions and any 
necessary changes to procedures are made. CBP continually improves and 
expands its incident oversight capabilities, monitoring the actions of 
each of our ports of entry.
    In the field, we require that the Directors of Field Operations 
(DFOs), who directly oversee ports of entry within their designated 
Field Office, monitor their ports' compliance with existing policies 
and procedures, and conduct audits and assessments of their ports. On 
the frontlines, supervisory CBP officers are required to undergo a 
mandatory 9-day course on supervisory leadership training before they 
can assume management positions.

                        PHYSICAL INFRASTRUCTURE

    CBP has long recognized the need to improve our facilities and 
infrastructure to more effectively meet mission requirements. Modern 
facilities must address our dramatically changing border functions, 
increasing traffic volumes and staffing levels, and new and updated 
technologies and equipment. To that end, CBP has implemented a facility 
investment planning process, and capital improvement plan for land 
border ports of entry. This process ensures that facility and real 
property funding is allocated in a systematic and objective manner, and 
is prioritized by mission-critical needs.
    While CBP operates 163 land border facilities along the Northern 
and Southwest borders, CBP owns only 27 percent of these facilities. 
The U.S. General Services Administration (GSA) owns 58 percent, and 
leases the remaining 15 percent from private, State, or municipal 
entities. Unfortunately, the rapid evolution in CBP's mission coupled 
with years of neglect has left these vital assets in dire need of 
modernization and expansion. The average age of our facilities is 42 
years old and they were not designed for our current operations. Since 
the terrorist events of September 11, 2001, CBP has been given the 
priority mission of preventing terrorists and terrorist weapons from 
entering the United States, along with maintaining our legacy missions. 
These heightened responsibilities are stretching our physical resources 
well beyond what they were ever designed to handle. The vast majority 
of these facilities were not built to incorporate all of the enhanced 
security features that are now present at our ports of entry, including 
Non-Intrusive Inspection technology (Radiation Portal Monitors, Vehicle 
and Cargo Inspection System, X-rays) and License Plate Readers. Our 
facilities are stretched to the limit.
    GSA annually prepares a master list of public building construction 
projects--based upon the competing priorities among the various Federal 
tenants--for submission to Congress. CBP's priorities are placed on the 
GSA master list and presented to Congress, alongside a variety of 
competing projects, including courthouses and other Federal buildings, 
for authorization and funding through the Federal Buildings Fund. 
Historically, land ports of entry have received only a small percentage 
of the funds allocated through the Federal Buildings Fund. Since the 
creation of the Department of Homeland Security, land port facilities 
have received a larger percentage of the allocated funds, however even 
this increase has not been sufficient to keep pace with the pressures 
imposed by increasing demand for capacity, changing technology 
requirements, and the on-going need to reinvest in aging facilities.

                         WORKFORCE AND TRAINING

Staffing
    We have no greater asset than our human resources. And we are 
committed to recruiting, hiring and developing a premier officer corps. 
Included in our 5-year strategic plan, the Office of Field Operations 
has a human capital initiative with an objective of building and 
sustaining a high performance work force. To achieve this goal we are 
currently working toward refining the recruitment and hiring processes, 
improving our retention capabilities, and enhancing our deployment and 
staffing processes.
    We have developed a Workload Staffing Model (WSM) to better align 
resource needs and requests against levels of threat, vulnerabilities, 
and workload. By using the model we can adjust optimal staffing levels 
to changes in workload, processing times, new technologies and 
processes, mandated requirements, and threats. The staffing model alone 
does not determine how our officers are allocated; it is merely a tool 
to assist us in determining the correct allocation of officers at each 
of our land, sea, and air ports.
    However, we are challenged with the continuously expanding demand 
for our services and new statutory requirements mandated each year, as 
trade and travel into the United States continues to grow. To address 
this extremely important mission of securing our Nation's borders, CBP 
management is often required to make our officers work mandatory 
overtime, sometimes on numerous days each week. CBP does not have the 
luxury of shutting down a port of entry to give officers time-off.

Training
    We depend on the dedication and training of our front-line officers 
to conduct thorough inspections and make sound judgments. CBP has 
implemented numerous programs, initiatives, and trainings to build our 
officer corps, thereby enabling officers to more effectively respond to 
threats of terrorism, to better utilize intelligence information, to 
continue to develop skills, streamline processes, and enhance 
inspection operations. We have developed and implemented a 
comprehensive training curriculum for CBP officers and CBP Agriculture 
Specialists. This training curriculum includes basic CBP officer and 
CBP Agriculture Specialist academy training, as well as comprehensive, 
advanced, on-the-job, and cross-training courses. We continue to refine 
our training programs and validation tools to ensure that we have an 
integrated approach incorporated into existing systems. CBP continually 
strives to provide our frontline officers with additional training to 
help them perform their jobs better. For example, CBP has extensive 
training in place for fraudulent document identification--both in the 
CBP officer academy and embedded in 40 additional courses.
    To make the best use of our training time and resources, we train 
our officers when they need to be trained, and for the functions they 
are performing. This means that not every officer completes every 
cross-training module, but does receive the training needed to do the 
job he or she is currently performing. CBP has identified Field 
Training Officers to ensure that CBP officers are receiving the 
training they need to do their jobs, and that internal measures are in 
place to monitor and assess training needs and accomplishments Nation-
wide. For example, CBP has an extensive database to record and track 
instances of training; and the database is searchable by individual, 
field office, and course of instruction. CBP is constantly reviewing 
and revising its training, as needed, in the ever-changing border 
enforcement environment.
    Recognizing the complexity of our mission and the broad border 
authorities of our agency, we have established specialty functions and 
teams that receive additional focused advanced training. For example, 
counter-terrorism response teams were created for deployment within 
secondary inspection areas. These teams are provided with a new and 
intense training curriculum that teaches our officers how to detect 
deception and elicit information. We have established targeting and 
analysis units, roving teams, and prosecution units. Our enforcement 
officers receive additional advanced training to develop expertise in 
the questioning of individuals suspected of being involved with 
organized smuggling of aliens or drugs, terrorism, and document fraud.

                          PERFORMANCE MEASURES

    In addition to the information I have outlined above, addressing 
the processes for our managers to review and monitor the inspectional 
processes being conducted by our front-line officers, CBP has also 
implemented a system to track our effectiveness. CBP conducts random 
compliance examinations. Essentially, these examinations involve random 
selection of vehicles and/or air passengers that ordinarily would not 
be selected for an intensive examination. By combining the results of 
these examinations with the results of targeted examinations, CBP is 
able to estimate the potential total number of violations being 
committed by the international traveling public. When CBP compares the 
results of the two types of examinations, we are better able to devise 
enforcement techniques without creating undue delay of law abiding 
travelers. Trends often tell us what message we need to send to ensure 
informed compliance by travelers who were unaware of our requirements. 
CBP believes that this compliance examination is a critical component 
of our ability to ensure that our processing procedures are effective. 
However, our reference measurement is a tool that was originally 
designed for the U.S. Customs Service, and to assess compliance with 
customs laws. We have recently made some additional improvements to the 
program to more fully align it with all functions and missions within 
CBP. We believe we will be better able to assess the apprehension rate 
of inadmissible aliens and other violations as we obtain more data from 
the realigned reference measurement program.
    As I noted earlier, during fiscal year 2007, CBP revised the 
execution of this program and expanded the definition of the violation 
categories to include specific categories that relate to inadmissible 
aliens and agricultural violations. These new categories went into 
effect beginning on October 1, 2007, and the new measures will provide 
reliable, statistically valid performance measures for the traveler 
inspection program.

                                CLOSING

    I have outlined today some of the ways CBP has strengthened our 
work force and enhanced our traveler inspection processes. CBP's 
frontline officers and agents will continue to protect America from the 
terrorist threat while also accomplishing our traditional missions in 
immigration, customs, and agriculture, all while balancing our 
enforcement missions with the need to effectively facilitate the flow 
of legitimate trade and travel. I appreciate this opportunity to 
testify before you and would be happy to answer any questions that you 
may have.

    Chairman Thompson. Thank you for your testimony. I now 
recognize Administrator Doan to summarize her statement for 5 
minutes.

 STATEMENT OF LURITA A. DOAN, ADMINISTRATOR, GENERAL SERVICES 
                         ADMINISTRATION

    Ms. Doan. Good morning, Mr. Chairman, Ranking minority 
Member Davis, Congressman Cuellar, Congressman Rodriguez and 
Congressman Carney. I'm Lurita Doan. I'm the administrator of 
the GSA. I'm pleased to be back here in El Paso, and I'm here 
to discuss GSA's responsibility and our role in the planning, 
construction, renovation and maintenance of our Nation's land 
border ports of entry.
    We've done a great deal to improve security, thanks to the 
efforts of our colleagues from DHS. Great and fundamental 
improvements in security are now clearly evident. But the 
President also charged us with the responsibility of 
facilitating the flow of legitimate trade and travel across our 
borders, and on that score, there is still much to be done.
    Long lines of frustrated travelers at our land border ports 
of entry are simply not acceptable, and this is not the first 
view that we want our foreign visitors to have of this great 
Nation, and it's not the policy that the President outlined. I 
know that DHS and CBP are working hard on a number of complex 
technology programs, but I'm a bit of a contrarian within the 
administration, and I actually believe that sometimes some low-
level solutions can also help. I believe that we need to build 
more capacity; specifically we need more inspection booths to 
allow CBP to conduct more primary inspections. We need more 
lanes and roads to carry additional traffic across the borders. 
Basically we need to build; we need to build where we can, what 
we can, as fast as we can.
    We have the responsibility at GSA for building and 
maintaining our ports of entry, and I truly confess that in the 
past GSA has been slow to step up to that responsibility. GSA 
has been a bit too cautious in our approach, and we have 
sometimes gotten wedded to a bureaucratic process that is not 
sufficiently designed to get results, but we have made changes 
in the last 18 months.
    We've completely retooled GSA's ability to design, build 
and maintain our ports of entry, and the result is that we can 
streamline, cut down the amount of time it takes to design 
those ports by almost half, and in the process we are also 
going to be cutting the cost for the taxpayer. In the last 18 
months we've abandoned the Washington centric approach, where 
all the good ideas for improved designs can only come from 
inside the Beltway. Good ideas do not just reside in 
Washington. More importantly, State and local leaders know far 
better than almost anyone else what efforts could be taken at 
each and every port to help that traffic move more quickly 
across the border.
    Our GSA port of entry program is now cited as a performance 
measure for GSA managers and employees alike, and it reports 
monthly to me on the progress that's being made. GSA is 
encouraging now every port of entry to immediately come up with 
ideas for practical solutions that would allow for the speedier 
flow of legitimate travel across the border. State and local 
officials are being asked to participate. After all, they best 
know what steps can be taken that would yield the biggest 
returns at those local locations. GSA cannot do all this on its 
own, but when local leaders and community stakeholders have 
developed practical, solid ideas that can be immediately 
implemented, GSA is going to get behind those good efforts and 
we are going to push.
    There are a number of ambitious projects for building new 
bridges and new ports of entry that GSA is also prepared to 
support. In particular, State and local leaders in El Paso, 
Texas, Laredo, Texas, Nogales, Arizona, Otay Mesa, California, 
Buffalo, New York, Detroit, Michigan, and several other ports 
of entry in need have developed plans that we are prepared to 
support.
    GSA is going to encourage greater participation from the 
private sector, because infrastructure enhancements are a 
perfect opportunity for public/private partnerships. Our goal 
at GSA is to ignite a building boom at our Nation's port of 
entries to help alleviate the long lines of frustrated 
travelers. I've informed the President that GSA has made this 
commitment, and that this goal will be one of GSA's highest 
priorities over this upcoming year.
    So what can you expect in the next few months? More. We are 
going to build what we can, where we can, as fast as we can. I 
visit our ports of entry in our meeting with local leaders at 
every place I go to, and this isn't just about money. The fact 
is that projects to build additional capacity at our port of 
entries have been hindered by excessively long bureaucratic 
processes and planning cycles that make it so hard to build and 
it takes too long to navigate them. We've made a lot of 
progress in delivering the new improvements to our schedules. 
We're going to be more aggressive about using the money that 
Congress has given us wisely. Third, we're going to go to the 
private sector and other American entrepreneurs and come and 
ask them for some of these innovative solutions that they've 
come up with. These good ideas need to be encouraged.
    At the close of my testimony, I want you to understand that 
our determination and commitment to implementing the 
President's strategy of improving security while simultaneously 
expediting the free flow of legitimate trade and travel is not 
just about the funding. If you remember 9/11, when al Qaeda 
attacked us, they purposely chose to target our most prominent 
symbols of trade and prosperity: The World Trade Center. Bin 
Laden was very clear about what he said, that his goal was to 
provoke us into making silly decisions that would result in 
self-inflicted damage to our economy and to our free trade. 
Long lines of frustrated travelers at our ports of entry give 
bin Laden a victory that he does not deserve. We can do better 
and we can strike a blow against al Queda by making sure that 
our trade and our travelers move safely and freely across the 
borders without long delays.
    That is exactly the policy that the President developed. It 
will take toil and tears and sweat to fully implement, but, Mr. 
Chairman, I want you to know that this is exactly what you can 
expect from the men and the women at GSA.
    [The statement of Ms. Doan follows:]

                  Prepared Statement of Lurita A. Doan
                           December 15, 2007

    Good morning, Mr. Chairman, Ranking minority Member King, Members 
of the committee and Congressman Reyes. I am Lurita Doan, the 
Administrator of General Services at the U.S. General Services 
Administration (GSA). I am pleased to be back here in El Paso with the 
opportunity to appear before you today to discuss the challenges facing 
our Nation's ports of entry: the challenges of ensuring homeland 
security while facilitating the free flow of legitimate trade and 
travel. Toward that end, I will be discussing GSA's role in the 
planning, construction, renovation and maintenance our Nation's Land 
Ports of Entry (LPOE). GSA has the primary responsibility for 
designing, building, and maintaining our Nation's ports of entry, but 
we do not hold a monopoly on good ideas.
    reasserting gsa's leadership role in building capacity at lpoe's
    As you well know, there is an urgent need in the Nation to rethink 
the way we plan, design and build our ports of entry. We need new 
energy and new ideas. Over the past 15 years or so, our trade across 
the borders has dramatically increased while the capacity of our LPOEs 
to handle this new traffic has not kept pace. To solve this problem, we 
are going to have to think differently.
    As GSA Administrator, I am always on the look-out for best 
practices in solving complex problems. As an Administrator who views 
government through the eyes of an unabashed entrepreneur, I have 
admitted that I think GSA has been too timid in leading the effort to 
design and build additional capacity at our LPOEs. We should be bolder 
in setting an ambitious agenda. The American people are counting on us.
    I have committed GSA to more boldly assume the leadership role to 
better design, build, expand, and maintain our Nation's LPOEs. Our goal 
is simple: to expand capacity and build new facilities where they are 
needed most, in a timely manner. The days of performing yet another 
study to tell us that we have a congested border are over. I have 
retooled our Border Ports of Entry team at GSA to allow for good ideas 
to come from people working and living along the borders. Not all good 
ideas emanate out of Washington. I have heard some great ideas and 
solutions from GSA's people who are in the field and work at the ports 
of entry every day.
    GSA clearly understands the importance of, and is committed to, 
actively working with all key agencies, to build the best LPOEs for the 
safety of the United States and which support legitimate free trade. 
GSA is an active member of the Border Facilitation Working Group 
(BFWG).
    The role of the BFWG is to define and analyze critical border 
facilitation issues and develop policy proposals for consideration by 
the entire Border and Transportation Security Policy Coordination 
Committee. The working group recommends improvements in existing 
interagency practices, coordination and execution of U.S. border 
facilitation plans and policies, activities and initiatives. The BFWG 
addresses issues at the Federal, State, local, tribal and international 
levels in order to ensure interagency integration and alignment. The 
BFWG has visited several of our critical LPOEs to observe the 
processes, (including the El Paso LPOEs on December 4) discuss issues 
or areas of concern at the borders, as well as discuss successes and 
share ``best practices'' of borders. The BFWG meets with CBP officers 
and with the local officials and community stakeholders, on both sides 
of a shared border, to discuss issues and concerns.
    To be sure, Federal money is an important resource. But I am eager 
also to explore other innovative financing that would help us build 
more capacity without always depending upon Federal funding. Nogales 
proved that when there is a strong business case, the private sector is 
willing and able to participate.
    Our borders present complex real estate challenges. We have many 
stakeholders, all of whom know there is not one silver-bullet solution 
that can provide for security and, simultaneously, the free flow of 
trade across all 6,900 miles--especially not if you have ever been to 
the border, as I have, and have seen how different the challenges are: 
Houlton is not El Paso, Pembina is not Andrade, Blaine is not 
Lukeville, Detroit is not San Ysidro.
    CBP is one of our most important customer agencies, and we support 
their mission to keep our borders safe from those who wish to do harm 
to the United States while also maintaining open commerce and trade 
with all of our international partners. Today I'd like to talk about:
    (1) How GSA is reasserting its leadership role in building 
        increased capacity at ports of entry;
    (2) Our national LPOE portfolio as well as current projects and 
        initiatives in the El Paso area;
    (3) What we are doing to streamline our processes and expedite 
        project delivery as well as explore alternative financing; and
    (4) Our community outreach efforts.
     land port of entry portfolio and projects in the el paso area
    There are 163 LPOEs along the Northern and Southern borders 
encompassing more than 1,900 miles between the United States and Mexico 
and over 5,000 miles between the United States and Canada. One hundred 
twenty of these ports, approximately 75 percent, are either Government-
owned or -leased border inspection facilities under the jurisdiction 
and control of GSA as the primary service provider to CBP. The 
remaining 43 are under the jurisdiction and control of the Department 
of Homeland Security.
    Approximately 20 years ago, there was a major border crossing 
improvement program along the southern border. From 1987 until 1996, 
GSA spent more than $350 million to expedite trade and traffic across 
the border. Nearly $50 million was spent on the LPOEs in the El Paso 
area. At that time, everyone anticipated that the investment would not 
only prepare the border for the increased cross border activity 
resulting from NAFTA, but would actually handle the increased traffic 
for the next 20 years. I doubt that many in this room would have 
predicted that less than 15 years later, all of these ports of entry 
would have reached their capacity. Today, five new LPOEs have been 
authorized for design or construction or both. Four of those are along 
the southern border, including the Tornillo-Guadalupe project here in 
El Paso County.
    Currently, there are six LPOEs here in the El Paso Metropolitan 
Planning Organization's area: Paso del Norte, Stanton Street, the 
Bridge of the Americas, Ysleta, Fabens, and Santa Teresa, NM. These 
ports are important to the flow of our international commerce, and are 
vital to the region's trans-border economy and an important link in the 
area's transportation system.
    The El Paso-Juarez metropolitan area represents one of, if not the, 
largest border community in the world, with a combined population of 
over 2 million people. We expect to see a large percentage growth in 
Dona Ana and El Paso Counties between 2005 and 2025 (35 percent and 27 
percent, respectively). This growth in El Paso will likely have a 
direct impact on traffic levels at the El Paso LPOEs at Paso del Norte, 
Bridge of the Americas, Stanton Street and Ysleta.
    The city of Ciudad Juarez, which accounted for 41 percent of the 
State of Chihuahua's total population in 2005, is undergoing 
substantial population growth as well. As a growing number of Mexican 
citizens move north searching for jobs and higher wages, they are 
arriving in Ciudad Juarez at a rapid rate. As a result, Ciudad Juarez 
is expected to grow by 57 percent between 2005 and 2025.
    GSA has a long history of partnering closely with the city of El 
Paso, El Paso County, the El Paso Metropolitan Planning Organizations, 
the Texas Department of Transportation (TXDOT) and others in the 
delivery of port of entry projects in the El Paso area. I would like to 
share some of those success stories with you today.
    In 1998, with the support of the local community and TXDOT, $2.4 
million was transferred to GSA from the U.S. Department of 
Transportation for the addition of four inspection lanes and the 
renovation of the secondary inspection area at the Bridge of the 
Americas Port of Entry. The remainder of the funding came from GSA, the 
U.S. Customs Service, the Immigration and Naturalization Service and 
the Department of Agriculture. As a result, over 7.6 million vehicles 
and nearly 385,000 trucks were inspected there in 2005. It was a 
classic example that shows how successful a project can be when the 
city, State and Federal Governments all work together.
    In 2001, the local community supported the transfer of $1 million 
from TXDOT for the expansion of lanes at the Paso del Norte Port of 
Entry. That funding, along with $1.2 million of Federal appropriations 
that Chairman Reyes helped us obtain, provided the necessary design 
funding for the project now underway. The project will renovate and 
expand the administration building, expand the pedestrian processing 
area from 8 lanes to 14 lanes, and will add two new vehicle inspection 
lanes. In 2005, over 3.5 million vehicles, 2,600 buses and 6.5 million 
pedestrians were inspected at this port, and we expect the expanded 
inspection facilities to further increase these numbers. This project 
is planned for completion in summer 2009.
    In December 2006, GSA awarded the construction project for the 
expansion of the Ysleta Port of Entry. This project will increase the 
number of commercial inspection lanes, promote the expanded use of Free 
and Secure Trade (FAST) lanes by pre-enrolled commercial vehicles, and 
allow for direct truck access to the Texas vehicle inspection facility 
without entering or crossing city streets. In addition, TXDOT is making 
significant road improvements to remove bottlenecks for trucks exiting 
the port. This project is scheduled for completion in late 2008.
    Pending congressional appropriation of funds in fiscal year 2008, 
GSA plans to proceed with the design of the new LPOE at Tornillo. This 
new crossing is sponsored by the County of El Paso and will replace the 
current two-lane wooden bridge. GSA has worked closely with the county 
for the last 10 years to get to this stage. The county will be donating 
over 110 acres of land along with providing utilities to the site. This 
LPOE will serve both passenger and commercial vehicles.
    In spite of all of these on-going projects, there continues to be 
concerns about wait times at the El Paso crossings. At CBP's request, 
GSA has initiated a feasibility study to look at the expansion 
capabilities at the Bridge of the Americas. As we saw earlier today, 
the port is essentially boxed in since it is surrounded by highway 
infrastructure on three sides and a National Park on the other side.

               STREAMLINED PROCESSES AND PROJECT DELIVERY

    As mentioned in the Government Accountability Office's (GAO) 
November 5, 2007 Report on Border Security,\1\ and in the GAO's 
November 13 testimony before the Senate Committee on Homeland Security 
and Governmental Affairs,\2\ the current delivery time for GSA to 
design and deliver LPOEs for CBP is approximately 7 years. In an effort 
to deal with CBP's growing need since September 11, our two agencies 
have been working closely together for the past year to find ways to 
streamline the cost and time required to develop, deliver, and maintain 
CBP facilities while meeting its mission requirements. One of the key 
things we've been doing in conjunction with CBP is reviewing GSA's 
current project delivery methods and implementing new streamlined 
project delivery methods whenever possible.
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office Report entitled, ``Border 
Security; Despite Progress Weaknesses in Traveler Inspections Exist at 
Our Nation's Ports of Entry,'' GSA-08-218 (Nov. 5, 2007).
    \2\ GAO Testimony Before the Subcommittee on Oversight of 
Government Management, the Federal Workforce, and the District of 
Columbia, Committee on Homeland Security and Governmental Affairs, GAO-
08-192T (Nov. 13, 2007).
---------------------------------------------------------------------------
 CONSOLIDATED MANAGEMENT AND FUNDING OF KEY PRE-DESIGN AND ACQUISITION 
                                 PHASES

    In an effort to establish a consistent approach in LPOE pre-design, 
design and acquisition, GSA recently consolidated the procurement and 
funding of commonly used services. These include feasibility studies, 
project design and special services.
    One of the first steps before designing any project, including 
LPOEs, is to undertake a feasibility study. This serves as the planning 
document offering alternatives for site layout, building locations, 
land acquisition strategy, and traffic flow patterns. It identifies any 
environmental issues, establishes the project schedule, provides cost 
estimates, and outlines procurement and funding strategies. In the 
past, each region of the country used its own contracting vehicles, 
which sometimes resulted in inexperienced architect-engineer firms who 
were unfamiliar with the complexities of working on the border. To 
establish consistency and provide a quality product, GSA held a 
competition for a national services contract for these border station 
feasibility studies. The selected architect and engineering firms have 
undergone training from our regional and national offices to provide 
them a clear understanding of the GSA/CBP mission, objectives, and 
priorities.
    We have also done a similar competition for the selection of design 
firms, which will provide a more consistent level of quality design. By 
having a group of architectural and engineering firms that have already 
been vetted through a national competition, the time to conduct the 
procurement process can be reduced by up to 5 months.

                    IMPROVE PROJECT COST ESTIMATION

    In today's difficult construction market with the price of 
materials and labor rates skyrocketing, particularly in markets like El 
Paso, GSA has been working on ways to incorporate trend analysis to 
identify recurrent costs across our real estate portfolio. This allows 
us to aggregate certain costs to gain efficiencies where possible. GSA 
is also aligning material and labor factors to local markets, while 
continuously comparing the accuracy of project estimates with key 
project or funding process milestones. This will improve the ability of 
our people to estimate project costs and cut down on the need to return 
to Congress and seek additional funding on projects, thus causing 
project delays.

   INSTITUTE A FORMAL PROJECT APPROVAL AND CHANGE MANAGEMENT PROCESS

    GSA, in partnership with CBP, is currently implementing and 
coordinating a formal change management process throughout all of the 
project delivery phases. This is to make sure that all of the project's 
stakeholders are aware and have approval, as necessary, of any project 
changes that could affect scope, schedule and cost.

      ADOPT A SYSTEMS APPROACH TO FACILITY DESIGN AND DEVELOPMENT

    In the past, for each LPOE project, the design firm would develop a 
new design for all of the LPOE components. In an effort to reduce 
design time from 2 years to 1, GSA and CBP identified standardized 
components of LPOE facilities that can be applied in designs Nation-
wide. These components include: lane systems, canopy cable trays, 
inspection booths, processing counters, holding cells, secondary 
inspection buildings, and non-invasive inspection buildings. This 
creation of an ``LPOE Design Kit'' of construction details will greatly 
streamline assembly of a project's construction documents and assist 
throughout construction phases. For smaller, more remote ports with 
similar profiles, primarily on the Northern Border, GSA will also 
utilize LPOE prototypical building designs, where appropriate.

            STREAMLINING THE PRESIDENTIAL PERMITTING PROCESS

    In his constitutional role to conduct the foreign relations of the 
United States, in 1968, the President issued Executive Order (E.O.) 
11423 authorizing the Secretary of State to issue Presidential permits 
for the construction of facilities crossing our international borders. 
In 2004, President Bush issued E.O. 13337 clarifying that the 
Presidential permitting process applied to all new border crossings as 
well as to substantial modifications to existing crossings. Over the 
past couple of years, GSA has worked closely with other Federal 
agencies in the development of guidelines for the implementation of 
E.O. 13337, regarding the application for Presidential permits. As a 
result of the collaborative efforts of the Department of State, the 
Federal Highway Administration, CBP and GSA, earlier this year the 
Department of State issued implementing guidelines that alleviate the 
need for applying for a Presidential permit for modification of 
inspection facilities projects that do not have a substantial impact on 
the actual crossing or the operations in the adjacent country. These 
efforts have significantly streamlined the Presidential permitting 
process. But the next step is to be sure that the interpretation of the 
guidelines is communicated to all within the organization and adopted 
Nation-wide.
    So, while all new crossings and any proposed substantial change to 
a crossing that is expected to have a material impact on either Canada 
or Mexico (for example the closing of a crossing or permanently 
changing the physical capacity of the crossing) will still require a 
Presidential permit, many of GSA's routine renovations, infrastructure 
improvements, and interior changes to existing border inspection 
facilities will not require a permit. GSA appreciates the Department of 
State's willingness to work with the interagency working group to 
develop and issue these new guidelines.

                           COMMUNITY OUTREACH

    As I mentioned earlier, GSA tries to engage the local communities 
as early as possible when beginning new projects. Over the past year, 
our regional and national offices have worked diligently to reach out 
to the community stakeholders in El Paso. I have also personally toured 
the ports here in El Paso, along with David Winstead, the Commissioner 
of the Public Buildings Service, and we are committed to continuing a 
dialog as these projects move forward. As a result of our outreach 
efforts, community groups have had the opportunity to discuss issues 
with our leadership. The community has brought a variety of proposals 
and solutions to our attention with the mutual benefit of expediting 
projects while minimizing the impact on the citizens of El Paso. Our 
next step is to execute on these efforts.
    We recognize the importance of including the local community 
throughout the process and we value its contribution. We will continue 
to strive for open and meaningful communication. While the long-term 
benefits of projects of this scope are easy to recognize, we also 
understand the adverse short-term effects on the local economy as 
traffic is diverted and wait times increase during the construction 
period. To avoid such effects, we are committed to open dialog between 
and among the stakeholders, as we are doing now by providing weekly 
updates on our Paso del Norte project to Chairman Reyes and Mayor Cook, 
so that they can share the information with their interested 
constituents.

                               CONCLUSION

    Securing the Nation's borders is critical in preventing terrorists, 
illegal drugs or harmful products or produce from entering the country, 
but we must also facilitate the movement of legitimate international 
travel and trade in the form of the millions of travelers and billions 
of dollars in commercial goods that pass through our LPOEs every year. 
Due to the critical importance of these border inspection facilities to 
our Nation's security, it is imperative for GSA to continue to make the 
best possible effort to provide and maintain border crossings and 
border inspection facilities that can most effectively and efficiently 
handle the increased demands and future growth of border security and 
flow of traffic and trade.
    Mr. Chairman this concludes my formal statement. I look forward to 
continuing our discussion with you and Members of the committee on our 
continued efforts to build increased capacity and infrastructure at our 
Nation's borders.

    Chairman Thompson. Thank you very much. I now recognize Mr. 
Stana to summarize his statement for 5 minutes.

STATEMENT OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
           JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Thank you, Chairman Thompson, and the 
distinguished Members. I'm pleased to be here today in El Paso 
to discuss GAO's recent report on CBP traveler inspections at 
our Nation's ports of entry. As you know, CBP is the lead 
Federal agency responsible for inspecting travelers who enter 
the United States. In carrying out this responsibility, over 
17,000 CBP officers are charged with keeping terrorists and 
other dangerous or inadmissible people from entering the 
country while also facilitating cross-border movement of 
millions of travelers and legitimate cargo. For fiscal year 
2007, CBP had a budget of $9.3 billion, of which $2.5 billion 
was for border security and trade facilitation at ports of 
entry.
    My prepared statement summarizes the report we issued to 
you on November 5, Mr. Chairman. In my oral statement I'd like 
to highlight three main points of interest for this hearing.
    First, CBP officers at the ports of entry have had some 
success in identifying inadmissible aliens and other violators. 
In fiscal year 2006 they successfully turned away over 200,000 
travelers who attempted illegal entry at the ports and seized 
more than 40,000 phony documents. Despite this success, 
weaknesses in inspection procedures resulted in many thousands 
of illegal aliens and other violators from entering the 
country. This problem is not new, and previous attempts to fix 
it have not been fully successful.
    In 2003 we reported on several weaknesses in the CBP 
inspection process that permitted inadmissible aliens to enter 
the country, and we recommended improvements. In 2006 CBP 
identified weaknesses in its inspection procedures, such as 
officers waving vehicles into the country without stopping the 
vehicle or interviewing the driver or its passengers. CBP 
headquarters called for corrective actions in 2006, but our 
subsequent testing showed that significant weaknesses still 
existed. In several locations we found, among other things, 
that travelers' nationality and admissibility were not always 
verified and inspection booths were not always staffed.
    In July 2007 CBP revised its policies and procedures for 
traveler inspections at land crossings to require that its 
officers handle the travel document of each traveler and when 
possible check the document against law enforcement databases. 
They also call on CBP supervisors to monitor officer compliance 
with the new procedures and for CBP headquarters to do 
compliance testing. The extent that these actions are 
successful remains to be seen.
    My second point is that CBP faces several challenges in 
addressing the physical infrastructure weaknesses. CBP 
estimates that it needs about $4 billion in capital 
improvements for its 163 land crossings along the northern and 
southern borders. For example, here in El Paso at the Bridge of 
the Americas CBP determined that there is limited space in the 
current facility for current CBP operations, let alone future 
growth. The bridge fence and lighting are inadequate to prevent 
illegal entry on the bridge, and that better signage and 
controls are necessary to control the vehicle traffic.
    However, making these and other infrastructure changes is 
not easy. The General Services Administration owns or leases 
from private entities, such as private bridge commissions, most 
of the 163 land border crossings including the Bridge of the 
Americas. As a result, CBP must coordinate the design and 
construction of any capital improvements with these and other 
entities such as State highway departments, and that's a 
process that can take up to 7 years from start to finish. Also 
CBP does not control the funding needed for capital 
improvements but rather submits its proposals to GSA where CBP 
proposals were considered for funding with those of other 
agencies. Therefore the degree to which improvements can be 
made at land ports and how long they will take depend on the 
results of discussions with various stakeholders and available 
funding.
    My last point is that while new policies, procedures and 
infrastructure improvements may help strengthen traveler 
inspections, they alone will not fully address the causes of 
failed inspections. CBP staffing model shows it may need up to 
several thousand new officers to properly operate its ports of 
entry. CBP managers at seven of the eight ports we visited told 
us that staffing shortfalls adversely affected their ability to 
carry out traveler inspections in a number of ways, including 
not having staff to carry out anti-terrorism programs and 
requiring extensive overtime to cover routine operations, which 
can cause morale problems, fatigue and a lack of back-up 
support.
    Officer attrition is a contributing factor. In some 
locations it's sometimes difficult to hire enough staff to 
replace officers who leave, let alone fill open slots. Staffing 
shortfalls can also affect CBP's ability to provide both 
classroom and on-the-job training to its officers. Port 
officials sometimes need to make a tough choice between 
allowing staff to go to training and improve their skills or 
require staff to forego training because they are needed to do 
inspections. Moreover, when training is provided, CBP does not 
measure the extent to which the courses are delivered to the 
officers who need it nor does it require new officers to 
demonstrate proficiency and required skills after they take the 
courses.
    In closing, having a sufficient number of well-trained and 
well-supervised CBP officers is important for the safety and 
well-being of our Nation and for allowing legitimate travelers 
and cargo to proceed through the ports at an acceptable pace. 
Our work underscores the need for CBP to address weaknesses in 
its policies, procedures, supervisory controls and 
infrastructure, to find ways to adequately staff its ports of 
entry including developing and implementing strategies for 
retaining good staff, and to improve classroom and on-the-job 
training programs for its officers. None of these actions alone 
can fix the problems we found, but a coordinated and well-
implemented effort can mitigate the risk and consequences of 
failed traveler inspections.
    Mr. Chairman, this concludes my oral statement. I would be 
pleased to answer any questions that you or other Members may 
have.
    [The statement of Mr. Stana follows:]

                 Prepared Statement of Richard M. Stana
                            January 3, 2008

                             GAO HIGHLIGHTS

    Highlights of GAO-08-329T, a testimony before the Committee on 
Homeland Security, House of Representatives.

Why GAO Did This Study
    U.S. Customs and Border Protection (CBP) is responsible for keeping 
terrorists and other dangerous people from entering the country while 
also facilitating the cross-border movement of millions of travelers. 
CBP carries out this responsibility at 326 air, sea, and land ports of 
entry. In response to a congressional request, GAO examined CBP 
traveler inspection efforts, the progress made, and the challenges that 
remain in staffing and training at ports of entry, and the progress CBP 
has made in developing strategic plans and performance measures for its 
traveler inspection program. To conduct its work, GAO reviewed and 
analyzed CBP data and documents related to inspections, staffing, and 
training, interviewed managers and officers, observed inspections at 
eight major air and land ports of entry, and tested inspection controls 
at eight small land ports of entry. GAO's testimony is based on a 
report GAO issued November 5, 2007.

What GAO Recommends
    GAO made recommendations aimed at enhancing internal controls in 
the inspection process, mechanisms for measuring training provided and 
new officer proficiency, and a performance measure for apprehending 
inadmissible aliens and other violators. The Department of Homeland 
Security (DHS) concurred with GAO's recommendations. DHS said that CBP 
is taking steps to address the recommendations.

 BORDER SECURITY: DESPITE PROGRESS, WEAKNESSES IN TRAVELER INSPECTIONS 
                  EXIST AT OUR NATION'S PORTS OF ENTRY

What GAO Found
    CBP has had some success in identifying inadmissible aliens and 
other violators, but weaknesses in its operations increase the 
potential that terrorists and inadmissible travelers could enter the 
country. In fiscal year 2006, CBP turned away over 200,000 inadmissible 
aliens and interdicted other violators. Although CBP's goal is to 
interdict all violators, CBP estimated that several thousand 
inadmissible aliens and other violators entered the country though 
ports of entry in fiscal year 2006. Weaknesses in 2006 inspection 
procedures, such as not verifying the citizenship and admissibility of 
each traveler, contribute to failed inspections. Although CBP took 
actions to address these weaknesses, subsequent follow-up work 
conducted by GAO months after CBP's actions found that weaknesses such 
as those described above still existed. In July 2007, CBP issued 
detailed procedures for conducting inspections including requiring 
field office managers to assess compliance with these procedures. 
However, CBP has not established an internal control to ensure field 
office managers share their assessments with CBP headquarters to help 
ensure that the new procedures are consistently implemented across all 
ports of entry and reduce the risk of failed traveler inspections.
    CBP developed a staffing model that estimates it needs up to 
several thousand more staff. Field office managers said that staffing 
shortages affected their ability to carry out anti-terrorism programs 
and created other vulnerabilities in the inspections process. CBP 
recognizes that officer attrition has impaired its ability to attain 
budgeted staffing levels and is in the process of developing a strategy 
to help curb attrition. CBP has made progress in developing training 
programs; however, it does not measure the extent to which it provides 
training to all who need it and whether new officers demonstrate 
proficiency in required skills.
    CBP issued a strategic plan for operations at its ports of entry 
and has collected performance data that can be used to measure its 
progress in achieving its strategic goals. However, current performance 
measures do not gauge CBP effectiveness in apprehending inadmissible 
aliens and other violators, a key strategic goal.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Chairman and Members of the committee: I appreciate the 
opportunity to participate in today's field hearing in El Paso Texas, 
to discuss the Department of Homeland Security's (DHS) efforts to 
inspect travelers at our Nation's ports of entry.\1\ My statement today 
is based on our November 5, 2007, report \2\ that describes the 
progress made by CBP in inspecting travelers at air and land ports of 
entry and the challenges that remain.\3\
---------------------------------------------------------------------------
    \1\ Ports of entry are Government-designated locations where CBP 
inspects persons and goods to determine whether they may be lawfully 
admitted into the country. A land port of entry may have more than one 
border crossing point where CBP inspects travelers for admissibility 
into the United States.
    \2\ See GAO, Border Security: Despite Progress, Weaknesses in 
Traveler Inspections Exist at Our Nation's Ports of Entry, GAO-08-219 
(Washington, DC: Nov. 5, 2007).
    \3\ Our November 2007 report (GAO-08-219) is the public version of 
a For Official Use Only report that we issued on October 5, 2007. This 
report contained sensitive information about CBP traveler inspection 
efforts, including information on the techniques used to carry out 
inspections, data on the number of inadmissible aliens and other 
violators that enter the country each year, and data on staffing at 
ports of entry. See GAO, Border Security: Despite Progress, Weaknesses 
in Traveler Inspections Exist at Our Nation's Ports of Entry, GAO-08-
123SU (Washington, DC: Oct. 5, 2007).
---------------------------------------------------------------------------
    The U.S. Customs and Border Protection (CBP)--a major component 
within DHS--is the lead Federal agency in charge of inspecting 
travelers seeking to enter the United States at 326 air, land, and sea 
ports of entry. CBP officers, who number about 17,600 at these ports of 
entry, play a critical role in carrying out this responsibility. Since 
the terrorist attacks of September 11, 2001, their role has involved 
increased emphasis on countering threats posed by terrorists and others 
attempting to enter the country with fraudulent or altered travel 
documents. Intelligence officials believe that the United States will 
face a persistent and evolving terrorist threat and that the terrorist 
group al Qaeda will intensify its efforts to put operatives here.
    In addition to its homeland security responsibilities, CBP is 
responsible for preventing inadmissible aliens, criminals, and 
inadmissible goods from entering the country. Doing so is a difficult 
task given the high volume of travelers and goods that enter the 
country. For example, officers frequently carry out their 
responsibilities with little time to make decisions about admitting 
individuals into the country because they also face pressure to 
facilitate the cross-border movement of millions of legitimate 
travelers and billions of dollars in international trade.
    When CBP was created in March 2003, it represented a merger of 
components from three departments--the U.S. Customs Service,\4\ the 
U.S. Immigration and Naturalization Service,\5\ and the Animal and 
Plant Health Inspection Service.\6\ As part of the merger, CBP moved 
forward with an approach that was to allow a CBP officer, with the 
proper cross-training, to carry out homeland security as well as 
traditional customs and immigration responsibilities. For example, 
former customs inspectors would be trained and work on tasks 
traditionally done by immigration inspectors and vice versa. The CBP 
officer would also be capable of referring agricultural violations to 
agricultural specialists. By training officers from legacy agencies to 
perform both the customs and immigration functions, CBP aimed to have a 
well-trained and well-integrated work force to carry out the range of 
the agency's missions.
---------------------------------------------------------------------------
    \4\ U.S. Customs Service was in the U.S. Department of the 
Treasury. Customs inspectors were primarily responsible for inspecting 
cargo and goods.
    \5\ U.S. Immigration and Naturalization Service was in the 
Department of Justice. Immigration inspectors were responsible for 
processing people traveling across the border.
    \6\ Animal and Plant Health Inspection Service was in the 
Department of Agriculture. Unlike the Customs Service and the 
Immigration and Naturalization Service, which were moved to DHS in its 
entirety, Animal and Plant Health Inspection Service continues to exist 
within the Department of Agriculture and retains responsibility for 
conducting, among other things, veterinary inspections of live imported 
animals, establishing policy for inspections and quarantines, and 
providing risk analysis.
---------------------------------------------------------------------------
    In July 2003, we reported on vulnerabilities and inefficiencies in 
traveler inspections.\7\ Given the critical role that CBP plays in 
homeland security, you asked us to review the progress CBP has made in 
strengthening its ability to inspect travelers arriving at the Nation's 
international airports and land borders. In response, on November 5, 
2007, we issued a report that addressed the following questions:
---------------------------------------------------------------------------
    \7\ See GAO, Land Ports of Entry: Vulnerabilities and 
Inefficiencies in the Inspections Process, GAO-03-782 (Washington, DC: 
July 2003).
---------------------------------------------------------------------------
  <bullet> What success and challenges has CBP had in interdicting 
        inadmissible aliens and other violators \8\ at its ports of 
        entry?
---------------------------------------------------------------------------
    \8\ Other violators include individuals seeking to enter the 
country who are not in compliance with the laws and regulations for 
entry, including immigration, customs, and agricultural requirements.
---------------------------------------------------------------------------
  <bullet> What progress has CBP made in improving staffing and 
        training at its ports of entry and how successful has it been 
        in carrying out these work force programs?
  <bullet> What progress and problems has CBP encountered in setting 
        goals and performance measures for its traveler inspection 
        program?
    To address the questions above, we analyzed information and data on 
CBP's traveler inspections, staffing, and training at ports of entry. 
We reviewed CBP policies and procedures for the traveler inspection 
program as well as other documents related to traveler inspection 
efforts. We interviewed CBP officials on the status of CBP efforts to 
develop a staffing model, train staff, carry out traveler inspections, 
and develop performance measures.\9\ For information that would provide 
an overall picture of CBP's efforts, we reviewed and analyzed several 
Nation-wide databases, including data on staffing, training, attrition, 
resource requests from CBP's 20 field offices \10\ and 1 pre-clearance 
headquarters office, and apprehension of inadmissible aliens and other 
violators at major air and land ports of entry. We assessed the 
reliability of CBP's data from CBP's random selection program of 
travelers and staffing and training data by, among other things, 
meeting with knowledgeable officials about these data, reviewing 
relevant documentation, and performing electronic testing. We concluded 
that data from CBP databases, with the exception of the data on 
training as we discuss in our report, were sufficiently reliable for 
the purposes of our review. Although we discussed the staffing model 
and its results with CBP officials responsible for the model, 
validating the model and its results was outside the scope of our 
review.
---------------------------------------------------------------------------
    \9\ Our work on training focused on the training provided at ports 
of entry and did not include basic training given to CBP officers at 
the Federal Law Enforcement Training Center. We also did not examine 
the role of agricultural specialists in CBP because we issued a report 
on agricultural inspections at ports of entry last year. See GAO, 
Homeland Security: Management and Coordination Problems Increase the 
Vulnerability of U.S. Agriculture to Foreign Pests and Disease, GAO-06-
644 (Washington, DC: May 19, 2006).
    \10\ BP's 20 field offices are responsible for managing more than 
300 ports of entry.
---------------------------------------------------------------------------
    To supplement our analyses of CBP's Nation-wide data, we visited 
eight ports of entry. While we cannot generalize our work from our 
visits to all ports of entry, we chose these ports of entry to provide 
examples of operations at air and land ports of entry. At each site, we 
held discussion groups with CBP officers and met with management to 
discuss, among other things, staffing and training programs. In 
addition, GAO investigators visited other small ports of entry to test 
the traveler inspection process. Although we cannot generalize our 
investigators' work at these locations to all ports of entry, we 
selected these ports of entry to provide examples of traveler 
inspections. Our investigators did their work in accordance with 
quality standards for investigations as set forth by the President's 
Council on Integrity and Efficiency. Unless we specify that the work 
was done by our investigators, all referrals to our visits to ports of 
entry pertain to the eight air and land ports of entry we visited. In 
addition, we analyzed the 2004 and 2006 Office of Personnel Management 
Federal Human Capital Surveys of staff at 36 Federal agencies, 
including the results from CBP, that dealt with the views of Federal 
employees on training and staffing in the workplace. We reviewed 
standards for internal control in the Federal Government \11\ and 
compared the standards for information and communications and 
monitoring with CBP's policies and procedures for traveler inspections. 
Finally, we reviewed prior GAO reports on best practices for developing 
strategic plans and performance measures and compared the best 
practices with CBP's plans and measures for its operations at its ports 
of entry. We did our work in accordance with generally accepted 
government auditing standards from August 2006 through September 2007.
---------------------------------------------------------------------------
    \11\ GAO, Standards for Internal Control in the Federal Government, 
GAO/AIMD-00-21.3.1 (Washington, DC: November 1999).
---------------------------------------------------------------------------
                                SUMMARY

    CBP has had some success in interdicting inadmissible aliens and 
other violators, but weaknesses in its traveler inspection procedures 
and related physical infrastructure increase the potential that 
dangerous people and illegal goods could enter the country. In 2006, 
CBP officers turned away over 200,000 aliens who attempted to enter the 
country illegally, and seized over 600,000 pounds of illegal drugs and 
more than 40,000 fraudulent documents, according to CBP. To help 
officers identify potential violators, CBP has installed additional 
technology to inspect vehicles for smuggled aliens and illicit cargo 
and to check traveler documents against law enforcement databases. 
While CBP has had some success in apprehending inadmissible aliens and 
other violators, its analyses indicate that several thousand 
inadmissible aliens and other violators entered the country at air and 
land ports of entry in fiscal year 2006.\12\ When CBP does not 
apprehend a potentially dangerous person, this increases the potential 
that national security may be compromised. Weaknesses that contributed 
to failed inspections relate both to procedures and to infrastructure:
---------------------------------------------------------------------------
    \12\ We did not include data on the rate at which CBP apprehends 
inadmissible aliens and other violators who seek to enter the country 
because the data are considered sensitive.
---------------------------------------------------------------------------
    Weaknesses in traveler inspection procedures.--In mid-2006, CBP 
reviewed videotapes from about 150 large and small ports of entry and, 
according to CBP officials, determined that while CBP officers carried 
out thorough traveler inspections in many instances, they also 
identified numerous examples where traveler inspections at land ports 
of entry were weak in that they did not determine the citizenship and 
admissibility of travelers entering the country as required by law. The 
following were examples that were on the videotape:
  <bullet> In one instance, officers waved vehicles into the United 
        States without stopping the vehicle or interviewing the driver 
        or its passengers as required. In another instance, motorcycles 
        passed through inspection lanes without stopping and making any 
        contact with an officer. In a third instance, during ``lane 
        switches'' when CBP officers were relieved of their duty and 
        replaced by other officers, officers waved traffic through the 
        lane while the officer logged into the computer. The proper 
        procedure is for traffic to be stopped until the officer is 
        logged into the system and is available to perform proper 
        inspections.
  <bullet> In another instance, while the CBP officer was reviewing 
        information on his computer screen, he waved pedestrians 
        through the lane without looking at them, making verbal 
        contact, or inspecting travel documents. In another instance, 
        travelers would simply hold up their identification cards and 
        officers would view them without stepping out of the booth 
        before waving the vehicle through. In these cases, the officers 
        did not appear to make verbal contact with the passengers and 
        did not interview any passengers sitting in the back seat of 
        the vehicle. As a final example, officers did not board 
        recreational vehicles to determine whether additional traveler 
        inspections should be carried out.
    Without checking the identity, citizenship, and admissibility of 
travelers, there is an increased potential that dangerous people and 
inadmissible goods may enter the country and cause harm to American 
citizens and the economy. According to CBP interviews with apprehended 
alien smugglers, alien smuggling organizations have been aware of 
weaknesses in CBP's inspection procedures and they have trained 
operatives to take advantage of these weaknesses. This awareness 
heightens the potential that failed inspections will occur at ports of 
entry when such procedural weaknesses exist.
    According to CBP senior management, the factors that may have 
contributed to these weaknesses included the following:
  <bullet> Failure to engage, lack of focus, and complacency. According 
        to CBP senior management, emphasis is not being placed on all 
        missions, and there is a failure by some of its officers to 
        recognize the threat associated with dangerous people and goods 
        entering the country.
  <bullet> Insufficient staffing. According to CBP senior management, 
        they are unable to staff ports of entry to sufficiently 
        accommodate the workload. Lack of sufficient staff contributes 
        to officers working double shifts, sometimes resulting in 
        fatigue that can affect decisions.\13\
---------------------------------------------------------------------------
    \13\ Staffing and training issues are discussed in more detail 
later in this testimony.
---------------------------------------------------------------------------
  <bullet> Lack of supervisory presence in primary inspections. CBP 
        senior management noted that lack of supervisory presence at 
        primary inspection booths can contribute to less than optimal 
        inspections.
  <bullet> Lack of training. CBP senior management acknowledged that, 
        in some cases, periodic and on-the-job training is not being 
        delivered.
    In the summer of 2006, CBP management took actions to place greater 
management emphasis on traveler inspections by holding meetings with 
senior management to reinforce the importance of carrying out effective 
inspections and by providing training to all supervisors and officers 
on the importance of interviewing travelers, checking travel documents, 
and having adequate supervisory presence. However, tests our 
investigators conducted in October 2006 and January 2007--as many as 5 
months after CBP-issued management guidance and conducted the 
training--showed similar weaknesses as those on the videotape were 
still occurring in traveler inspections at ports of entry. At two 
ports, our investigators were not asked to provide a travel document to 
verify their identity--a procedure that management had called on 
officers to carry out--as part of the inspection. The extent of 
continued noncompliance is unknown, but these results point to the 
challenge CBP management faces in ensuring its directives are carried 
out. Standards for internal control in the Federal Government require 
that information should be communicated to agency management to enable 
it to carry out its program responsibilities. In July 2007, CBP issued 
new internal policies and procedures for agency officials responsible 
for its traveler inspection program at land ports of entry. The new 
policies and procedures require field office managers to conduct 
periodic audits and assessments to ensure compliance with the new 
inspection procedures. However, they do not call on managers to share 
the results of their assessments with headquarters management. Without 
this communication, CBP management may be hindering its ability to 
efficiently use the information to overcome weaknesses in traveler 
inspections.
    Weaknesses in physical infrastructure.--While we cannot generalize 
our findings, at several land ports of entry that we examined, barriers 
designed to ensure that vehicles pass through a CBP inspection booth 
were not in place, increasing the risk that vehicles could enter the 
country without inspection.\14\ CBP recognizes that it has 
infrastructure weaknesses and has estimated it needs about $4 billion 
to make the capital improvements needed at all 163 of the Nation's land 
crossings. CBP has prioritized the ports with the greatest need. Each 
year, depending upon funding availability, CBP submits its proposed 
capital improvement projects based upon the prioritized list it has 
developed. Several factors affect CBP's ability to make improvements, 
including the fact that some ports of entry are owned by other 
governmental or private entities, potentially adding to the time needed 
to agree on infrastructure changes and put them in place. For example, 
according to CBP officials, for 96 ports of entry that are owned by the 
General Services Administration (GSA), GSA approves and prioritizes 
capital improvement projects. The process of submitting a request for 
an infrastructure improvement and completion of the project is 
approximately 7 years from start to finish, according to a GSA 
official. For 23 ports of entry that are privately owned and leased by 
GSA,\15\ CBP officials noted that coordinating with privately owned 
companies on infrastructure improvements is a difficult process because 
the private owner's interest in facilitating commerce must be balanced 
with CBP's interest in national security. As of September 2007, CBP had 
infrastructure projects related to 20 different ports of entry in 
various stages of development.
---------------------------------------------------------------------------
    \14\ The locations and a description of weaknesses in physical 
infrastructure are considered sensitive information and therefore are 
not included in this testimony.
    \15\ Examples of privately owned ports of entry that are leased to 
GSA include the Rainbow Bridge in Niagara Falls, New York, and the 
Windsor Tunnel in Detroit, Michigan.
---------------------------------------------------------------------------
    As previously mentioned, insufficient staffing and lack of training 
can contribute to a greater likelihood of failed traveler inspections. 
CBP has taken action to improve staffing and training at ports of entry 
by assessing staffing needs, adding more officers since 2005 in 
response to higher budgeted staffing levels, and developing an 
extensive training program, but it lacks: (1) Data to measure progress 
on providing required training, and (2) certain elements in its on-the-
job training program for new CBP officers, which limits its ability to 
effectively train and evaluate the performance of new officers. 
According to managers at ports of entry, staffing shortages can result 
in, among other things, officer fatigue that can affect the quality of 
traveler inspections. Untrained or poorly trained officers can increase 
the probability that terrorists, inadmissible aliens, and illicit goods 
will enter the country. Progress and problems with staffing and 
training involved the following:
    Progress and problems with staffing.--Responding to language in a 
conference report for its fiscal year 2007 appropriation, CBP has 
developed a staffing model to estimate staffing needs. The model is 
based on several assumptions, such as whether overtime is considered as 
part of CBP's staffing at ports of entry. CBP's model estimates that 
CBP may need up to several thousand more officers and agricultural 
specialists \16\ to operate its ports of entry.\17\ According to field 
officials, lack of staff is affecting their ability to carry out border 
security responsibilities. For example, we examined requests for 
resources from CBP's 20 field offices and its preclearance headquarters 
office for January 2007 and found that managers at 19 of the 21 offices 
cited examples of anti-terrorism activities not being carried out, new 
or expanded facilities that were not fully operational, and radiation 
monitors and other inspection technologies not being fully used because 
of staff shortages. At seven of the eight major ports we visited, 
officers and managers told us that not having sufficient staff 
contributes to morale problems, fatigue, lack of backup support, and 
safety issues when officers inspect travelers--increasing the potential 
that terrorists, inadmissible travelers, and illicit goods could enter 
the country. In addition, officers at six of the eight ports of entry 
we visited indicated that officer fatigue caused by excessive overtime 
negatively affected inspections at their ports of entry. On occasion, 
officers said they are called upon to work 16-hour shifts, spending 
long stints in the primary passenger processing lanes to keep lanes 
open, in part to minimize traveler wait times.\18\ Further evidence of 
fatigue came from officers who said that CBP officers call in sick due 
to exhaustion, in part to avoid mandatory overtime, which in turn 
exacerbates the staffing challenges faced by the ports.
---------------------------------------------------------------------------
    \16\ The agricultural specialist is a technical, scientific 
position rather than a law enforcement position with an emphasis on 
detecting and preventing the importation of harmful agricultural pests 
and diseases. The agricultural specialist is responsible for conducting 
agriculture inspections of passengers and cargo as well as analysis of 
agriculture imports. Additionally, agricultural specialists are not 
authorized to carry firearms, and therefore, they cannot staff primary 
inspection lanes. However, they may provide backup support to CBP 
officers during secondary screening.
    \17\ CBP has determined that data from the staffing model is law 
enforcement-sensitive. Therefore, we are not providing more detailed 
data and information from the model in this testimony.
    \18\ Specific concerns from CBP officials of how officer fatigue 
affects primary inspections are not included in this testimony because 
the information is considered sensitive.
---------------------------------------------------------------------------
    Reported staffing shortages are exacerbated by challenges in 
retaining staff, contributing to an increasing number of vacant 
positions Nation-wide.\19\ CBP officials attribute attrition to 
retirements, officers receiving better law enforcement benefits at 
other DHS components and other Federal agencies, and new officers being 
unable to afford high cost-of-living locations. Low job satisfaction, 
as reflected in the Office of Personnel Management's (OPM) Federal 
Human Capital Survey, is also a contributing factor to attrition, 
according to CBP. CBP recognized that it has a problem with retaining 
staff and plans to develop ways to stem its problems in this area. For 
example, CBP plans to analyze attrition data and data from OPM's Human 
Capital Survey and employee satisfaction and exit surveys in order to 
help identify what actions are needed to curb attrition. CBP plans to 
develop some initial retention strategies by December 2008 and by 
September 2009 develop approaches to retain staff based on areas of 
concern identified in the employee exit survey.
---------------------------------------------------------------------------
    \19\ Specific data on CBP's budgeted staffing level and the number 
of officers on-board are not included in this testimony because CBP 
considers the data sensitive.
---------------------------------------------------------------------------
    Progress and problems with training.--CBP has developed 37 courses 
on such topics as how to carry out inspections and detect fraudulent 
documents and has instituted national guidelines for a 12-week on-the-
job training program that new officers should receive at land ports of 
entry. However, CBP faces challenges in providing the required 
training. Managers at seven of the eight ports of entry we visited said 
that they were challenged in putting staff through training because 
staffing shortfalls force the ports to choose between performing port 
operations and providing training. For example, at one land port of 
entry we visited, managers stated that courses are scheduled, but then 
canceled because of staffing concerns.
    Managers and supervisors at six of eight ports of entry we visited 
told us that vulnerabilities in traveler inspections occurred when 
officers did not receive cross-training before rotating to new 
inspection areas. Although CBP's training policy calls for no officer 
to be placed in an area without receiving the proper cross-training 
module, officers and supervisors at ports of entry we visited told us 
that officers were placed in situations for which they had not been 
trained. While we cannot determine the degree to which this is 
happening in other ports of entry cross the country, we identified 
several examples where this policy is not being followed at the ports 
of entry we visited. For example, legacy customs officers at one port 
of entry reported feeling ill-prepared when called upon to inspect 
passengers because they had not received the requisite training. One 
supervisor at this port of entry stated that he had ``no confidence'' 
that the officers he supervised could process the casework for a 
marijuana seizure correctly to successfully prosecute the violator 
because they had not received training. Supervisors at another port of 
entry told us that they were rotated to areas in which they had not 
received training. With responsibility over admissibility decisions, 
these supervisors were concerned that they could not answer questions 
from their subordinates or make necessary determinations beyond their 
area of expertise. As a result of not being trained, officers at this 
port stated that they relied heavily on senior officers from legacy 
agencies. The officers also told us that these senior officers have 
been leaving the agency. CBP managers in headquarters recognize that 
insufficient training can lead to a higher risk of failed inspections. 
For example, in a presentation that was given to all field office 
directors, CBP headquarters officials stated that untrained officers 
increase the risk that terrorists, inadmissible travelers, and illicit 
goods could enter the country.
    Standards for internal control in the Federal Government provide a 
framework for agencies to achieve effective and efficient operations 
and ultimately to improve accountability. One of the standards calls on 
agencies to compare actual performance to planned or expected results 
throughout the organization and to analyze significant differences. 
However, CBP lacks data that show whether the individuals who require 
training are receiving it. Having reliable data to measure the degree 
to which training has been delivered would put CBP management in a 
position to better gauge the results of its cross-training program. In 
regards to on-the-job training, while CBP guidance states that new 
officers at land ports of entry should receive 12 weeks of on-the-job 
training, new officers at the ports we visited did not receive 12 weeks 
of training. For example, at one port of entry, new officers told us 
they received between 2 weeks and 6 weeks of on-the-job training. In 
addition, internal control standards related to management of human 
capital state that management should ensure that the organization has a 
work force that has the required skills necessary to achieve 
organizational goals. CBP's guidance for its on-the-job training 
program does not require that new CBP officers perform certain tasks in 
order to develop needed skills or that the officers demonstrate 
proficiency in specific tasks. In contrast, the U.S. Border Patrol, 
another office within CBP, has developed a field training program where 
officers are required to demonstrate proficiency in 32 different 
skills. We discussed the utility of the Border Patrol's on-the-job 
training standards with CBP officials who told us that they might 
examine the Border Patrol's program to identify best practices that 
they could incorporate into the on-the-job training program for new CBP 
officers. When staff do not receive required training or are not 
trained consistently with program guidance, it limits knowledge 
building and increases the risk that needed expertise is not developed.
    Our analysis of OPM's 2006 Federal Human Capital Survey shows that 
CBP staff expressed concern about training. Our analysis shows that 
less than half of nonsupervisory CBP staff were satisfied with how CBP 
assesses their training needs (43 percent), the extent to which 
supervisors support employee development (43 percent), and the degree 
to which supervisors provide constructive feedback on how to improve 
(42 percent). In responding to these three questions, a significantly 
lower percentage of nonsupervisory staff at CBP was satisfied with 
their training experiences than nonsupervisory staff in other Federal 
agencies.
    CBP has developed strategic goals that call for, among other 
things, establishing ports of entry where threats are deterred and 
inadmissible people and goods are intercepted--a key goal related to 
traveler inspections--but it faces challenges in developing a 
performance measure that tracks progress in achieving this goal. 
Linking performance to strategic goals and objectives and publicly 
reporting this information is important so that Congress and the public 
have better information about agency performance and to help to ensure 
accountability. While CBP's 2006 Performance and Accountability Report 
included some performance measures related to CBP's goal of 
intercepting inadmissible people and goods, the report did not include 
a performance measure regarding how effective CBP is at achieving this 
goal at ports of entry. CBP has data on the degree to which it 
interdicts travelers who seek to enter the country illegally or who 
violate other laws at major air and land ports of entry.
    During the course of our review, we discussed with CBP officials 
the potential of using these data as one way of measuring the 
effectiveness of CBP inspection efforts. In June 2007, CBP officials 
told us that CBP was in the process of selecting performance measures 
for fiscal year 2008 and a decision had not yet been made on whether to 
include these data or other similar outcome-based measures in its 
performance report.

                           CONCLUDING REMARKS

    Effective inspection of the millions of travelers entering the 
country each year is critical to the security of the United States. As 
CBP matures as an organization, having effective inspection procedures, 
retaining its officer corps, and developing the necessary skills in its 
officer corps are essential given the critical role that CBP plays in 
national security. Although CBP developed new inspection procedures 
that require CBP field office directors to monitor and assess 
compliance with the new procedures, a key internal control requiring 
field office directors to communicate with CBP management the results 
of their monitoring and assessment efforts is not in place. As a 
result, CBP management may not get information that would identify 
weaknesses in the traveler inspections process that need to be 
addressed. The initial set of actions that CBP has taken for dealing 
with challenges in training at ports of entry is a positive start, but 
it has not established a mechanism to know whether officers who need 
specific cross-training have received it and whether new CBP officers 
have experience in the necessary job tasks and are proficient in them. 
This means that some officers may be called on to perform certain 
inspection tasks without having the knowledge and skills to do them.
    It is also important to have performance measures in place to 
permit agency management to gauge progress in achieving program goals 
and, if not, to take corrective action. In regard to traveler 
inspections, CBP is missing an important performance measure that shows 
what results are achieved in apprehending inadmissible aliens and other 
violators. CBP has apprehension rate data that could be used to develop 
such a performance measure. Having performance measures related to the 
effectiveness of CBP interdiction efforts would help inform Congress 
and agency management of improvements resulting from changes in CBP's 
traveler inspection program and what gaps in coverage, if any, remain.
    In our report,\20\ we made a number of recommendations to mitigate 
the risk of failed traveler inspections. We recommended that the 
Secretary of Homeland Security direct the Commissioner of Customs and 
Border Protection to take the following four actions:
---------------------------------------------------------------------------
    \20\ See GAO-08-219.
---------------------------------------------------------------------------
  <bullet> implement internal controls to help ensure that field office 
        directors communicate to agency management the results of their 
        monitoring and assessment efforts so that agency-wide results 
        can be analyzed and necessary actions taken to ensure that new 
        traveler inspection procedures are carried out in a consistent 
        way across all ports of entry;
  <bullet> develop data on cross-training programs that measure whether 
        the individuals who require training are receiving it so that 
        agency management is in a better position to measure progress 
        toward achieving training goals;
  <bullet> incorporate into CBP's procedures for its on-the-job 
        training program: (1) Specific tasks that CBP officers must 
        experience during on-the-job training; and (2) requirements for 
        measuring officer proficiency in performing those tasks; and,
  <bullet> formalize a performance measure for the traveler inspection 
        program that identifies CBP's effectiveness in apprehending 
        inadmissible aliens and other violators.
    DHS said it agreed with our recommendations and discussed actions 
CBP has underway or has taken to address our recommendations.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions that you and the Members of the committee 
may have.

    Chairman Thompson. I thank all the witnesses for their 
testimony. I'll remind each Member that he or she will have 5 
minutes to question the panel. I now recognize myself for 
questioning.
    Assistant Commissioner, are your staffing requirements at 
this point adequate to do the job for border security and 
commerce facilitating?
    Mr. Winkowski. Well, if we received additional staffing, we 
could put those individuals to work. We have a lot of work to 
do. I will comment on the fact that we do have, as the 
gentleman from GAO mentioned, vacancies. We have this year over 
2,878 training slots down at Glynco for our CBPO training. So 
we're in the process of filling existing vacancies in addition 
to the vacancies of the new positions that we received this 
year.
    We do have difficulties at time, with some of the 
locations, of retaining people, and it's a consistent strategy 
on our part to fill those vacancies as quickly as we can. For 
example, in a place like Los Angeles/Long Beach, very high cost 
of living, we have over 100 vacancies. We focus our attention 
on that. But we're working very hard, we've got people in the 
pipeline to fill the existing vacancies, which we continue to 
focus in on.
    Chairman Thompson. I guess my question is: As of this 
hearing, is it your testimony that we are adequately staffed at 
all our ports of entry so that delays will not occur both from 
commerce facilitation as well as security purposes?
    Mr. Winkowski. If we receive additional staffing, we could 
put those officers--we have a lot of work to do, we can put 
them to work.
    Chairman Thompson. So is that yes or no?
    Mr. Winkowski. We could use additional staffing.
    Chairman Thompson. Okay. Thank you very much.
    Mr. Stana, you also talked about the need not only to hire 
more people but to make sure that once we hire them, we provide 
the training. Did your findings indicate that somehow the 
Department is lowering their standard for employees to fill 
numbers, or just what did you, from your report, glean?
    Mr. Stana. Let me answer that in two ways because there's 
two parts to your question. One is with staffing and one is 
with training.
    With regard to staffing, at least last summer, there were 
about 1,000 unstaffed, unfilled positions existing already in 
the allotment already provided to CBP. Their staffing model 
showed the need for several thousand more than that, depending 
on the assumptions that you use on overtime and other staffing 
duties and responsibilities. So there is a need for more staff 
in that even the levels they have aren't filled yet, let alone 
the ones that the model showed that they need.
    I might add that a good number of those open positions are 
right here in El Paso. I have the specific number if you'd 
like, but I don't know if that's protected information at this 
point.
    With regard to training--I might say also that I have no 
evidence that shows that they're reducing their standards to 
bring in new staff. They have certain requirements for criteria 
for hiring new staff, and I have no evidence to show that 
somehow or other those are being bridged somehow. We just 
didn't look at that.
    As far as training, there's good news and there's bad news. 
The good news is they've developed 37 different training 
courses for the CBP officers. They developed a routine and 
standardized OJT program for the field. The bad news is, is 
that with regard to the training programs, the results are not 
always tracked as to who needs what training, given the job 
that they have so that they can be programmed to receive it. 
OJT is being cut down dramatically. It's a 12-week program. 
Here in El Paso, I believe it's down to somewhere between 2 and 
6 weeks. So it's been cut in half or more because of the need 
to get the officers on the line.
    Chairman Thompson. So does that make a potential 
vulnerability for----
    Mr. Stana. Well, if you're not trained to do your 
responsibility, sure, it can create a vulnerability. The reason 
they created this training program is to mitigate those risks, 
and if you can't carry out the training program, those risks 
are not going to be mitigated.
    Chairman Thompson. So, in essence, because we are trying to 
fill slots, we reduce the number of training hours to address 
the vacancy----
    Mr. Stana. Yeah, that's one of the effects, is not having a 
sufficient number of staff. Another effect is that people are 
being asked to work excessive amounts of overtime, sometimes 
two shifts back to back. Many officers would say they enjoy 
having overtime because it provides them with extra income. On 
the other hand, when you're working 16-hour shifts and you're 
in hour 15 of 16 hours, are you going to be as alert and 
attentive to your inspection procedures as you would be? Maybe 
not.
    Chairman Thompson. Thank you very much. My time has 
expired. The Chair will now recognize other Members for 
questioning, as they may wish to ask the witnesses. In 
accordance with our committee rules, I'll recognize Members 
based on seniority on the committee, alternating between 
majority and minority.
    The Chair now recognizes for 5 minutes the gentleman from 
Tennessee, Mr. Davis of Tennessee.
    Mr. Davis of Tennessee. Thank you, Mr. Chairman.
    I wanted to ask, overall how do the trusted traveler 
programs such as SENTRI and FAST enhance security and reduce 
wait times?
    Mr. Winkowski. Well, the SENTRI program is a key program 
for us in Customs and Border Protection. I've been in this 
business for 32 years, Congressman, and we're always trying to 
strike that balance between enforcement and facilitation. We 
just don't deal with violators. We deal with legitimate trade 
and travel as well as individuals that want to come here and do 
us harm. So it becomes a much bigger picture for us in CBP.
    What SENTRI does, it enables us to take that slice, if you 
will, of individuals that can go through a robust vetting 
process and give them special privileges, give them a dedicated 
lane to come into the United States on--into the United States. 
So, for us, it's an extremely important program for us. As a 
matter of fact, as of November 30, we will have over 152,000 
enrollments in SENTRI. El Paso here accounts for about 15 
percent, or 22,000. So it's a very, very important program for 
us.
    However, you know, it comes down to infrastructure issues, 
as well. If you don't have the right--we think of 
infrastructure oftentimes as at the port of entry, but it also 
goes into Mexico and having the right road system so people can 
take advantage of a SENTRI program with dedicated lanes. So 
they can come in from the south into the United States in a 
SENTRI lane to expedite their clearances and to take that slice 
that we consider to be low risk and get them out of the 
equation and give them specialized processing. So the SENTRI 
program and the FAST program on the cargo side is extremely 
important to us.
    Mr. Davis of Tennessee. Is there anything that we can do on 
the American side of the border to increase the use of the 
SENTRI program?
    Mr. Winkowski. Well, what we do is we continue to advertise 
the importance of SENTRI and encourage people to apply for 
SENTRI. You look at--when SENTRI started back in 1996, January 
1, 1996, we had 361 enrollments. Now we're up to 152,000 
enrollments. So we've made a great deal of progress. We want 
more people to join SENTRI. SENTRI is important for us.
    You have some obstacles from the standpoint of, 
particularly here in the El Paso area, the cost of the bridges 
over in Mexico. There's a, as I understand it, $289 fee if 
you're a SENTRI, to have privileges of coming in and using the 
toll booth down south. I've been told that's been kind of an 
obstacle of people wanting to sign up for SENTRI. So we 
continue to work with the Mexican government, our border 
facilitation work group, on that particular issue.
    But I believe we continue to push the importance of that. 
We have the right technology in place. Expanding lanes--we're 
going to be expanding a lane down in Laredo here shortly this 
year--and having the right infrastructure, not only here to 
accommodate SENTRI processing, but also down south.
    Mr. Davis of Tennessee. If you were talking to the local 
people listening to the media today, what advice would you give 
on signing up for SENTRI?
    Mr. Winkowski. I would encourage them to go onto our net, 
find out additional information. We have enrollment centers 
here. And send in your documents. We've automated the entire 
process, and we have a very, very quick turnaround time. We 
have a vetting process up in Vermont that we have fully 
staffed. We have a very quick turnaround time, and then it 
comes down here for the interview and then you get signed up.
    Mr. Davis of Tennessee. Okay. One last question for any 
member. What can be done to improve physical infrastructure at 
our land borders?
    Ms. Doan. I think that's actually our question. Some of the 
things that I mentioned before, but you cannot have a single-
threaded approach to improving the infrastructure. We have a 
very formal process, a prospectus process that we submit to 
Congress of projects that we want to propose for the upcoming 
year. These are based on the priorities of our customer. In 
this particular case DHS identifies what these priorities are, 
and then we submit those to Congress for approval.
    But in addition to that, there are other things that we can 
do. We can do renovations of the existing ports of entry, and 
these renovations do not have to be really expensive. It 
doesn't always have to be about money. We can change the 
booths, for example, in some of the locations to what they call 
high/low booths where they could turn the lanes into flexible 
locations where they could either be used to process commercial 
vehicles or they could use passenger vehicles because they 
could be a person high up to deal with trucks or low down to 
deal with cars, and suddenly one lane that had a fixed use 
could then become more flexible.
    We have mobile booths that are already designed that we can 
move, and we use some of them, for example, in San Ysidro, and 
you can move those in, and that allows extra processing 
capacity.
    But sometimes it can be just as simple as changing what 
constitutes the peak hours that are staffed at that port. 
Sometimes, if that happens, that can also help address the 
capacity issue.
    There's actually a long list, and I am happy to share them 
with you. If you would like, I can follow up with some of the 
ideas that GSA has after this hearing.
    Chairman Thompson. Now I yield 5 minutes to the gentleman 
from Texas, Mr. Cuellar.
    Mr. Cuellar. Thank you very much, Mr. Chairman. I think 
we've done a good job at putting resources for what I call the 
men and women in green, which is Border Patrol. We need to do 
more. I feel that we need to do more for the men and women that 
work blue, that is, the ones that take care of the ports of 
entry where legitimate trade is coming in. I notice the whole 
debate has been: What resources have we put in the border? It 
all has to do between the areas between the ports of entry. So 
I do want to focus specifically on this.
    If you look at what the United States has done, a lot of 
the resources have gone to seaports and to airports--nothing 
against seaports and other areas--but if you look at the total 
number of people coming in to seaports, for example, the last 
figures we have, 2004, we have 14.7 million people entered the 
United States through seaports. That's about 3 percent of the 
people. Through airports we have 75.1 million, which is about 
18 percent. Then we had 335.3 million individuals that came in 
into the United States, which is about 79 percent of the people 
entering the United States. One-third of them are U.S. citizens 
coming back, especially here in the border. The other two-
thirds, of course, are of borders coming in.
    The delays that I think we're all familiar with affects all 
of us. I think we've talked to Michael Patrick from Laredo, 
Texas, A&M International, and I think he gave a figure that I 
think Mr. Cook is going to about, that is if you add 1 percent 
decline in crossings, that would cost El Paso, the El Paso 
border region, $76 million in retail sales and 1,500 jobs, 
which is about, per gross State product, could add up to about 
$1.2 billion. Imagine if we were able to increase our 
efficiencies, and if we increase it by 2 or 3 percent or 4 or 5 
percent, what that would mean for us.
    One of the things that we've been looking at, and this is--
I'm going to ask some specific questions, and I've got other 
questions of the assistant commissioner. We added House Bill 
2431, which is Section 603, the border infrastructure and 
technology, technology modernization, to the omnibus 
appropriation bills, and there was some very, very specific 
things that we're asking there for you all to do to work with 
GSA.
    The first thing we're asking for is for you to update, 
every January 31, your port-of-entry infrastructure assessment 
study. I'm going to ask you to--if you can have this ready by 
this January 31 because I'm sure that you all have been working 
on that. It does a whole bunch of things. It asks for a Nation-
wide strategy to prioritize and address the infrastructure 
needs, duty assessments, port of entries' needs that we have. I 
think it's been estimated we need about, what, $4 billion to do 
both the southern and northern area. It also calls for 
specifically a land port-of-entry security plan that is 
supposed to be updated and given to the appropriations and to 
the Homeland Security.
    But there's one area that it also calls for, and I want you 
all to get back to me on this, if you don't have the answer 
now, is that it also allows funds to be authorized--to be used 
for certain international agreements, and there's one in 
particular called the U.S.-Mexico Border Partnership Action 
Plan. There's 22 parts to that. It specifically talks about 
working with the Mexicans in relief of bottlenecks yet secure 
infrastructure, long-term planning, harmonization of port-of-
entry operations, which, you know, usually we look at just the 
U.S. side, but this authorizes you to spend some money to work 
with them on the other side.
    My question to you specifically would be: Can you meet the 
deadlines? Because I think at Homeland we've seen that they 
missed about 44--Homeland Security has missed about 44 
congressionally mandated deadlines. Can you meet the deadlines 
under this appropriations bill, this Section 603?
    Ms. Doan. We will meet our deadline. We have 120 ports that 
we own. We have others that we lease. It is actually not the 
number that Mr. Stana mentioned. His figures were actually 
incorrect. But we manage and assess our property on a regular 
basis. We will meet our January 31 deadline for you guys.
    The CBP actually has 45 locations that are fairly small 
that they also--and I know they have a list because I just saw 
it about 3 weeks ago--of all these ports of entries that they 
themselves have ownership of. I actually think this should be 
something that we can work together on to get and meet that 
deadline on time. But the GSA piece at least will come in on 
time.
    Mr. Winkowski. I agree with the administrator. We'll do 
everything possible to meet that deadline.
    Also we work on our POE infrastructure on a regular, 
recurring basis with the GSA in updating the information. If I 
remember correctly, I think there was some legislation that had 
to be done every 2 or 3 years.
    Ms. Doan. Actually I was going to say, we have right here, 
for example, a list jointly developed between DHS and GSA for 
the most recent, what I call the hit list. It's the most 
critical locations that in CBP's eyes they thought were things 
that we needed to address, and we work on these on a regular 
basis.
    I think we could do more, but you can always do more 
because I think rather than narrowing it down to the top 20, we 
really should just take all of our locations and just 
constantly list what needs to be done, what needs to be 
changed. So I think that's where we need to work a little more 
closely together. We've reorganized our land border port-of-
entry division to do that.
    Mr. Cuellar [presiding]. So for both of you all, by the 
31st we will get an updated look at Section 603?
    Ms. Doan. Yes.
    Mr. Cuellar. There's a series of things. The update on 
infrastructure to reduce wait time; the technology part of it 
also; the security plan, which is more for border protection; 
and the last section dealing with the international agreement 
dealing with--it's actually with both agreements, the one 
dealing with Canada that got entered at a different time and 
the one with Mexico. Would you specifically both of you all get 
back to the committees on this point?
    Ms. Doan. Yes, and we'll submit what we can. If there's 
something that looks, after we take a closer look at the 
language of the bill, if it looks like there's something that's 
going to be an obstruction, we will follow up immediately with 
your office to let you know.
    Mr. Winkowski. We will do the same.
    Mr. Cuellar. Okay. The last point is, Commissioner, back--I 
think we contacted you congressional folks first on 11/21/07, 
and we made an official request on 12/10/07, which is a letter 
sent off to Commissioner Basham, where I specifically asked for 
two things, and this is to help you as we start the 
appropriation process. Is, one, I asked for the total number of 
inspectors needed to fully fund--fully staff our Nation's ports 
of entry and the estimated cost to train and hire the needed 
Customs and Border Protection officers. I'm still waiting for 
that response. Again, we need that information so we know what 
the costs are, No. 1.
    No. 2, the infrastructure requirements at our Nation's 
ports of entry, and what is the estimated cost of 
infrastructure requirements. I think you all need to work on 
that. We need those--that--it's been--I don't know how long it 
will take you, but it's been already 3, 4 weeks already. I know 
we had the holidays. But can you tell me when I can get a 
specific response to those two specific questions? Again, we're 
trying to help you.
    Mr. Winkowski. Right. My understanding is we're just about 
done, and something should be released in the next week or so.
    Mr. Cuellar. Thank you.
    At this time I would like to--the Chair recognizes Mr. 
Carney from Pennsylvania for 5 minutes.
    Mr. Carney. Thank you, Mr. Chairman. Commissioner 
Winkowski, we see that, according to GAO's report at least, 
that in fiscal year 2007, 53 CBP officers left the Agency each 
2-week pay period. That's up from 34 officers in fiscal year 
2005, almost a 60 percent increase. Why?
    Mr. Winkowski. Well, I think there's a number of reasons 
for that. I think you've got situations where Baby Boomers are 
retiring. We deal with a much different work force than we did 
when I came in 32 years ago, Congressman. These new employees, 
it's not unusual for them to have four or five different jobs. 
They're under a 401 Plan that they can take with them, unlike 
someone like myself that's under a pension system.
    The other challenge that we've had is the whole issue of 6E 
coverage, law enforcement coverage. We'll see that officers 
will leave being CBP officers for a covered position.
    I think the other challenge that we have--and I know you 
spent some time on the border today and yesterday--it's a 
difficult job. It's a very, very difficult job, and it's a 
trying job, and it's a challenging job. I think when you put 
all that together, it accounts for the attrition rate that we 
have. As a matter of fact, this year, last fiscal year, we had 
10 percent, according to my numbers 10 percent attrition rate. 
Down here in El Paso was, I believe, a 7 percent attrition 
rate.
    So we have a lot of challenges in management to make this 
job attractive, to get the best and brightest to stay with us 
and to move up into the organization.
    Mr. Cuellar. Do you think we need more U.S. military on the 
border, something like that?
    Mr. Winkowski. I believe that at the ports of entry, that 
we have coverage to handle that, from the standpoint of being 
able to process passengers and process the traffic that comes 
in. It's a highly technical job. You need to have the training. 
You need to go to the academy. This is just not a job where 
someone comes up and you decide you come in or you don't come 
in. There's much more to it. So we need to focus our attention 
and our energies in making sure that we're hiring the best and 
brightest, that we're making the job attractive, that we're 
giving them the right skill sets and the training to do the job 
that we ask them to do.
    Mr. Cuellar. Mr. Stana, your November report cited a number 
of instances in which video records show inadequate inspections 
at the ports of entry. Can you describe some of those, please?
    Mr. Stana. Yeah. The video was taken in calendar year 
fiscal year 2006, and what the video showed were instances 
where when shift changes would occur and a new officer gets 
into the booth, until he gets his computer logged on, he's 
waving people through.
    In other instances a person would hold up an identification 
document in a window that was many feet away, and the person 
wouldn't get close enough to even read it but would wave 
someone through.
    In other instances booths weren't staffed at all or people 
were flushed through in order to reduce some of the backlog 
that we're talking about here today.
    As a result of that video, CBP put in a new program that 
required officers to have a closer look at documents and 
supervisors to review what's going on. In 2007 we sent our 
investigators to different ports and found many of the same 
things. This was in the summer of 2007.
    In July 2007 CBP again came in with a beefed-up program, 
procedures, and actually--they're supposed to, anyway--visually 
take possession; after they take possession of the document to 
review it. I was disappointed to learn that--and this is 
strictly anecdotal, but an acquaintance recently went through a 
Southwest border checkpoint point of entry and was only asked 
how many people were in the car. Asked nothing about 
citizenship, asked nothing about identity. So, you know, the 
best-laid plans are only going to work if the supervision and 
the controls are there to make sure that they work.
    Mr. Winkowski. If I could just add to that, Congressman. I 
want to stress the point that the video, that was as a result 
of CBP playing a very, very proactive role in pulling video to 
make sure that we're doing what we need to do, and we found in 
some very, very isolated cases that was not the case.
    We took very, very quick decisive action. We brought all 
the directors of field operations into Washington, DC and 
showed them the video. We required that they go out and show 
all the employees those videos because some of those procedures 
that those officers were doing were totally blatantly against 
policy. It does come down to management. It does come down to 
providing the right supervision, and we took the necessary 
steps to curtail that.
    We're always looking at those issues. We're always taking 
corrective action. But I'm here to tell you that 99.99 percent 
of what we do out there is right. We can't deal with anecdotal 
stories and the booth is not staffed. Well, maybe there wasn't 
enough traffic to staff all the booths that particular day. But 
we take that very, very seriously.
    Mr. Cuellar. Mr. Stana.
    Mr. Stana. Well, if it were 99.99 percent, I think we would 
all feel comfortable. We would all sleep well at night. But, 
unfortunately, when we had our investigators go out to the 
ports last year, it was not 99.99 percent. I think that CBP has 
taken steps aimed at mitigating these risks. Sometimes they're 
working; sometimes they're not. I'm not trying to portray 
anecdotes as the generality. Certainly there are hardworking 
men and woman who come to work every day and do their job and 
stop the people who shouldn't be coming into the country, stop 
the cargoes that shouldn't be coming into the country, but I am 
not going to say it's 99.99 percent effective.
    Mr. Cuellar. How is it that you assess that maybe some of 
the shortcomings are due to undermanning, understaffing?
    Mr. Stana. I think that's a good part of it. I think some 
of the things we've talked about today: Staffing, training, 
infrastructure. There's one other element that we haven't 
talked about, and that's morale. Frankly, morale is an issue. 
About 88 percent of the people polled by OPM that work as CBP 
officers said that they understand the importance of their job, 
they understand its relationship to national security. However, 
only 9 percent said that they thought that pay was linked to 
their doing a good job, and only a third said they had all the 
equipment and resources they needed to do a good job. So 
there's a mixed picture there that has to be addressed.
    Mr. Cuellar. Ms. Doan, just quickly, I was very taken by 
your sort of strident testimony. You know, ``Got to do it.'' 
However, the message is a little bit mixed for me. You want to 
do kind of a building surge, by your phrase, is that correct?
    Ms. Doan. Boom.
    Mr. Cuellar. Boom.
    Ms. Doan. Boom.
    Mr. Cuellar. A surge is something else. Okay. But if we 
see, as we found out, we don't have the staff, what good will a 
building boom do to staff new booths, new lanes, new bridges, 
new whatever?
    Ms. Doan. Well, first, I think it's important to know that 
this is our core competency so this is what we do best. To be 
very frank, while CBP has a lot of technology and innovative 
technological improvements that they're going to be deploying 
and are currently deploying along the border, the fact of the 
matter is it does take a long time. Those tend to be fairly 
lengthy implementations.
    What I'm talking about, which is the boom, inspection 
booths. This is a hedge against a lengthy implementation of a 
technological solution. So it's a very, very basic, very simple 
solution, and it's a way to provide relief.
    Now as far as the staffing, I have a lot of confidence in 
my colleagues at DHS that if we build it, they will come, 
because I think it's also a function of them looking at what 
constitutes primary hours. I don't think that this is something 
that can be decided nationally. It's not necessarily something 
that GSA should even be deciding or discussing. This is a CBP 
and a DHS decision.
    But I will tell you that these solutions for staffing 
varies from locale to locale, and the local ports should be 
weighing in very strongly with the local stakeholders in making 
those decisions. Here in El Paso, for example, I know for a 
fact that, for the most part, primary hours are considered like 
8, but I think most people know that they have to start work at 
8, so primary hours is probably more like 5:30 in the morning.
    So when you build the additional infrastructure, when 
you're looking at the challenge of staffing--and they are 
dedicated professionals at CBP who work tirelessly to protect 
our country--we also have to allow them the opportunity to work 
the right hours to facilitate that free flow of trade, and so 
it requires us working closely together. GSA builds capacity; 
they staff it.
    Mr. Winkowski. I'm quite confident that we properly align 
our work force with the workload. We know what our peaks are, 
and those booths are staffed for those peak periods.
    But as you were saying, Congressman, if you only have 14 
booths and you have all 14 booths staffed and the capacity and 
the flow coming in, the volume, you need additional booths. 
That's where you start running into bottlenecks.
    One of the things that has a great deal of promise is what 
we call double-stacking, which is what we're doing down in San 
Ysidro. As you saw, if you have the booth, you can put a booth 
in front of it, if you have the landscape, if you have the 
footprint. We're seeing a 40 percent efficiency rate there down 
in San Ysidro, and we're planning on expanding that and putting 
in an additional five or six booths.
    We want to do that in some of the areas, as well, but as 
the administrator said, to do the construction--if you saw BDN, 
you know, it takes a long time to do state-of-the-art 
construction; that we have perhaps, in the short-term, can take 
some of these perhaps easier solutions from the standpoint of 
double-stacking and help out with the traffic flow and the 
cycle times.
    Mr. Cuellar. Well, I just want to say that my time at the 
border last night and at the point of entry today, I was 
extremely taken with the dedication and professionalism of 
everyone I spoke with. I asked them point-blank: What do you 
need? We need more bodies. We need more resources. Everyone 
told me that. That we have to make sure that we provide them. 
This is America's first line of defense.
    Thank you, Mr. Chairman. I extremely exceeded my time. 
You're very generous.
    Before I recognize the Chairman here, Mr. Reyes, some of 
those ideas are working. For example I know when Michael 
Jackson was there, Secretary Jackson, he talked to me about 
those double-stacking. If they're working, why don't we do some 
of that because they're pretty cost-efficient, we can do that, 
we can move that. If it takes, you know, GSA 7 years from 
design to delivery--and I know you all are working on 
consolidating and streamlining the process, but some of these 
things don't cost that much, because as you know and I think 
Mr. Reyes and Mr. Rodriguez, that--you know, for example in 
Laredo we have several ports there. We handle--I think El Paso 
handles a little over 50 percent of all the trade between the 
United States and Mexico. Laredo handles over 40 percent of all 
the trade. In some of those ports--you've got new ports of 
entry, but some of the old ones, they're constrained so you 
can't expand. So the only way you can expand, by putting those 
entries, so why not do that?
    Mr. Winkowski. Well, we are planning on doing that.
    Mr. Cuellar. But when?
    Mr. Winkowski. We were testing this down in San Isidro, 
okay, and we have, as I mentioned, a 40 percent efficiency 
rate. We've also had a technology issue from the standpoint of 
the RFID readers and which booth is that particular read going 
to come up with, and our OIT people have found a solution to 
that. So now that we have a budget, we're planning on expanding 
that in San Isidro to another four or five booths and looking 
for other locations, as well.
    But we need to have a footprint. As you know, Congressman, 
not every one of these ports of entry have a footprint, because 
you have to have enough real estate in front of that other 
booth to put another booth. So those are the challenges that we 
face, but we are certainly looking at expanding that.
    Mr. Cuellar. Make sure you include all of that in this 
Section 603, please.
    At this time the Chair recognizes Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. I want to express again 
appreciation to the panel for some great testimony.
    You know, as the only Member of Congress that has actually 
worked as an inspector at those bridges for 4 years, I can tell 
you that's a tough job, and that's why I'm particularly 
interested in ideas on how we can make it more attractive.
    One of the points--and I know when I met--when I spent 
those 3 hours there with them and Assistant Commissioner Kern, 
one of the programs that has worked well in the past was a 
program of When Actually Employed, the WAE program. I know that 
somebody is opposed to that program, but I continue to have 
questions because we know we're having a tough time recruiting 
people. We know that's a very tough job.
    By the way, I want to acknowledge one of our shining stars 
here locally, Port Director Isabel Mullens, with whom I had the 
privilege of working when I was at the bridges a long time ago, 
with her, who has become a very dynamic leader. She was there 
when I spent those----
    Mr. Winkowski. Absolutely, I agree with you.
    Mr. Reyes. I think it's important that we maybe reconsider 
the WAE program because, in the past, you hire locally and you 
hire school teachers, sheriff's deputies, others that have the 
ability to, on a part-time basis, work at the ports of entry. 
They become a natural stream of recruitment because they get an 
opportunity to work those bridges, they get an opportunity to 
get the training because every WAE employee is fully trained. 
They're trained to the same level as the inspectors, and in the 
future we can draw from their ranks. We're having a tough time 
recruiting, so I will again make the pitch: Please reconsider 
the WAE program.
    As we talk about the many different challenges that we face 
on very many levels, thank you very much, Administrator Doan, 
for being somebody that is willing to think outside the box, 
somebody that wants to solicit ideas on how we can do this job 
better. The kinds of challenges that we face can be greatly 
augmented by the technology that's both available today--and we 
all know that technology changes every 6 months, but I think 
technology is an important key piece of our ability to do that. 
As we're here locally, as we're thinking of a new bridge, a 
completely new bridge--and I discussed this with you both when 
you visited here last time and also when we met with 
Commissioner Basham.
    Can you comment on the feasibility of building a bridge 
that has a backbone system for technology that could be easily 
modified for incorporating future changes in technology? That's 
the first question.
    The second question is: The concept that I would propose to 
you of having, whether it's a 10, 12, however many new lanes 
are going to be put in place in this new bridge here in our 
community, of having that bridge be multidirectional. That is, 
if we know the traffic is heaviest from 5 a.m. to, say, 9 a.m. 
in the morning, have all the lanes from that bridge going into 
El Paso from Juarez because that's--those are the peak times. 
Then, conversely, if the traffic flow goes back from, say, 4 
p.m. to 6 p.m. or 7 p.m., have them all flow back the other 
way. I think for this new bridge that we're considering here, 
that's worth a multidirectional bridge that can function at 
peak hours both ways. The rest of the hours it can revert back 
to the normal four in/four out, however many lanes there are.
    Can you comment on the feasibility of that, and what other 
things we might be able to do as we wrestle with this very 
tough problem? Because we do have outstanding, dedicated 
individuals that work that very tough environment. I think I 
mentioned to you last time we were at the Paso del Norte, when 
I get around the bridge I still start shaking because I 
remember the 4 years that I worked there. So I can't say enough 
about the employees that work under those very stressful and 
very trying conditions. So can you comment on this?
    Ms. Doan. I think the bridge, the new potential for the 
bridge around at BOTA is really an exciting opportunity here in 
El Paso. I know it's something that our folks at GSA are 
working very closely with State and local officials as well as 
the other local stakeholders, including TXDOT, to try to make 
it a reality.
    Just one or two things so that I don't go on too long. I 
think the reason why it's so exciting is because we have a 
chance to do something really different. We have a chance to be 
able to have a bridge that could--for example, the lanes could 
be totally dedicated only to FAST, which then frees up the 
regular traffic on BOTA 1, or whatever we're going to be 
calling the new one, to just be used for regular vehicles. This 
is another way we can do it. We can do the thing with the 
lines.
    We could make this a totally modular or scaleable 
technology solution for more plug and play. So, in other words, 
rather than having the technology wired into the booth, it 
could be actually something that could be totally modular, 
portable. It could snap and go so that you could adjust the 
use. You could have, as I mentioned, the high/low booths so 
that you could do different types of passenger vehicles, if it 
weren't going to be used for the FAST lanes.
    But more importantly, each of you knows, because you're in 
Washington all the time, we do this in Washington all the time. 
Fifteenth Street, depending on what time of day it is, the 
direction of the traffic totally changes in another direction. 
That's another opportunity. If we work on--we have a product 
that we use at GSA, and we share it with CBP and Department of 
Transportation, called Border Wizard. It allows us to map 
traffic patterns, among other things. These are the kinds of 
things that we can work with CBP to do, which is have that 
unidirectional traffic during peak hours, agree on what the 
peak hours actually are, obviously, and then modify it 
accordingly. So I think this is an exciting opportunity.
    I am very supportive, and I know that my team is also very 
supportive. In fact, you know Tye Debarry, guys, the senior 
advisor for Region 7, is working very closely on this project 
with the State and local stakeholders here. So I'm happy to 
come up with a list of ideas and provide them for you after 
this.
    Mr. Winkowski. I totally agree with the administrator. I 
think we've got to think differently. We've got to have 
flexibility in our facilities. Our facilities need to be able 
to accommodate all the changes that we've made with 
installation of license plate readers and radiation portal 
monitors and all that technology that we use. So I'm real 
excited about having a port of entry that we can kind of 
collapse and expand as need be based on traffic patterns. So 
I'm a strong supporter of that.
    Ms. Doan. It might also give us an opportunity to explore 
the use of annuitants and the WAE because maybe for those extra 
peak, or primary hours from 5:30 to 9 or something, until 
everyone could decide what constitutes primary hours, maybe 
that's a perfect opportunity for those guys to help us out.
    Mr. Reyes. Thank you, Mr. Chairman. One of the things that 
we need to continue to focus on in this committee are very 
aggressively seeking ways to find better inducements for 
recruiting because that is a very tough job at those ports of 
entry, and we tend to either burn people out with overtime or 
not staff it up to where it should be. So the staffing survey 
is critical and also ways to do incentives so that individuals 
will consider that as a----
    Mr. Winkowski. I agree.
    Mr. Cuellar. I think Chairman Reyes is correct. There is 
some resistance from your Department on this program that he's 
talking about by trying to recruit some of the teachers or 
the--and I can understand, you know, it's the laws and all 
that, but I think you can train people. I agree with the 
Chairman that we ought to look at that.
    The second thing I would ask you, also, as the Chairman is 
mentioning, is that is Homeland still 35 out of 36 agencies in 
morale? Wasn't that--was it 35 out of 35 or 36 out of 36 at the 
bottom?
    Mr. Winkowski. It's down at the bottom of the list. I don't 
know exactly how far down it is.
    Mr. Cuellar. I'm sure the union will give us a specific 
ranking on that.
    We've got to provide those incentives to do that. You know, 
I know it's hard and I know that we just passed making the 
Customs inspectors law enforcement for retirement. That's going 
to help our retention and recruitment on that, but whatever we 
can do--and I think one of the things Mr. Reyes and I have been 
talking about, why don't you all give--or ask this: Why not 
give the local folks, like Mr. Gene Garza or the person you 
mentioned, ability to hire people instead of all being 
centralized? I bet if you gave it to one of them, they'll hire 
the people. Like in Laredo we've been waiting for 100 
inspectors. We haven't gotten them, and it's been about 2 years 
since we've talked about this. Why not give them some local 
power? I'm sure that your person, if they're short, they will 
hire people. They will find the people. I mean you can still do 
the background checks and all that, but you've got to do what 
Mr. Reyes is saying. We've got to think outside the box.
    Mr. Winkowski. We can look at that, and we have a 
nationalized test. We have been able to get some excellent 
officers off that nationalized test, which is centralized in 
Washington, DC. We used to have direct hire authority. We no 
longer have that. We use that test, and we're getting 
applicants and individuals that I put in the category of the 
best and brightest.
    I think one of the things that we need to caution against 
here is, we keep talking about how we came up 35 out of 36. I 
will tell you, with this merger, this merger was very 
difficult. When you merge--when you take, you know, parts of 
the Immigration Service and the Customs Service and parts of 
the USDA and with different business cultures and different 
departments and different policies and put them all into one 
agency such as CBP with different union contracts and all those 
challenges that we have, you have some challenges there, and 
it's hard. It was a difficult time. I mean it was March 2003. 
It was a very difficult time for everybody, and I think we need 
to keep that in mind.
    I think oftentimes I read these reports that, you know, 
whether 35 out of 36, we're not proud of that. Commissioner 
Basham is very focused on that. We've done focus groups around 
the country. He's very concerned about it, and we're working 
our way through. But we have to keep in mind here that we 
didn't come over intact. You know, we're not one of those 
agencies that just came over intact and everything is the same. 
Our whole world changed. From a standpoint of--at the time, I 
was the director of field operations in south Florida with over 
2,000 people, and those were difficult times for all of us.
    I think it was the right move. We have one port director 
responsible for, you know, Miami International Airport. Down 
here, we're down in El Paso, Congressman Reyes, when you were 
WAE, you had an INS port director and a Customs port director 
and a USDA port director. But that's not good border 
management. We have one port director now, so there's a lot of 
positives. But we have to keep in mind that was a very, very 
difficult time, and people in these surveys have a tendency to 
express that.
    I'm certainly not making excuses. We need to do better. 
I've seen some of those findings, and some of them focus in on 
the leaders of this organization and managers, and we've got to 
do better in that.
    Ms. Doan. I know it wasn't my question, but this is in his 
defense, which is perhaps some grade increases. Tye, my senior 
advisor, mentioned that we have--at CBP apparently there are a 
lot of new hires who have degrees who are only GS-7s with 
master's degrees. They're GS-9s. Honestly, at GSA we have 
secretaries with college degrees who are GS-11s. So maybe 
getting some more parity in the GS level for the CBP officers 
who are putting their lives on the line would help them, also.
    Mr. Cuellar. I think you're going to find a lot of Members 
are very supportive, but we need your input because, look, I 
can understand we put 22 agencies together, but that was 5 
years ago, over 5 years ago. It took us 4 years or less to win 
World War II, to win World War II, and here we are, 5 years 
later, we're still talking about the difficulties. I understand 
that, but work with us, you know. Let's work together because 
you're going to find a lot of Members that want to help you to 
make your job better and for the men and women who serve you 
all.
    But at this time I'm going to go ahead and recognize Mr. 
Rodriguez for 5 minutes.
    Mr. Rodriguez. Thank you very much, Mr. Chairman. First of 
all, Ms. Doan, let me thank you for the efforts that we had and 
the difficulties we had in Eagle Pass with the bridge there, 
and thank you very much for really getting down there and 
trying to--we haven't found the solutions yet and we haven't 
ironed out the whole problems there, but you've been extremely 
helpful there with that bridge in Eagle Pass and the problems 
that we've encountered.
    Let me throw out two other additional things that I wanted 
to discuss. You mentioned about a big boom. I have a bridge 
that was closed. It's already there. You don't have to make a 
boom. All we need to do is open it. It's the La Linda Bridge. 
If you look at traveling between here and the Valley, you go 
from Presidio to Del Rio, there's 400 miles. The bridge is in 
between there. It was never an official bridge. It's also known 
as the Hallie Stillwell Memorial Bridge, and it's one that 
where the constituency has been talking about how we can open 
that.
    It's a small community, but we get a lot of tourism there. 
There's a million people that visit the Amistad Dam. There's 
350,000 people that visit the Big Bend area, and a lot of them 
travel through there. But I'd like to see how we might be able 
to expand and the possibility of opening the La Linda Bridge, 
if possible, there in the Big Bend region, which is in Brewster 
County. That request has come in, and I don't think it would 
take much except trying to hire on some of the bureaucratic 
problems that exist there, and I would ask you to make some 
comments on that.
    But before you do that, let me ask also the second 
question. As we had difficulties and have contradictions coming 
across in terms of the waiting periods, in January we're 
expected to move forward on beginning to look at license 
plates--I mean, excuse me--driver's licenses, you know, and 
IDs. First we were told that a driver's license was not 
legitimate enough. Now we're going to go to look at it. We've 
been postponing the passport down to now to June. So all those 
are going to--as soon as we implement either the passport in 
June or--because we've all got calls on the passports and how 
difficult that was.
    I guess this goes to Ms. Stana from Homeland Security, that 
we need to have the staffing right now. I've got people in Del 
Rio that have difficulty and are waiting for their passports. 
These are U.S. citizens, not people coming from the other side. 
So how are we going to expedite and make that happen so that we 
will be ready, No. 1, for June with the passport stuff? On the 
other one, in January when they start coming across and we 
start asking them for birth certificates and license, you know, 
how are we going to make sure we expedite that aspect of it? 
But I don't want to lose track of La Linda Bridge, okay?
    Ms. Doan. We won't lose track of it, and although I don't 
have any information on that right now, I have written it down. 
I will take this on personally and work with my folks and get 
back to you with an answer on that. I do believe you will have 
to work closely with CBP because I actually don't think this is 
one of our ports. I think this is actually a port that CBP--
remember I mentioned they have 45 that they own, and I think 
they may have closed it. But we're happy perhaps to consider 
having you deed it over to us and take ownership and take the 
management.
    Mr. Rodriguez. We found the solution already.
    Ms. Doan. We'll lease it back to you. I will follow up with 
you on that.
    Mr. Winkowski. I will follow up on that, also. I'm not 
familiar with that, Congressman.
    Mr. Rodriguez. Thank you.
    Mr. Stana. With respect to WHTI, which is what I think 
you're referring to, the Department of State has hired up 
people to handle the transport backlogs. I don't know how 
successful they've been, but they had a real problem last 
summer because there was a rush, particularly from people from 
the northern States, frankly, to get their passport in 
anticipation of WHTI's implementation, to get that taken care 
of. So with the implementation also of the new PASS card, I 
think you referred to, U.S. citizens can get. It's like a 
passport light, helps you get across borders. They're machine 
readable, RFID readable. These are things that, frankly, could 
help expedite border inspections.
    The whole key here is to find a needle in the haystack, you 
know. Most people--the vast majority of people crossing the 
border are legitimate travelers. They're not bringing any 
contraband into the country. We want to identify those people 
and get them through. That's why SENTRI, NEXUS and FAST are 
important programs. But with these identification documents 
that are machine readable, it could also expedite the 
inspections process by not having inspectors question whether 
this one document among 8,000, which can be used to cross the 
border, is legitimate. So that could help.
    Mr. Rodriguez. Are we going to have another difficulty come 
January 15, Commissioner?
    Mr. Winkowski. If I could add a couple of things there. I 
met with State Department last week on several issues regarding 
WHTI implementation, the January 31 implementation of driver's 
license and birth certificates. I asked him about passport 
turnaround times, and they said it was 3 weeks.
    Mr. Rodriguez. Three weeks?
    Mr. Winkowski. Three weeks. That's what their cycle time is 
right now. I certainly don't mean to be here testifying on 
their behalf, but I was at a meeting. I did want to share that 
with you. Very, very quick they've hired up, they've plussed up 
a lot. They're turning passports around very quickly.
    Passport Card, the Federal registry notice just came out. 
It was effective February 1. So individuals will have an 
opportunity to get a Passport Card rather than have a passport 
and using that passport to cross back and forth on the land 
border.
    On the January 31 implementation, we are moving forward 
with that, requiring anybody 19 or older to have a Government-
issued ID and birth certificate. If you're younger than 19, 
then you have to have a birth certificate now.
    We're beginning that process of getting travelers used to 
carrying documentation. As you know, a U.S. citizen can come 
into this country on the northern border, southern border and 
say hi, I'm a U.S. citizen. They don't have to provide any 
documentation. All those rules are changing. WHTI 
implementation, full WHTI implementation, will be June 2009. So 
we're going to have some time here to get the traveling public 
used to carrying documents, No. 1.
    No. 2, encouraging them to get passports or WHTI-compliant 
documents such as a SENTRI card, a NEXUS card, a Passport Card, 
so when we are up and running with full WHTI implementation in 
June 2009, everybody will have the proper documentation. So 
we're working very hard on that.
    What's going to happen on January 31, there's going to be a 
very, very common-sense approach. You come up. If you don't 
have a birth certificate, we're going to determine the 
citizenship, and we're going to give you a tear sheet that 
explains what the requirements are. Our experience has been, 
the vast majority of the traveling public will comply. We saw 
this on the air side when we went up with air WHTI in January 
2007. People from certain parts of the country, from the world 
could travel, come into the United States via air without a 
passport. We are now at 99.99 percent compliance.
    So we're very encouraged. We're taking a common-sense 
approach here, and we're real encouraged that by the time we go 
to full WHTI implementation, that the traveling public will 
have the right documentation.
    Mr. Rodriguez. Do we have any idea how much delays that 
will cause in addition in terms of showing their----
    Mr. Winkowski. Well, right now, my numbers show that coming 
in on the--I believe it was the southern border, 7.1 million 
U.S. citizens do not have WHTI-compliant documents, and up at 
the northern border it's 4 million.
    We're going to have a training session this month. We're 
hopeful that it's not going to add a great deal of time once 
the officers get used to this, once the traveling public gets 
used to it. But being perfectly frank, it could result in some 
delays if people don't have their documents ready. So we've 
hired a PR firm; we're out educating the public on this. We're 
very, very encouraged. We're starting in the slow time of the 
year here. We're not in the summer, in the middle of the summer 
starting this. We're here in kind of the slow time of the year. 
We will monitor it very, very closely.
    Mr. Stana. I would agree with that. I'd also add that a lot 
of the concern was with WHTI implementation, which is now 
pushed out to June 2009, if I remember right, but the real 
concern should be with the end of oral declaration, which is 
going to happen at the end of this month, because that's when 
you have to produce documents to prove citizenship and 
identity. To the extent that WHTI-compliant documents could 
help, you know the more people that get those documents the 
shorter the lines are going to be. Because the requirement will 
be for CBP officers to physically handle documents that show 
citizenship and identity, and a driver's license only shows 
identity, not citizenship.
    Mr. Winkowski. We're not saying that the driver's license 
now is a secure document. We're not saying that. We want people 
to get the WHTI-compliant documents. But in the meantime here 
we understand that some people just have passports--excuse me--
will just have a driver's license and a birth certificate, and 
it will be the end of the oral declaration.
    Mr. Rodriguez. Yeah, I know you mentioned and I wrote that 
down. You said 3 weeks because I know--and I'll get back with 
my staff because I know we had cases of individuals, by the 
time they call us, that they have been trying to get their 
passport for some time.
    Mr. Stana. Last summer there was a real bottleneck at 
State, and they hired up--there were many people who were 
trying to get passports before----
    Mr. Rodriguez. In Del Rio, for example right now, they 
cannot--the post office there is--wasn't even handling it, 
because it was backed up. They just had too many.
    Mr. Stana. As I say, last summer with all the bottlenecks, 
it was a legitimate concern. It was taking much longer. They 
were getting people from the State of Washington to volunteer 
to come to passport centers temporarily on TDY to deal with the 
backlog, but I believe they've got that pretty much under 
control now.
    Mr. Rodriguez. I'll get back with you because I have the 
opportunity, on the appropriations side when I see you for the 
next future hearings, so in 3 weeks I'll remember that.
    Mr. Stana. Okay. Remember it's State that did it, not GAO.
    Mr. Winkowski. I'm just the messenger on that.
    Mr. Cuellar. Let me just follow up on what Mr. Rodriguez 
said. Were you seeing--we're going to use passports even though 
they have been postponed till June 2009. We want to use 
passports because we say the driver's licenses and other 
documents are not secure. Now on January 31 we're saying: Guess 
what? We are going to start using those documents that we 
considered not to be secure and are for more identification, 
not for citizenship. Why are we going to go away from the oral 
declaration when we already have said that those documents were 
not secure? Why go through that----
    Mr. Winkowski. Well, the oral declaration, you don't have 
to show any documentation. You just say: Hi, I'm a U.S. 
citizen. What we're saying is we've got to begin that process 
of getting the traveling public used to presenting 
documentation to us. It's going to be a major change.
    Now, what we're hoping and what these tear sheets will do 
is explain a better way of doing it with the PASS card or with 
the SENTRI card or the enhanced driver's license that the State 
of Washington will be coming up with this month, transitioning 
the public into those more--into those more secure RFID 
documents.
    Again, you know, I understand that the airport environment 
is much different than land border, but the transition up there 
in the airport environment went very, very smoothly, and we 
think that it will go smoothly, as well, on the northern 
border. We're going to have some spikes. We have people that 
are used to not presenting documents or just having a driver's 
license, but we're going to take a common-sense approach. We're 
still going to establish their citizenship with them and try 
not to have any kind of delays in primary and educate them with 
the tear sheets.
    Mr. Cuellar. Could you follow up on where Texas is on the 
enhanced--I know that Texas was--there was an issue here in 
Texas. Do you know what the latest is on the enhanced driver's 
license for the State of Texas?
    Mr. Winkowski. I have to get back to you, but the last I 
heard we were in discussions with them. We had not signed 
anything with Texas. I know, obviously, we've signed with 
Washington State and Vermont. We're close with Michigan. But 
with Texas, we have not signed anything yet, if I remember 
correctly.
    Mr. Rodriguez. Mr. Chairman, can I follow up? Let me ask 
you, we just talked to some of the State people, and they were 
telling us that it was the Federal Government that had not come 
up with the guidelines that were needed in order for Texas to 
move forward. I'm not sure whose--where the problem is, but 
that's what they indicated. Do we have a problem in terms of 
telling Texas what they need to have on that document and 
that's why they haven't moved?
    Mr. Winkowski. No. We sat down with the State of Washington 
and worked it out. I have not heard of any of those issues in 
the State of Texas.
    Mr. Rodriguez. What's the problem, then?
    Mr. Winkowski. I don't know. I will find out. We obviously 
want Texas to be issued enhanced driver's licenses. It's a big 
piece of the landscape in here and on the border. I will follow 
up and find out exactly where they are.
    Mr. Rodriguez. Because my understanding is if they do move, 
we have put, what, $50 million in there or something, that 
amount to be able to move forward on that and be able to get 
that so people can just show their driver's license and it's 
enhanced driver's license, be able to have no problems, you 
know, be able to come back and forth?
    Mr. Winkowski. It's RFID technology. It's not a trusted 
traveler program, but it establishes your citizenship.
    Mr. Cuellar. Will you get back to all of us, and in 
particular, the Texas----
    Mr. Winkowski. Yes.
    Mr. Cuellar. Thank you. At this time I want to thank the 
panel. I want to thank all three of you all. I know that it's 
very challenging questions, a very challenging time, but we do 
need to find this balance between security and commerce on 
that.
    Again, if there's any other questions that Members might 
have, we will go ahead and have those questions be submitted 
for the record, and I would ask the committee to turn those 
answers in to us as soon as possible. Thank you very much and 
Happy New Year.
    We're going to start getting ready for the second panel of 
witnesses. Just for the sake of time as we're moving on, I 
would like to welcome the second panel of witnesses. I know 
we're having those transitioning just so we can keep it moving.
    Our first witness is going to be the national president of 
the National Treasury Employees Union, Colleen Kelley. 
Membership includes nonsupervisory Customs and Border 
Protection officers, several hundred members that work here at 
the El Paso land ports of entry. As the union's top elected 
official, she is at the forefront of the efforts on behalf of 
Federal employees, including Customs and Border Protection 
officers, for making sure that they get pay in the right 
working conditions.
    Our second witness--as we're moving on, I would ask the 
witnesses to move forward over here--is Kathleen Walker, an El 
Paso attorney who currently serves as president of the American 
Immigration Lawyers Association. She also serves as the 
chairperson of the Immigration and Nationality Law Board 
certification exam committee for the State Bar of Texas and on 
the advisory committee. As such she is a strong advocate for 
border community interests and the implementation of border 
security and immigration law.
    We believe our third witness, Mr. Bob Cook, there was an 
emergency and he will not be able to join us. I know--we're 
trying to get him? Okay. If we do get another replacement, Mr. 
Reyes will let us know. It would be good to have a replacement 
simply because I would like to--I think all of us would like to 
hear the economic impact of why we need to make sure we keep 
legitimate trade of goods and services moving.
    So Members, if we're all ready.
    Mr. Reyes. Mr. Chairman.
    Mr. Cuellar. Yes, sir.
    Mr. Reyes. Before we get started with the next panel, can I 
ask for a Chairman's consent to put some documents into the 
record?
    Mr. Cuellar. Yes, sir, without objections.
    Mr. Reyes. I'd like to enter into the record the business 
anti-smoking coalition document, also a recently published book 
entitled Contemporary U.S.-Mexico Border and its Future.
    Mr. Cuellar. Without objection.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Mr. Reyes. One more item. I'm told that our recently 
retired director from Customs and Border Protection is here in 
the audience, and I just wanted to acknowledge him. He retired 
after, I think, 34 years, but most importantly he has been very 
instrumental in making recommendations to both Chairman 
Thompson and myself on issues dealing with border security, 
homeland defense and intelligence. I would just like to 
recognize former Customs and Border Protection director, Luis 
Garcia. We appreciate you being here. Thank you very much.
    Mr. Cuellar. What we'll do is if you do get the other 
witness----
    Mr. Reyes. Mr. Chairman, it's my understanding that 
according to our committee rules, we cannot substitute a 
witness at this late time, so we'll move forward with just 
these panel members.
    Mr. Cuellar. I would ask Members to look at Mr. Bob Cook's 
statement. There is very good information there about what 
happens when you have delays and what sort of impact that is, 
so I would ask Members to please read his testimony. It's very 
well written.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    [The statement of Mr. Cook follows:]

 Prepared Statement of Bob Cook, President, El Paso Regional Economic 
                    Development Corporation (REDCO)
                           December 15, 2007

    Good morning and welcome to El Paso! My name is Bob Cook and I am 
the President and CEO of the El Paso Regional Economic Development 
Corporation (REDCo)--an organization whose mission is to recruit new 
industry to the El Paso area, an area that includes El Paso, Texas, 
Ciudad Juarez, Chihuahua and Las Cruces, New Mexico.
    First of all I would like to thank you for this opportunity to 
address you today. I consider it a great privilege and responsibility 
to appear before you and provide testimony about the transcendent need 
to deploy improved methods and technologies to secure America's 
borders, while at the same time improving the flow of legitimate cargo 
and people across the U.S.-Mexico border. The people of El Paso 
understand the need for enhanced national security, but we are acutely 
aware of the fact that economic security is threatened with less 
efficient ports of entry--which we believe leads to lessened national 
security. Because of our long-standing relationship with Mexico, there 
are many in the public and private sectors of El Paso/Juarez who can 
provide expert advice as to how our Nation can effectively address such 
matters--because we deal with these issues on a daily basis.
    As a resident of the El Paso/Juarez area, one of the largest bi-
cultural border communities in the world, I have many close friends and 
business associates on both sides of the international border. I want 
to be very clear with two messages today . . . First, 3-hour wait times 
which have become common at our international ports of entry do not 
equate to greater national security. Second, the building of a wall 
along the southwest border is both an insult to our neighbors and 
allies in Mexico and truly un-American in nature. We in the business 
community feel that we have an open line of communication with our port 
managers, but we believe that they are hampered by a flawed system. The 
clear flaw of the system now in place is that there is little 
distinction made in the approach to distinguish between legitimate and 
illegitimate people and cargo. My point is that we should be seeking to 
aggressively expand the use of technologies and procedures that 
identify and expedite low-risk traffic, in order that we may spend the 
majority of our time and financial resources on the potentially high-
risk individuals and cargo carriers.
    El Paso and Ciudad Juarez are mutually dependant on each other for 
their economic well-being. Improvements must be made to reduce wait 
times on the bridge especially in light of the fact that American 
citizens will soon be required to show a passport as they travel back 
from Mexico. Because of our longstanding relationship with Mexico, the 
people of El Paso understand the need for enhanced security, but we are 
also very aware of the fact that decreases in border-crossing 
efficiency lead to economic insecurity. In fact, we firmly believe that 
the efficient cross-border transport of legitimate cargo is a vital 
component of the well-being of the economy of the city of El Paso, the 
State of Texas, and the Nation as a whole. In 2006 there was 
approximately $50 billion worth of trade that passed through El Paso's 
ports of entry, or roughly 15.2 percent of the total trade between the 
United States and Mexico. Another $154.3 billion in goods (61.7 percent 
of all U.S.-Mexico trade) crossed through other Texas ports, and a 
total of $54.8 billion in exports (40 percent of U.S. exports to 
Mexico) originate in Texas. Increases in bridge times can lead to 
reduction in this trade, placing some portion of this economic engine 
at risk.
    A recent study by Dr. Michael Patrick, Director for the Texas 
Center for Border Economic and Enterprise Development at Texas A&M 
University concluded that a 1 percent decline in crossings would cost 
the El Paso border region $76 million in retail sales and 1,500 jobs. 
This would equate to an estimated decrease in Gross State Product by 
$1.2 billion. If these findings are correct, imagine what we could 
accomplish economically with a 2 percent or 3 percent improvement in 
border crossings.
    Allow me please to bring this down to impacts at the local level . 
. . 
    El Paso retailers depend upon Mexican consumers for their 
livelihood. Mexican nationals roughly $1.5 dollars in El Paso retail 
stores each year, roughly one-fifth of El Paso's $8 billion retail 
economy. Each time the Department of Homeland Security issues an 
elevated level of threat awareness, or any other issue that causes an 
increase in bridge crossing times and a resulting decrease in crossings 
of legitimate persons, the impact is immediately felt at the cash 
register in El Paso.
    Approximately 50,000 El Pasoans derive their livelihood, either 
directly or indirectly, from the maquiladora industry in Mexico. In the 
city of Juarez, there are almost 350 maquila operations, approximately 
85 percent of which are owned and operated by U.S. corporations. 
Approximately 3,100 people live in El Paso and cross the international 
border each day to work as a plant manager, engineer, or other 
professional occupation in these operations. Additionally, there are an 
estimated 5,500 persons who are direct employees and another estimated 
14,000 number work in a wide range of support industries including 
plastics processing, metals processing, packaging, financial 
institutions, and more. There are 30,000 jobs in the El Paso area that 
are indirect spin-offs of the maquiladora industry in Ciudad Juarez.
    The sheer volume of cross-border traffic clearly presents a 
monumental challenge to those agents who are at the ports of entry, 
working on the front-line of providing for the security of the 
homeland. Border crossing figures demonstrate that average daily border 
crossings include 42,648 private vehicles, 2,122 commercial trucks and 
20,547 pedestrians--all traveling northbound from Mexico through El 
Paso area ports of entry. The numbers suggest that we must find more 
effective technologies and procedures to move these volumes on a daily 
basis.
    I do not claim to be an expert on the matter, but I am aware of 
technologies which can have a impact on the easing of bridge crossing 
times for both civilian and commercial traffic. By utilizing 
prescreening processes such as those deployed in the Dedicated Cargo 
Lanes and FAST Lanes, combined with technologies such as SENTRI and 
NEXUS, along with non-invasive scanning processes such as PFNA and Back 
Scatter X-ray--bridge crossing times can be reduced, while at the same 
time ensuring a greater degree of security.
    While I understand that you are primarily interested in hearing 
about the impact of bridge crossing times, I am still compelled to 
comment on the human side of the national security issue. We are 
confronted with the prospect of having a fence being built along the 
border. As I said earlier, the proposed fence of separation is an 
insult to our neighbors in Mexico and we should not treat friends and 
neighbors in such a way--especially a neighbor that has been a 
dedicated and substantial trading partner. The message that a 370-mile 
fence along our shared border sends is not one of goodwill and 
appreciation, instead it is one of protectionism, separation and 
alienation. We would suggest that rather than building a physical wall, 
Congress should consider investing those funds in building better 
surveillance and intelligence technologies, ``smart bridges'', and 
other approaches that can help enhance national security by enabling 
agents to inspect a greater amount of cargo and vehicles in a smaller 
amount of time. Implementation of such a strategy will spur sustainable 
economic growth of border communities which will positively impact 
Federal revenues. This will in turn lead to enhanced security along the 
border--an approach to security that will be effective instead of 
offensive.

    Mr. Cuellar. I'll now ask each witness to summarize her 
statement for 5 minutes--there's only ``her'' statements--
beginning with Ms. Kelley.

 STATEMENT OF COLLEEN M. KELLEY, NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Ms. Kelley. Thank you very much, Chairman Cuellar, Members 
of the committee. I thank you for the opportunity to testify 
here in El Paso today.
    NTEU represents Customs and Border Protection officers, 
agriculture specialists and trade enforcement employees at 
Homeland Security, including over 800 CBP employees here at the 
Port of El Paso.
    I do not have to tell the people of El Paso that there is 
severe staffing shortages at our border crossings. They live 
with the long lines. For years NTEU has been saying that CBP 
needs several thousand additional officers at its ports of 
entry, that insufficient staffing and scheduling abuses are 
contributing to morale issues, to fatigue and safety issues for 
CBP officers; that CBP is losing officers faster than it can 
hire replacements, and that these officers who risk their lives 
every day deserve law enforcement officer status. Now GAO is 
saying that, too. I know the people of El Paso join me in 
demanding that CBP management acknowledge these problems and 
take action.
    CBP officers have twin goals: Anti-terrorism and 
facilitating legitimate trade and travel. On the one hand, CBP 
officers are to fully perform their inspectional duties yet at 
all times they are made aware by management of wait times. In 
land port booths wait times are clearly displayed. NTEU 
supports efforts to shorten wait times, but let me be clear: 
There is no way to reduce wait times at the border while 
maintaining adequate security measures without increasing the 
number of CBP officers.
    GAO testified today that CBP's own staffing model shows 
that several thousand additional CBP officers and agriculture 
specialists are needed at our ports of entry. NTEU has called 
on Congress for an increase of at least 4,000 new CBP officers, 
and we believe that at least 300 of these should be assigned to 
El Paso in order for all pedestrian and vehicle lanes to be 
adequately staffed. Both in El Paso and nationally, staffing 
shortages are exacerbated by challenges in retaining staff, 
contributing to an increasing number of CBP officer vacancies.
    One of the most significant impediments to the recruitment 
and retention of CBP officers has been the lack of law 
enforcement officer status. The newly issued GAO report noted 
that officers are leaving to take positions at other Homeland 
Security components and other Federal agencies to obtain law 
enforcement officer benefits not authorized to them at CBP. 
There is some good news here. Congress recently approved 
legislation to provide CBP officers with law enforcement 
officer coverage prospectively, and I want to thank this 
committee, under Chairman Thompson's leadership, for your 
support and leadership on this effort.
    Now I plan to ask for your continued support to ensure that 
this law enforcement officer legislation be implemented as it 
was passed. As you know, the White House has been opposed to 
law enforcement officer status for CBPOs. I am concerned that 
the White House will actively try to eliminate this provision 
for LEO coverage for CBP officers, and I am asking for your 
help to not let that happen. It would be a grave injustice to 
the deserving men and women who protect our ports of entry 
every day.
    There are other major issues that have a negative impact on 
the retention of CBPOs, and they include the proposed new 
Homeland Security pay and personnel systems and CBP's 
unilateral elimination of employee input into routine workplace 
decision-making such as work shift schedules. They are losing 
CBPOs faster then they can hire them, and they are not 
addressing the retention issues on any front.
    In El Paso, CBP officers have been scheduled for what are 
called free doubles, back-to-back shifts, 16 hours, that 
straddle two different pay periods, with the intent of avoiding 
the payment of overtime to these officers for the second 8-hour 
shift, an appalling way to treat employees, and it's these 
kinds of things that add to the morale and the retention 
problems.
    In El Paso, CBP officers are frequently required to work 
varying shifts within the same pay period; for example, an 8-
to-4 1 day, 4-to-midnight the next day, midnight-to-8 a.m. the 
next day. These schedules have been altered daily with no 
notice, making it impossible for CBP officers to have any 
certainty in planning personal or family activities during off-
duty hours and causing CBPOs to leave the agency.
    Also, in order to avoid a pay differential that is required 
for commuting time when an officer is called back to work, port 
managers will order officers on the premises to unscheduled 
overtime duty. CBP officers are often held over in a booth 
rather than bringing in a fresh officer, to avoid paying this 
commuting pay. Scheduling abuses, along with short staffing, 
have produced overworked officers, safety and overtime 
violations, and concerns about favoritism in the assignment of 
work and overtime that have resulted in CBP officers leaving in 
droves.
    NTEU recently won an arbitration decision that found that 
CBP had not been abiding by existing Federal laws that require 
employees to receive 1-week notice of their work shifts, to be 
scheduled so they receive 2 consecutive days off, and to have 
schedules that provide for uniform daily work hours for each 
day of the week. Unfortunately it appears that CBP will appeal 
the arbitrator's ruling, further delaying resolution of this 
ongoing problem at all 327 ports of entry.
    To Members of the committee, I say to you that the problems 
in El Paso are severe, but they are not isolated to El Paso. To 
address the challenges at El Paso and all of our ports of 
entry, NTEU recommends the following: No. 1, fill the vacancies 
and increase CBP officer and agriculture specialist staffing to 
those levels in CBP's own staffing model. No. 2, reestablish 
the specialization of prior inspection functions. No. 3, ensure 
the implementation of law enforcement officer coverage to CBP 
officers. No. 4, repeal a compromised DHS personnel system. No. 
5, allow employee input into the shift assignment system. Most 
importantly, work with NTEU and with employees to create an 
environment where CBP employees can do the quality work that 
they are trying to do for our country every day, where these 
employees are respected and supported and have the staff they 
need to do their jobs. This would go a long way to addressing 
the retention issues that are very real in Customs and Border 
Protection.
    Thank you, and I'm happy to answer any questions that you 
have.
    [The statement of Ms. Kelley follows:]

                Prepared Statement of Colleen M. Kelley
                            January 3, 2008

    Chairman Thompson and Members of the House Homeland Security 
Committee, I would like to thank you for the opportunity to testify on 
the challenges of ensuring homeland security while facilitating 
legitimate trade and travel faced by the U.S. Customs and Border 
Protection officers at America's ports of entry. As President of the 
National Treasury Employees Union (NTEU), I have the honor of leading a 
union that represents over 20,000 Customs and Border Protection (CBP) 
officers, Agriculture Specialists, and trade compliance specialists who 
are stationed at 327 land, sea and air ports of entry across the United 
States, including the CBP officers here at the El Paso port of entry.
    Each year, 16 million cars, 8 million pedestrians and 700,000 
commercial trucks cross El Paso's three international bridge crossings 
that operate 24 hours a day. The Paso del Norte Port of Entry has 9 
lanes currently open with a reduction to 5 lanes planned when scheduled 
construction resumes after the holidays and 14 temporary pedestrian-
only lanes. The Bridge of the Americas Port of Entry has 14 lanes and 4 
pedestrian-only lanes (of which only one or two are open regularly). 
The Ysleta (also known as the Zaragosa) Port of Entry has 12 lanes of 
which 2 are dedicated commuter lanes with 3 pedestrian-only lanes (of 
which only one is regularly open). There are also three Dedicated 
Commuter Lanes at Stanton Street that are open 6 a.m. to midnight 
during the week and 10 a.m. to midnight on the weekend. Because of CBP 
officer staffing shortages, not all vehicle and pedestrian lanes are 
open 24 hours a day.
    In addition to Port of El Paso vehicle and pedestrian crossings, 
there are two commercial cargo truck specific crossings at the Bridge 
of the Americas Cargo Facility and the Ysleta Cargo Facility, as well 
as two single-track railroad bridge crossings and three international 
airport facilities. All these facilities are staffed by CBP officers, 
trade and agriculture specialists represented by NTEU.
    I do not have to tell the people of El Paso that there are severe 
staffing shortages at our border crossings. They live with the long 
lines. For years, NTEU has been saying that CBP needs several thousand 
additional officers at its ports of entry; that insufficient staffing 
and scheduling abuses are contributing to morale problems, fatigue, and 
safety issues for CBP officers; that CBP is losing officers faster than 
it can hire replacements and that these officers who risk their lives 
every day deserve law enforcement officer status. Now, GAO is saying it 
too. I know the people of El Paso join me in demanding that CBP 
management acknowledges these problems and takes action.
    NTEU's testimony today will discuss CBP staffing, training and 
morale problems at the 327 U.S. Ports of Entry, which were confirmed in 
a November 5, 2007 GAO report (GAO-80-219). We will use examples from 
the El Paso Port of Entry to illustrate these problems and offer 
recommendations to address them.

                   ONE FACE AT THE BORDER INITIATIVE

    As part of the establishment of the Bureau of U.S. Customs and 
Border Protection in March 2003, the Department of Homeland Security 
(DHS) brought together employees from three departments of Government--
Treasury, Justice and Agriculture to operate at the 327 ports of entry.
    On September 2, 2003, CBP announced the One Face at the Border 
initiative. The initiative was designed to eliminate the pre-9/11 
separation of immigration, customs, and agriculture functions at U.S. 
land, sea and air ports of entry. Inside CBP, three different inspector 
occupations--Customs Inspector, Immigration Inspector and Agriculture 
Inspector were combined into a single inspectional position--the CBP 
officer.
    The priority mission of the CBP officer is to prevent terrorists 
and terrorist weapons from entering the United States, while 
simultaneously facilitating legitimate trade and travel--as well as 
upholding the laws and performing the traditional missions of the three 
legacy agencies, the U.S. Customs Service, the Immigration and 
Naturalization Service (INS) and the Animal, Plant and Health 
Inspection Service.
    In practice, the major reorganization of the roles and 
responsibilities of the inspectional work force as a result of the One 
Face at the Border initiative has resulted in the dilution of the 
customs, immigration and agriculture inspection specializations and in 
weakening the quality of passenger and cargo inspections.
    According to CBP, ``there will be no extra cost to taxpayers. CBP 
plans to manage this initiative within existing resources. The ability 
to combine these three inspectional disciplines and to cross-train 
frontline officers will allow CBP to more easily handle projected 
workload increases and stay within present budgeted levels.'' (See 
CBP's ``One Face at the Border'' Questions and Answers dated 9/15/03.)
    This has not been the case. The knowledge and skills required to 
perform the expanded inspectional tasks under the One Face at the 
Border initiative have also increased the workload of the CBP officer.

                               GAO REPORT

    In 2006, Congress requested that the Government Accountability 
Office (GAO) evaluate the One Face at the Border initiative and its 
impact on legacy customs, immigration and agricultural inspection and 
workload. GAO conducted its audit from August 2006 through September 
2007 and issued its public report, Border Security: Despite Progress, 
Weaknesses in Traveler Inspections Exist at Our Nation's Ports of Entry 
(GAO-08-219), on November 5, 2007. The conclusions of this report echo 
what NTEU has been saying for years:
  <bullet> CBP needs several thousand additional CBP officers and 
        Agriculture Specialists at its ports of entry.
  <bullet> Not having sufficient staff contributes to morale problems, 
        fatigue, and safety issues for CBP officers.
  <bullet> Staffing challenges force ports to choose between port 
        operations and providing training.
  <bullet> CBP's onboard staffing level is below budgeted levels, 
        partly due to high attrition, with ports of entry losing 
        officers faster than they can hire replacements.
  <bullet> One of the major reasons for high attrition is that CBP 
        officers are leaving to take positions in other Federal 
        agencies to obtain law enforcement officer benefits not 
        provided to them at CBP.

Land Ports of Entry
    Most travelers enter the United States through the Nation's 166 
land border ports of entry. About two-thirds of travelers are foreign 
nationals and about one-third are returning U.S. citizens. The vast 
majority arrive by vehicle. The purpose of the primary inspection 
process is to determine if the person is a U.S. citizen or alien, and 
if alien, whether the alien is entitled to enter the United States. In 
general, CBP officers are to question travelers about their nationality 
and purpose of their visit, whether they have anything to declare, and 
review any travel documents the traveler may be required to present.
    At the land ports, primary inspections are expected to be conducted 
in less than 1 minute. Travelers routinely spend about 45 seconds at El 
Paso crossings during which CBP officers have to assess documents and 
oral claims of citizenship.
    Currently, there are thousands of documents that travelers present 
to CBP officers when attempting to enter the United States, creating a 
tremendous potential for fraud. In addition, it takes several minutes 
for CBP officers to perform shift changes at the land ports of entry. 
The delay is primarily due to restarting the inspection booth computer 
with a new operator. This situation is exacerbated by random computer 
generated operations and enforcement referrals to secondary inspection 
areas. Rebooting the computer by the new CBP officer takes on average 3 
to 5 minutes. Lines back up during shift changes and CBP officers are 
under pressure by managers to clear these lanes quickly.

Air Ports of Entry
    At the airports, CBP officers are expected to clear international 
passengers within 45 minutes. Prior to 9/11, there was a law on the 
books requiring INS to process incoming international passengers within 
45 minutes. The Enhanced Border Security and Visa Protection Act of 
2002 repealed the 45-minute standard, however, it added a provision 
specifying that staffing levels estimated by CBP in work force models 
be based upon the goal of providing immigration services within 45 
minutes. According to GAO, ``the number of CBP staff available to 
perform primary inspections is also a primary factor that affects wait 
times at airports.'' (See GAO-05-663, page 12.)
    In addition, the U.S. Travel and Tourism industry has called for a 
further reduction in passenger clearance time to 30 minutes. The 
industry's recently announced plan, called ``A Blueprint to Discover 
America,'' includes a provision for ``modernizing and securing U.S. 
ports of entry by hiring customs and border [protection] officers at 
the top 12 entry ports to process inbound visitors through customs 
within 30 minutes.'' This CANNOT be achieved at current staffing levels 
without jeopardizing security.
    The emphasis on passenger processing and reducing wait times 
results in limited staff available at secondary to perform those 
inspections referred to them. NTEU has noted the diminution of 
secondary inspection in favor of passenger facilitation at primary 
inspection since the creation of the Department of Homeland Security.

                      IMPACT OF STAFFING SHORTAGES

    According to GAO, ``At seven of the eight major ports we visited, 
officers and managers told us that not having sufficient staff 
contributes to morale problems, fatigue, lack of backup support and 
safety issues when officers inspect travelers--increasing the potential 
that terrorists, inadmissible travelers and illicit goods could enter 
the country.'' (See GAO-08-2 19, page 7.)
    ``Due to staffing shortages, ports of entry rely on overtime to 
accomplish their inspection responsibilities. Double shifts can result 
in officer fatigue . . . officer fatigue caused by excessive overtime 
negatively affected inspections at ports of entry. On occasion, 
officers said they are called upon to work 16-hour shifts, spending 
long stints in primary passenger processing lanes in order to keep 
lanes open, in part to minimize traveler wait times. Further evidence 
of fatigue came from officers who said that CBP officers call in sick 
due to exhaustion, in part to avoid mandatory overtime, which in turn 
exacerbates the staffing challenges faced by the ports.'' (See GAO-08-
219, page 33.)
    Staffing shortages have also diminished the quality of secondary 
inspections. In the past, there were two or more inspectors in 
secondary processing for every one inspector in primary processing. Now 
there is a one-to-one ratio. Before the merger, an inspector would 
check documents, query the traveler and send to secondary any vehicles 
or persons that needed additional vetting by an inspector. At 
secondary, a thorough document check or vehicle search would take 
place. Without adequate personnel at secondary, wait times increase and 
searches are not done to specifications.

                     ADDRESSING STAFFING SHORTAGES

    The President's fiscal year 2008 budget proposal requests $647.8 
million to fund the hiring of 3,000 Border Patrol agents. But, for 
salaries and expenses for Border Security, Inspection and Trade 
Facilitation at the 327 ports of entry, the President's funding request 
is woefully inadequate. NTEU is grateful that Congress did include 
funding for an additional 450 CBP officers in the fiscal year 2007 DHS 
Appropriations bill, but it is clearly not enough.
    In order to assess CBP officer staffing needs, Congress, in its 
fiscal year 2007 DHS appropriations conference report, directed CBP to 
submit by January 23, 2007 a resource allocation model for current and 
future year staffing requirements.
    In July 2007, CBP provided GAO with the results of the staffing 
model. ``The model's results showed that CBP would need up to several 
thousand additional CBP officers and agricultural specialists at its 
ports of entry.'' (See GAO-08-219, page 31.)
    I am not privy to the actual number of CBP officers on staff today 
or the optimal staffing number as stated in CBP's own Staffing 
Allocation Model for the Port of El Paso because CBP has deemed this 
information to be ``law enforcement sensitive.'' I do know that the 
difference in actual staffing and optimal staffing is likely in the 
hundreds.
    In July 2007, NTEU called on Congress to hire an additional 4,000 
CBP officers. NTEU based this number on results from the former U.S. 
Customs Service's last internal review of staffing for fiscal years 
2000-2002 dated February 25, 2000, also known as the 2000-2002 RAM, 
that shows that the Customs Service needed over 14,776 Customs 
inspectors just to fulfill its basic mission--and that was before 
September 11. Since then the Department of Homeland Security was 
created and the U.S. Customs Service was merged with the Immigration 
and Naturalization Service and parts of the Animal, Plant and Health 
Inspection Service to create Customs and Border Protection and given an 
expanded mission of providing the first line of defense against 
terrorism, in addition to making sure trade laws are enforced and trade 
revenue collected.
    According to GAO, with the merger of the three agencies' inspection 
forces, there are now approximately 18,000 CBP officers currently 
employed by CBP. NTEU believes that at least 22,000 CBP officers would 
be needed to have a robust and fully staffed force at our ports of 
entry. NTEU called for this increase in response to congressional 
inquiries in July. NTEU further estimates that of these 4,000 
additional CBP officer new hires, 300 to 400 should be assigned to El 
Paso in order to provide critical passenger and cargo inspections. I 
urge the committee to review CBP's Staffing Allocation Model for the 
optimal staffing numbers for all 327 ports of entry and to authorize 
the funding necessary for CBP to achieve this level of staffing.
    There exists a large number of CBP officer vacancies in El Paso and 
throughout the United States. And the ratio of supervisors to staff has 
increased dramatically at El Paso. In the 1990's, the goal was one 
supervisor to every 15 inspectors. Today at El Paso, there is one 
supervisor for every seven CBP officers. This ratio puts increasing 
scheduling pressure on frontline CBP officers.
    NTEU believes that if the El Paso Port of Entry was staffed at the 
number stated in CBP's own Staffing Allocation Model, all pedestrian 
and vehicle lanes at all port crossings could be opened to capacity, 
while managing contingencies, as well as allowing CBP officers' time 
for mandated training.
Agriculture Specialists
    NTEU was certified as the labor union representative of CBP 
Agriculture Specialists in May of this year as the result of an 
election to represent all CBP employees, other than Border Patrol 
agents, that had been consolidated into one bargaining unit by merging 
the port of entry inspection functions of Customs, INS and the Animal, 
Plant and Health Inspection Service as part of DHS' One Face at the 
Border initiative.
    According to GAO (GAO-08-219, page 31), CBP's staffing model 
``showed that CBP would need up to several thousand additional CBP 
officers and agriculture specialists at its ports of entry.'' And GAO 
testimony issued on October 3, 2007 stated that, ``as of mid-August 
2007, CBP had 2,116 agriculture specialists on staff, compared with 
3,154 specialists needed, according to staffing model.'' (See GAO-08-
96T page 1.) NTEU recommends that CBP hire additional CBP Agriculture 
Specialists to comply with its own staffing model.
    In addition, NTEU recommends that CBP Agriculture Specialists have 
access to voluntary overtime opportunities to the same extent as CBP 
officers. Agriculture Specialists did not have an overtime cap before 
joining CBP. Many now say they are not given adequate voluntary 
overtime opportunities.
    NTEU also recommends that Congress, through oversight and statutory 
language, make clear that the agricultural inspection mission is a 
priority and require DHS to report to them on how it is following U.S. 
Department of Agriculture procedures on agriculture inspections. The 
report should include wait times for clearing agricultural products and 
what measures could be implemented to shorten those wait times.

                            TRAINING ISSUES

    The Homeland Security Appropriations Committee added report 
language to the fiscal year 2007 DHS Appropriations bill that, with 
regard to CBP's One Face at the Border initiative, directs ``CBP to 
ensure that all personnel assigned to primary and secondary inspection 
duties at ports of entry have received adequate training in all 
relevant inspection functions.'' It is my understanding that CBP has 
not reported to DHS Appropriators pursuant to this language, but NTEU's 
CBP members have told us that CBP officer cross-training and on-the-job 
training is woefully inadequate. In addition, staffing shortages force 
managers to choose between performing port operations and providing 
training. In these instances, it is training that is sacrificed.
    GAO reports extensively in GAO-08-219, pages 35-41, on the 
shortcomings with CBP's on-the-job and cross training programs and I 
urge you to review this information.
    I also urge you to review NTEU testimony on CBP training issues 
that I delivered before the House Homeland Security Subcommittee on 
Management, Integration and Oversight on June 19, 2007. In El Paso, 
according to NTEU members, there are no meaningful training programs--
CBP officers are regularly told to complete 2-hour training courses in 
30 minutes.

                         INFRASTRUCTURE ISSUES

    NTEU does not dispute that the problems of El Paso's port 
facilities' infrastructure need to be addressed. There are currently 
three pedestrian/passenger vehicle processing facilities open 24 hours 
a day, 7 days a week. A major construction project to expand the number 
of vehicle lanes from 9 to 11 at the Paso del Norte crossing is 
currently under way. I understand the 9 lanes now open will be reduced 
to 5 after the holiday season when construction resumes. I also 
understand that the 14 temporary pedestrian lanes there are seriously 
congested, but this situation will improve after completion of the 
construction project. In addition, the Ysleta cargo facility is 
undergoing renovation. There are no lanes currently closed, but at some 
point commercial traffic lanes will be closed.
    All port infrastructure solutions, including constructing an 
additional 24-hour port facility, will take years to achieve. What is 
necessary today is to staff all existing lanes to capacity. Currently, 
the Port of El Paso does not have adequate staffing to achieve this, 
which has resulted in abusive scheduling practices, as well as 
increased wait times. Scheduling and overtime abuses and their effect 
on recruitment and retention of CBP officers are discussed below.

                    RECRUITMENT AND RETENTION ISSUES

    Reported staffing shortages are exacerbated by challenges in 
retaining staff, contributing to an increasing number of vacant 
positions Nation-wide. ``CBP's on-board staffing level is below its 
budgeted level . . . the gap between the budgeted staffing level and 
the number of officers onboard is attributable in part to high 
attrition, with ports of entry losing officers faster than they can 
hire replacements. Through March 2007, CBP data shows that, on average, 
52 CBP officers left the agency each 2-week pay period in fiscal 2007, 
up from 34 officers in fiscal year 2005 . . . Numerous reasons exist 
for officer attrition.'' (See GAO-08-2 19, page 34.)
Work Shift Schedule Abuse
    A major factor that has hindered the recruitment and retention of 
CBP officers is work shift determinations. In the past, the agency had 
the ability to determine what the shift hours will be at a particular 
port of entry, the number of people on the shift, and the job 
qualifications of the personnel on that shift. The union representing 
the employees had the ability to negotiate with the agency, once the 
shift specifications were determined, as to which eligible employees 
would work which shift. This was determined by such criteria as 
seniority, expertise, volunteers, or a number of other factors.
    CBP officers around the country have overwhelmingly supported this 
method for determining their work schedules for a number of reasons. 
One, it provides employees with a transparent and credible system for 
determining how they will be chosen for a shift. They may not like 
management's decision that they have to work the midnight shift but the 
process is credible and both sides can agree to its implementation. 
Two, it takes into consideration lifestyle issues of individual 
officers, such as single parents with day care needs, employees taking 
care of sick family members or officers who prefer to work night 
shifts. CBP's unilateral elimination of employee input into this type 
of routine workplace decisionmaking has had probably the most negative 
impact on employee morale.
    On November 13, 2007, NTEU won an arbitration decision that found 
that CBP had not been abiding by existing Federal laws that require 
employees to receive 1-week notice of their work shifts; be scheduled 
so they receive 2 consecutive days off; and have schedules that provide 
for uniform daily work hours for each day of the week.
    In El Paso, CBP officers have been scheduled for what are called 
``free doubles''--back-to-back shifts--16 hours--that straddle two pay 
periods with the intent to avoid overtime pay for the second 8-hour 
shift. El Paso port managers also frequently schedule CBP officers to 
varying shifts within the same pay period, for example, 8 a.m. to 4 
p.m. one day, then 4 p.m. to midnight the next day and then midnight to 
8 a.m. the following day. These schedules have been altered daily, with 
no notice, making it impossible for CBP officers to have any certainty 
in planning personal or family activities during off-duty hours.
    In order to avoid a pay differential that is required for commuting 
time when an officer is called back to work (call back and commute), 
port managers order officers on the premises to overtime duty. CBP 
officers have been held over in a booth rather than bringing in a fresh 
officer to avoid paying a commute. CBP managers frequently staff 
primary lanes with supervisors and have required canine officers to 
drop leash for assignment in primary booths. Scheduling abuses along 
with short-staffing, have resulted in overworked officers, safety and 
overtime violations, and concerns about favoritism in assignment of 
work and overtime.
    In addition, to scheduling abuses, El Paso CBP managers have 
instituted leave policies that are not sanctioned by law or contract. 
Managers request that CBP officers provide, at the officer's expense, 
medical documentation for 1 day of sick leave and have required minimum 
leave balances where none exist in either the CBP Leave Handbook or the 
contract.
    These abuses have resulted in CBP officers leaving the service in 
droves. NTEU hopes that this arbitration win and returning some 
normalcy back to CBP officer schedules will reduce this trend. 
Unfortunately, it is likely that CBP will appeal the arbitrator's 
ruling, further delaying resolution of this on-going problem at all 327 
ports of entry.

Law Enforcement Officer Status
    CBP officers clearly deserve Law Enforcement Officer (LEO) status 
and Congress in the recently passed fiscal year 2008 omnibus spending 
bill recognized this by providing a prospective LEO retirement benefit 
to CBP officers beginning in July 2008. NTEU is grateful to the 
Homeland Security Committee for it leadership in achieving the 
enactment of this provision for CBP officers.
    For years, the most significant impediment to recruitment and 
retention of CBP officers has been the lack of LEO status. LEO 
recognition is of vital importance to CBP officers. CBP officers 
perform work every day that is as demanding and dangerous as any member 
of the Federal law enforcement community, yet they have long been 
denied LEO status.
    The GAO report confirms the negative impact that lack of LEO 
coverage is having. ``CBP officers are leaving the agency to take 
positions at other DHS components and other Federal agencies to obtain 
law enforcement officer benefits not authorized to them at CBP. In 
fiscal year 2006, about 24 percent of the officers leaving CBP, or 
about 339, left for a position in another DHS component.'' (See GAO-08-
219, page 34.)
    All too often, talented young officers treated the CBP officer 
position as a stepping-stone to other law enforcement agencies with 
more generous retirement benefits. With the enactment of Section 535 of 
the fiscal year 2008 omnibus spending bill, this will no longer be the 
case. Legislation has also been introduced in the House and Senate, 
H.R. 1073 and S. 1354 respectively, the Law Enforcement Officer 
Retirement Equity Act, that would provide retroactive LEO benefits to 
CBP officers and NTEU continues to support this effort.

DHS Human Resources System
    In July 2005, the U.S. District Court for the District of Columbia 
ruled that portions of the proposed DHS personnel regulations, formerly 
known as MaxHR, but now called the Human Capital Operations Plan 
(HCOP), infringed on employees' collective bargaining rights, failed to 
provide an independent third-party review of labor-management disputes 
and lacked a fair process to resolve appeals of adverse management 
actions. The Appellate Court rejected DHS' appeal of this District 
Court decision and DHS declined to appeal the ruling to the Supreme 
Court.
    When Congress passed the Homeland Security Act in 2002, it granted 
the new department very broad discretion to create new personnel rules. 
It basically said that DHS could come up with new systems as long as 
employees were treated fairly and continued to be able to organize and 
bargain collectively. The regulations DHS came up with were 
subsequently found by the Courts to not even comply with these two very 
minimal and basic requirements.
    It has become clear to the Congress that DHS has learned little 
from these Court losses and repeated survey results and will continue 
to overreach in its attempts to implement the personnel provisions 
included in the Homeland Security Act of 2002. In May, the full House 
approved H.R. 1648, the fiscal year 2008 DHS Authorization bill that 
includes a provision that repeals the DHS Human Resources Management 
System. In addition, both of the 2008 DHS Appropriations bills 
significantly restrict funding for MaxHR, now called HCOP.
    DHS employees deserve more resources, training and technology to 
perform their jobs better and more efficiently. DHS employees also 
deserve personnel policies that are fair. The DHS personnel system has 
failed utterly and its authorization should be repealed and all funding 
should be eliminated by Congress.

Job Satisfaction, Leadership and Workplace Performance Survey
    In February of this year, DHS received the lowest scores of any 
Federal agency on a survey for job satisfaction, leadership and 
workplace performance. Of the 36 agencies surveyed, DHS ranked 36th on 
job satisfaction, 35th on leadership and knowledge management, 36th on 
results-oriented performance culture, and 33rd on talent management. As 
I have stated previously widespread dissatisfaction with DHS management 
and leadership creates a morale problem that affects recruitment and 
retention and the ability of the agency to accomplish its mission.

                          NTEU RECOMMENDATIONS

    CBP employees represented by NTEU are capable and committed to the 
varied missions of DHS from border control to the facilitation of trade 
into and out of the United States. They are proud of their part in 
keeping our country free from terrorism, our neighborhoods safe from 
drugs and our economy safe from illegal trade. The American public 
expects its borders and ports be properly defended. Congress must show 
the public that it is serious about protecting the homeland by:
  <bullet> Filling vacancies and increasing CBP officer and CBP 
        Agriculture Specialist staffing to those levels in CBP's own 
        staffing model;
  <bullet> reestablishing specialization of prior inspectional 
        functions;
  <bullet> ensuring the successful extension of LEO retirement coverage 
        to CBP officers;
  <bullet> repealing the compromised DHS personnel system; and
  <bullet> allowing employee input in the shift assignment system.
    Again, I would like to thank the committee for the opportunity to 
be here today on behalf of the 150,000 employees represented by NTEU 
and especially the members of NTEU Chapter 143, CBP El Paso.

    Mr. Cuellar. Thank you very much for your testimony. I now 
recognize Ms. Walker to summarize her statement for 5 minutes.

  STATEMENT OF KATHLEEN CAMPBELL WALKER, PRESIDENT, AMERICAN 
                IMMIGRATION LAWYERS ASSOCIATION

    Ms. Walker. Thank you very much, Chairman Cuellar, and 
distinguished Members of the committee and Congressman Reyes 
from my local home district. Thank you for the opportunity to 
be here.
    In listening to the testimony provided so far today, with 
the 21 years that I've been working on border security and 
immigration issues, I'm concerned about having placations to 
the idea of security, which is a noble one, without connecting 
the dots to effectuate its achievement. That basically, to me, 
is something that we need to take home and consider very 
thoughtfully before we facilitate more technology, more ports, 
et cetera.
    We have a fundamental problem with the inability to get 
staffing on the ground. We have a fundamental problem that is 
advocated with the Data Management Improvement Act reports to 
Congress, both the first and second one, talking about lack of 
infrastructure. What do we do when faced with years of lack of 
attention to those infrastructure and staffing needs when we 
have an immediate need to go ahead and proceed with having a 
more effective port administration? We're not talking, as you 
mentioned earlier, Chairman Cuellar, the individuals in green. 
We're talking about the individuals in blue at our ports of 
entry, which seem to be lost in the equation.
    What I'm extremely concerned about is this situation of 
overtime, and I thank God for the LEO status that's recently 
been approved by the consolidated omnibus provisions because I 
hope that that helps in recruitment, but the GS levels have to 
be improved, as well, to be able to recruit these individuals. 
But when you are exhausted and when you're trying to achieve to 
the satisfaction of two managers, both security as well as 
facilitation, without the tools to get there, you have 
basically an equation for failure, and that's not where we want 
to place our people at the ports of entry nor our communities 
that must exist there. The personnel factor of exhaustion also 
leads to people having a hard time keeping enough patience 
that's necessary to be able just to deal with the public, and 
that's an extremely difficult job, in addition to knowing the 
technical level of law that you're required to as a CBP 
inspector.
    I think that the One Face at the Border program, although 
admirable in trying to cross-train, it's a good idea to express 
importance of knowing the other guy's job, you have lost 
security service in your ports of entry because you have people 
who do not know the level of complexity of immigration law, 
customs law and agricultural law to the extent they must. I 
think that any loss of training is a loss of security, and that 
you need to focus a lot of effort and energy on achieving that 
goal. There is nothing that is going to work without a 
sufficient amount of accountability review by Congress to get 
that accomplished.
    You know, we talked briefly earlier, among your earlier 
panelists, regarding WHTI, Western Hemisphere Travel 
Initiative, and the pushback recently by the Consolidated 
Omnibus Bill until June 2009, and people were kind of talking 
about the end of oral declarations, but let's go ahead and be 
clear about what the law currently provides. The law currently 
provides that as a U.S. citizen a CBP inspector can indeed ask 
you to provide documentation regarding my U.S. citizenship. The 
standard of activity, though, in the past has been, no, I don't 
typically see a question regarding ``show me the money,'' as 
one might use from a trite movie, regarding U.S. citizenship 
status.
    So, fine, let's go ahead and move forward, but what is the 
training and staffing being provided in order to now question 
individuals who are U.S. citizens to prove that status? I'm 
going to ask for a driver's license, which does nothing to 
prove your citizenship, and arguably doesn't do a darn good job 
about being able to establish my identity based on the 
fluctuations State by State in being able to get a driver's 
license. No. 2, I'm going to look at a birth certificate, where 
we have no standardization of birth certificate records.
    Oh, fine. So now I'm going to spend time as a port-of-entry 
inspector looking at a driver's license and a birth certificate 
to establish whether or not someone is a U.S. citizen. I must 
submit that that is a fallacy, if you believe that that is 
going to increase our security.
    The whole idea of an enhanced driver's license, while 
admirable and may somewhat tied into REAL ID implementation, 
which has been, by 24 States, challenged because of a lack of 
funding for REAL ID implementation, to the enhanced driver's 
license where now I'm going to have the State trying to figure 
out whether or not someone is a U.S. citizen, I think, again, 
is wrongheaded. I would rather see money being spent on the 
State Department to roll out these PASS cards. The cost is $45 
for an adult, $35 for a child. The State has a hard enough time 
figuring out whether or not someone is a U.S. citizen. If you 
want to have a headache inducement timeframe, just try to 
figure out our citizenship laws. It's not simple.
    So I would just hope that from the passport push that we 
would try to go ahead and focus our resources that are so 
limited on a State basis on the PASS card accomplishment versus 
creating yet another thing, timed RFID vicinity--for vicinity 
use, which is again a privacy issue problem.
    On top of that--and I'll end because I know that my time is 
up--SENTRI and NEXUS, look at the publications on the northern 
border right now regarding a drop in NEXUS and on the southern 
border regarding a drop in SENTRI enrollment because of the 
lack of clarity regarding the guidelines on what are the 
baseline standards to get into SENTRI and NEXUS.
    The typical thing that you look at in immigration is: How 
long ago did the violation occur? What's the level of the 
violation? The zero tolerance policy in SENTRI and NEXUS is 
crippling the program. In addition to that, the program is 
being crippled because with all that additional data, we're 
still dealing with primary inspections as we see in non-SENTRI 
and NEXUS lanes, so I think we need to move beyond that.
    There's suggestions in my testimony regarding various 
programs we can attempt to review, and I think will be really 
positive. I know the El Paso community will want to work on 
those if they're asked to, and I look forward to seeing if we 
can have other public/private partnerships here that have 
accomplished in the past a number of things on the security 
front, being both FAST and SENTRI based, as examples.
    Thank you for the time, and I apologize for going a little 
over.
    [The statement of Ms. Walker follows:]

             Prepared Statement of Kathleen Campbell Walker
                            January 3, 2007

    Mr. Chairman and distinguished Members of the House Committee on 
Homeland Security, I am Kathleen Campbell Walker, National President of 
the American Immigration Lawyers Association (AILA), headquartered in 
Washington, DC, and head of the Immigration Department of the Kemp 
Smith LLP law firm, with offices in El Paso and Austin, Texas. I am 
honored to have this opportunity to appear before you today.
    AILA is the immigration bar association of over 11,000 lawyers, who 
practice immigration law. Founded in 1946, the association is a 
nonpartisan, nonprofit organization and is affiliated with the American 
Bar Association (ABA). The association has 35 chapters and numerous 
national committees engaged in liaison with Federal agencies as well as 
advocacy, professional conferences and publications, and media outreach 
on immigration topics. AILA members have assisted in contributing ideas 
to increased port of entry inspection efficiencies, database 
integration, security enhancement and accountability, and technology 
oversight, and continue to work through our national liaison activities 
with Federal agencies engaged in the administration and enforcement of 
our immigration laws to identify ways to improve adjudicative processes 
and procedures.
    Being from El Paso and practicing immigration law here for over 22 
years, my practice has focused on consular processing, admissions, 
database integration, private/public partnerships for improved 
inspections at our ports, biometrics in immigration processing, 
business-based and cross-border immigration issues, naturalization, 
citizenship, and family-based cases. I previously served as the 
president for 4 years of the El Paso Foreign Trade Association, a 
member of the Texas Comptroller's Border Advisory Council, a member of 
the board of the Border Trade Alliance, and a member of the executive 
committee of the Texas Border Infrastructure Coalition for the city of 
El Paso. During my tenure as president of the El Paso Foreign Trade 
Association, the association served as a leader in creating the first 
Dedicated Commuter Lane in the State of Texas, which was in El Paso. I 
have previously testified in hearings before committees and 
subcommittees of the U.S. Senate and House as well as before certain 
committees of the Texas State Senate and House on the topics of 
immigration and border security.

                             I. BACKGROUND

A. Summary
    The El Paso/Cd. Juarez area has served as an example of the use of 
positive public and private partnerships to balance the flow of trade 
and people between countries with the increased need for security. El 
Paso represents the historic border town between the United States and 
Mexico. The virtual border of today includes as our first line of 
defense, the Department of State's (DOS) U.S. consular posts abroad as 
well as Pre-Clearance Operations (PCO) and the Immigration Security 
Initiatives (ISI) of Customs and Border Protection (CBP) at foreign 
airports. In addition, we use advance passenger manifests from arriving 
airplanes provided to CBP, the US-VISIT registration process, the 
integration capabilities of our enforcement databases, and the 
operations of our intelligence networks.
    What are the true parameters of ``securing'' this virtual border? 
The border demarcated by the Rio Grande between the United States and 
Mexico is a last line, not a first line, of effective control of those 
coming to the United States. This border must be porous enough to 
facilitate our economic growth and yet impervious enough to withstand 
the efforts of those wishing to do our Nation harm. My testimony will 
review concrete efforts by this border community to achieve such 
results via numerous security-related technologies and infrastructure 
initiatives. It is difficult for a community steeped in secure trade 
initiatives, however, to support an ``enforcement only'' or 
``enforcement first'' response to our current immigration problems 
generally, and to the conundrum of illegal immigration specifically 
given years of failure to fund and be accountable to the American 
public for border security issues. Where were the funds and the 
accountability for trade and inspections' infrastructure as well as 
consular visa processing support in the last 50 years that would meet 
the joint demands of security and trade?
    A day does not pass without innumerable talking heads lambasting 
our lack of control of our borders. We here on the border know that 
talk is cheap and action, including funding and oversight, much harder. 
For example, the Immigration and Naturalization Service (``INS'') 
Office of Administration reported in the 2nd Data Management 
Improvement Act (``DMIA'') report to Congress in 2003, the following 
shortages in space for the Federal inspection area at land border ports 
of entry:
  <bullet> 64 ports have less than 25 percent of required space.
  <bullet> 40 ports have between 25 and 50 percent of required space.
  <bullet> 13 ports have between 50 and 75 percent of the space 
        required.
  <bullet> Some existing ports lack any land for expansion.\1\
---------------------------------------------------------------------------
    \1\ DMIA Task Force: Second Annual Report to Congress, at 33 
(December 2003) (herein ``2nd DMIA Report'').
---------------------------------------------------------------------------
    The funding backlogs for facility requirements of land ports of 
entry have been extensive for years. In fiscal year 2003, for example, 
the funding backlog was over $500 million.\2\ Where is the follow-up 
report evaluating this lack of infrastructure and the plan of action to 
deal with this issue? If ``border security'' means sufficient 
infrastructure at our land border ports, when is this objective 
actually achievable?
---------------------------------------------------------------------------
    \2\ Id.
---------------------------------------------------------------------------
B. Accountability and Technology Solutions for Border Security
    In a 2005 Immigration Policy Center (IPC) study on the impact of 
border fencing, Professor Jason Ackleson of New Mexico State University 
noted, ``Viewing border security as a solely national security matter 
tends to neglect the larger economic and social forces that underpin 
the flow of Mexicans and others into the United States to fill gaps in 
the U.S. labor force.''\3\
---------------------------------------------------------------------------
    \3\ Ackleson, Jason, Ph.D., ``Fencing in Failure: Effective Border 
Control is Not Achieved by Building More Fences,'' Immigration Policy 
Center Brief, American Immigration Law Foundation, p. 6 April 2005.
---------------------------------------------------------------------------
    As to the decisions that must be made to use effective technology 
as a complement to the human factor, the statement of Nancy Kingsbury, 
the Managing Director of Applied Research and Methods for the then 
Government Accounting Office is instructive. Ms. Kingsbury states that 
the following three key considerations must be addressed before a 
decision is made to design, develop, and implement biometrics into a 
border control system:
    1. Decisions must be made on how the technology will be used.
    2. A detailed cost-benefit analysis must be conducted to determine 
        that the benefits gained from a system outweigh the costs.
    3. A trade-off analysis must be conducted between the increased 
        security, which the use of biometrics would provide, and the 
        effect on areas such as privacy and the economy.\4\
---------------------------------------------------------------------------
    \4\ Kingsbury, Nancy, Testimony before the Subcommittee on 
Terrorism, Technology, and Homeland Security and Subcommittee on Border 
Security, Immigration, and Citizenship, Committee on the Judiciary, 
U.S. Senate, March 12, 2003 GAO 03-546T, at 13.
---------------------------------------------------------------------------
    Stephen E. Flynn, Ph.D., former Commander, U.S. Coast Guard (RET.) 
and a Jeanne J. Kirkpatrick Senior Fellow in National Security Studies 
has stated that, ``Hardened borders also transform the cost-reward 
structure so amateur crooks are replaced by sophisticated criminal 
enterprises and corruption issues become more pronounced. In short, the 
experience of the southwest border suggests that aggressive border 
security measures end up contributing to problems that inspired them in 
the first place.''\5\ Commander Flynn noted the following:
---------------------------------------------------------------------------
    \5\ Flynn, Stephen E. Ph.D., Testimony before a hearing of the 
Committee on Foreign Relations, U.S. Senate on ``U.S.-Mexico: 
Immigration Policy & the Bilateral Relationship,'' March 23, 2004, at 
p. 3.

``To adopt the `smart border' agenda throughout North America will 
require that Washington countenance an alternative approach to dealing 
with the issues of illicit drugs and immigration. It will require the 
Federal agencies for whom border enforcement has been a growth business 
to acknowledge the unintended consequences of their collective effort 
has been to actually make the border regions more difficult to police 
and secure.\6\ Well designed border crossings that are adequately 
staffed with inspectors who are well trained in behavior pattern 
recognition can be more effective than reliance on high technology when 
dealing with this foot traffic . . . biometric device is useless in 
detecting behaviors such as excessive anxiety that should arouse 
suspicion.''\7\
---------------------------------------------------------------------------
    \6\ Id. at p. 10.
    \7\ Id. at p. 6.
---------------------------------------------------------------------------
C. The Human Element
    It is critical to recognize the importance of the human element in 
concert with technology advancements. We must never forget the actions 
of Diane Dean, the customs inspector, who with her colleagues 
intercepted and arrested an al Queda terrorist named Ahmad Ressam at 
the U.S.-Canada border in late 1999. She questioned Ressam and found 
his answers suspicious. In addition, Jose Melendez-Perez was an INS 
inspector who denied entry to a man named Mohamed Al Quatrain at the 
Orlando airport in August 2001. Mr. Melendez just felt that something 
in his story did not add up. Later, Al Quatani was captured fighting 
with the Taliban. The importance of such intuition and inspection 
training cannot be forgotten or undervalued at our collective security 
peril.
    This critical human element within CBP is suffering. The November 
2007 GAO report noted that in 2006, nonsupervisory CBP staff scored 
their work environment as lower than elsewhere in the Federal 
Government on 61 of their survey's 73 questions.\8\ The report further 
notes that as to staffing, CBP staff gave low marks to CBP for adequacy 
of resources to get the job done and for work being done to recruit 
those with necessary talents and skills. In addition, as to training, 
less than half of the CBP staff were satisfied with the quality of 
training received.\9\ At some ports, managers had to cancel training 
sessions to deal with staffing shortages. At one port, management 
estimated that they would need $4 million in overtime to provide its 
officers with four basic cross-training courses, including one in 
processing immigration cases.\10\
---------------------------------------------------------------------------
    \8\ U.S. Government Accountability Office (GAO), Border Security: 
Despite Progress, Weaknesses in Traveler Inspections Exist at Our 
Nation's Ports of Entry, GAO-08-219, November 2007 at p. 54.
    \9\ Id.
    \10\ Id. at p. 36.
---------------------------------------------------------------------------
    It is imperative that effective congressional oversight of staffing 
and training at ports of entry evaluate the number of personnel 
actually on-site and available for inspection work. Often, a port may 
be listed as fully staffed, but the information is only relevant as to 
allocation versus actual on-site inspectors. In addition, CBP has 
reduced public information as to these staffing numbers. Several years 
ago, the Western Region of the southern land border for CBP included 
the Phoenix and San Diego Districts, while the Central Region included 
the El Paso, Harlingen, and San Antonio Districts. At that time, the 
Western Region had 13 ports of entry and processed 132,774,790 
applications for admission, while the Central Region with 28 ports 
processed 190,808,224 applications for admission. Based on 788 
authorized inspector positions for the Western Region versus 697 
authorized inspector positions for the Central Region, the Central 
Region inspectors carried a load of 275,592 inspections per position 
versus 166,139 inspections per Western Region inspector. These figures 
must be provided by CBP to congressional oversight committees to 
determine realistic staffing needs and demands.
    The president of the CBP union, the National Treasury Employees 
Union (NTEU), Colleen M. Kelley, sent a Letter to the Editor of the El 
Paso Times, which was published on October 21, 2007, stating that there 
are about 18,000 CBP officers staffing our Nation's 326 ports of entry, 
with Congress hiring 200 more in fiscal year 2008. She noted that while 
the addition of 200 might seem significant, that at least 22,000 CBP 
officers were needed--a deficit of 3,800 CBP inspectors. How can we 
expect CBP to have a chance to accomplish its inspections missions 
without sufficient staffing--and what really is the true number of on 
the ground inspectors needed to avoid massive overtime demands? This 
valid question should be readily answerable by any congressional 
oversight committee. Technology cannot achieve objectives without 
sufficient staffing resources and appropriate infrastructure. Thus, 
artificial deadlines to make constituents think security objectives are 
being achieved are an optical artifice at best.

                 II. TECHNOLOGY CHALLENGES AND HISTORY

    It is imperative that we have a ``no tolerance'' policy for 
technology, which does not enhance security as advertised or for 
technological failures tied to inadequate funding and oversight by 
Congress and/or the agency charged with implementing such technology. 
While technology can provide useful enhancements to security 
capabilities, even the most promising technological plans can be 
thwarted or sabotaged based on a variety of factors such as:
  <bullet> Inadequate pilot testing on sight to determine the true 
        capacity of the technology.
  <bullet> Failures to perform cost-benefit analyses before 
        implementation as well as appropriate follow-up on performance 
        of implemented technologies.
  <bullet> Inadequate integration of field-testing replies on 
        technology in strategizing implementation methodologies.
  <bullet> Improper cannibalization of technologies during the request 
        for bid process resulting in potential performance reductions.
  <bullet> Failure to adhere to implementation schedules due inadequate 
        funding and staffing.
  <bullet> Inability to provide maintenance due to funding or lack of 
        availability.
  <bullet> Failure to analyze and address crossover agency issues in 
        the implementation of technologies.
  <bullet> Failure to provide adequate initial and on-going training to 
        utilize technologies.
  <bullet> Failure to admit mistakes and learn from them in technology 
        implementation.
  <bullet> Mandated percentages of technology use for inspections 
        without consideration of effectiveness.
  <bullet> Failure to preserve biometric data for future use/review.
  <bullet> Failure to fully integrate watch list databases to improve 
        effectiveness.
    Any implementation of technology is always an experiment. The land 
border has had its share. The following section provides a few 
examples:
    License Plate Readers.--Several years ago, license plate readers 
were installed in our passenger vehicle lanes in El Paso to read plates 
of northbound cars to the United States to reduce primary inspection 
times by ending the need to manually input plate numbers. 
Unfortunately, the technology had problems with the different Mexican 
plate permutations and the ability to read such plates would at times 
be at a less than 50 percent level. The capacity has improved over 
time, but usage of the system can still be problematic.
    Document Scanners.--Section 303 of the Enhanced Border Security 
Bill of 2002 (Pub. L. No. 107-713), required that as of October 26, 
2004, all U.S. visas, other travel and entry documents issued to 
foreign nationals, and passports with biometric identifiers issued to 
Visa Waiver Program country applicants for admission must be used to 
verify identity at all ports of entry via a biometric comparison and 
authentication. This deadline was extended for 1 year by Pub. L. No. 
108-299. Note that this requirement is separate from the recordation of 
admission under US-VISIT procedures. Thus, along the U.S.-Mexican 
border, even exempted Mexican laser visa holders under US-VISIT 
procedures (e.g. crossers within 25-mile area of border/75 miles in 
Arizona for 30 days or less) require scanning for admission as well as 
holders of currently valid I-94s. This requirement applies to 
pedestrians, persons in passenger vehicles, as well as commercial 
vehicles. At El Paso ports alone, those inspected in 1 day can exceed 
100,000 people.
    In April and May 2004, scanners were installed at El Paso ports in 
preparation for the October 2004 deadline. Mexican laser visas and 
legal permanent resident cards were scanned using this Biometric 
Verification System (``BVS''), which involved the scan of a print to 
confirm identity as well as a scan of the identity document. The system 
did not record the entry date. In addition, the system did not scan the 
person against watch lists upon intake of the biometric data without 
further manipulation by the inspector of the database. The card scanned 
would often get stuck in the BVS readers. In addition, the no-read rate 
for the scanners exceeded 40 percent at certain ports of entry. Such 
failures were tied to ``wallet-crud'' on the cards, damaged cards, and 
sweaty or dry fingers.
    US-VISIT, RFID, and Inspection.--Due to the infrastructure, 
staffing, inspection volume, and technology limitations of the southern 
border, as of fiscal year 2004, only 1.4 percent of land port of entry 
admissions were processed through US-VISIT.\11\ In fiscal year 2004, 
land border inspections totaled 335.3 million in comparison to 75.1 
million for airports of entry and 14.7 million for sea ports of 
entry.\12\ Any implementation of an increased percentage of applicants 
for admission being subjected to further biometric or document review 
at land ports of entry must be reviewed in context of these volume 
realities at our land border ports of entry.
---------------------------------------------------------------------------
    \11\ U.S. Government Accountability Office (GAO), Homeland 
Security: US-VISIT Program Faces Operational, Technological, and 
Management Challenges, Statement of Richard M. Stana, Director of 
Homeland Security and Justice Issues, GAO-07-632T, March 20, 2007 at p. 
7.
    \12\ Id.
---------------------------------------------------------------------------
    In addition to the scanner failure referenced above as to the laser 
visa, which will be in circulation for 10 years in 2008, CBP primary 
inspection officers are unable to utilize the chip technology in the e-
passport to verify document authenticity because e-passport readers are 
not available at 83 airports of entry and are not designated for U.S. 
citizen inspections at 33 other airports of entry.\13\ In addition, 
primary inspectors are not able to utilize the available fingerprint 
records of the laser visa, which are stored on optical media of the 
laser visa card.\14\ Due primarily to the large volume of admission 
applications at land border ports of entry, primary officers only 
machine read travel documents or manually enter biographic data when 
deemed appropriate tied to traffic flow and wait times. Thus, a primary 
inspector may only scan 40 percent of machine-readable documents on the 
southern land border.\15\ Most land border crossers are U.S. citizens 
and legal permanent residents, and are exempt by from enrollment in US-
VISIT by statute.\16\ Canadians and Mexican citizens comprised about 41 
percent of the land border crossers, of whom less than 2 percent were 
required to enroll in US-VISIT.\17\ Thus, it is important to apply the 
lessons from US-VISIT to the tremendous task ahead created by the 
implementation of the Western Hemisphere Travel Initiative (``WHTI'') 
for land border crossings.
---------------------------------------------------------------------------
    \13\ GAO, Border Security: Security of New Passports and Visas 
Enhanced, But More Needs To Be Done To Prevent Their Fraudulent Use, 
GAO-07-1006, July 2007 at p. 32.
    \14\ Id. at p. 34.
    \15\ Id.
    \16\ In fiscal year 2004, U.S. Citizens and lawful permanent 
residents comprised about 57 percent of land border crossers. Id. at p. 
15.
    \17\ Id.
---------------------------------------------------------------------------
    In attempts to implement US-VISIT in the land border environment, 
CBP tested radio frequency identification (RFID) technology. In 
February 2007, DHS officials decided to cease the use of RFID 
technology to try to track exits from the United States. In some 
instances, RFID read rates were at only 14 percent versus the target of 
at least 70 percent. In addition, CBP experienced problems with cross 
reads, in which multiple RFID readers at a border crossing picked up an 
I-94 with an RFID tag. In the tests conducted by CBP, US-VISIT embedded 
the tag in a modified I-94 (arrival/departure card). US-VISIT officials 
acknowledged that no technology now exists to reliably record a 
traveler's exit from the country.\18\ The same officials noted that a 
biometrically based solution that can definitively match a visitor's 
entry and exit will be available in 5 to 10 years.
---------------------------------------------------------------------------
    \18\ U.S. GAO Report, Border Security: US-VISIT Program Faces 
Strategic, Operational, and Technological Challenges at Land Ports of 
Entry, GAO-07-248, December 2006 at p. 59.
---------------------------------------------------------------------------
    As background, RFID is a form of wireless technology. A computer 
chip is attached to an antennae (the tag), which communicates 
wirelessly with a reader or interrogator via radio waves. Proximity 
RFID cards require a card to be presented within 4 inches of a reader 
and conform to the ISO 14443 standard. Vicinity RFID cards may be read 
from a range of 20 feet from the reader, but long-range RFID cards are 
subject to snooping and forgery.
    WHTI.--The Intelligence Reform and Terrorism Prevention Act of 2004 
(Pub. L. No. 108-458), as amended (IRTPA) provides that upon full 
implementation, U.S. citizens and certain classes of nonimmigrants may 
enter the United States only with passports or such alternative 
documents as the Secretary of Homeland Security designates to establish 
identity and work eligibility. As of January 31, 2008, the Department 
of Homeland Security (DHS) has announced that all U.S. and Canadian 
citizens 19 years of age and older who enter the United States at land 
and sea ports of entry from within the Western Hemisphere will need to 
present a Government-issued photo ID such as a driver's license as 
proof of identity along with proof of citizenship, such as a birth 
certificate, naturalization certificate, or a passport. Children age 18 
and under will be able to enter the United States by presenting proof 
of citizenship alone. Other acceptable documentation for WHTI admission 
purposes includes a U.S. military ID card, a NEXUS card (at NEXUS 
kiosks only), a DOS Passport Card (when available), a SENTRI card (at 
SENTRI lanes), a FAST card (at FAST lanes), a laser visa, and a 
Merchant Mariner Document (MMD) (when traveling on official maritime 
business).
    In the later part of 2007, local CBP officials at the El Paso ports 
of entry started to check Government-issued photo identification cards 
to attempt to verify the identity of those claiming to be U.S. 
citizens. This minor test drive of WHTI at a 65 percent review rate 
caused substantial delays at the ports of entry. To believe that poorly 
staffed and undertrained CBP officers at our ports will be able to 
evaluate a Government-issued identity card and birth certificate or 
naturalization certificate for U.S. citizens at land borders on January 
31, 2008 is foolhardy and premature. This conclusion is especially true 
due to the difficulties in starting the application process for the DOS 
PASSCARD and problems with RFID cards and document or e-technology 
scanners.
    According to the testimony of Frank E. Moss, Deputy Assistant 
Secretary for Passport Services for DOS, presented on April 27, 2006 
before the U.S. Senate Committee on Foreign Relations, Subcommittee on 
Western Hemisphere, Peace Corps and Narcotics Affairs, DOS believes 
that about 6 million U.S. citizens who do not have a passport will 
require formal documents under WHTI for travel by air or sea. As to 
land border travel to Canada or Mexico, Mr. Moss estimated that 27 
million Americans may need formal documents to travel during the next 5 
years. Mr. Moss stated that DOS predicted that passport applications 
would reach about 16 million in fiscal year 2007 and perhaps a 
sustained demand of 17 million or more in fiscal year 2006 and beyond. 
In fiscal year 2006, DOS processed approximately 13 million passport 
applications. Currently, a basic initial passport application costs 
$97.00.
    PASSCARD/Citizenship Card.--In light of the WHTI requirements, DOS 
announced in October 2006 that it would propose a limited use passport 
card for land and sea travel between the United States, Mexico, Canada, 
the Caribbean, and Bermuda. The proposed card would cost $10 for 
children and $20 for adults plus a $25 execution fee. DOS indicated 
that the proposed card would use long-range, vicinity RFID technology. 
The card itself would not contain any personal information, but would 
contain a unique identifier to link the card to a database. There is 
some historical support for a citizenship card used for Western 
Hemisphere Travel. The Immigration and Naturalization Service from 1960 
to 1983 issued a citizen identification card to naturalized citizens 
living near the Canadian and Mexican borders who needed them for 
frequent crossings to the United States. The cards were called an I-179 
or I-197. The only biometric feature of these cards was a photograph 
and the cards were not tamper-resistant. To resurrect such cards would 
require a review of the same biometric issues faced by DOS with the 
PASSCARD. Unfortunately, DOS may not even start accepting applications 
for a PASSCARD until February 2008 or later depending upon regulatory 
clearances.
    It is currently expected that in the summer of 2008, WHTI's 
requirements will be fully implemented, and birth certificates will no 
longer, along with a Government-issued photo identification, serve as 
satisfactory evidence of citizenship. DHS must be cautious in pushing 
this deadline ahead of training, staffing, document issuance, and 
infrastructure capabilities. Connecting the dots on realistic 
capabilities of CBP inspectors and DOS adjudicators will be critical to 
avoid a catastrophic interruption in cross-border travel.
    REAL ID and the Enhanced Driver's License.--Congress passed the 
REAL ID Act as part of the Emergency Supplement Appropriations Act for 
Defense, the Global War on Terror, and Tsunami Relief of 2005 (Pub. L. 
No. 109-13), which the President signed into law on May 11, 2005. The 
REAL ID Act provides that beginning 3 years after enactment, driver's 
licenses cannot be accepted by Federal agencies for any official 
purpose unless the licenses meet the requirements of the Act. States 
will have until May 2008 to make their licenses and issuance processes 
conform with REAL ID. States can choose whether to implement REAL ID 
requirements. In 2006, the National Conference of State Legislators 
(NCSL) and the American Association of Motor Vehicle Administrators 
(AAMVA) in conjunction with the National Governors Association (NGA) 
conducted a Nation-wide survey of State motor vehicle agencies (DMVs). 
Based on the results of the survey, NGA, NCSL, and AAMVA concluded that 
REAL ID would cost more than $11 billion over 5 years, have a major 
impact on services to the public, and impose unrealistic burdens on 
States to comply with the Act by the May 2008 deadline. Since that 
time, the State government of Maine passed a resolution in January 2007 
to reject implementation of the REAL ID Act. Arkansas, Idaho, Montana, 
and Washington have also passed similar legislation to reject REAL ID. 
At least 24 other States are also considering opting out of REAL ID, 
placing conditions on their participation in the law, or urging 
Congress to repeal it. A table that lists and summarizes these 
proposals is set forth at www.nilc.org in a chart entitled, ``2007 
State REAL ID Legislation.''
    Some of the driving forces behind the passage of REAL ID were to 
improve the process of driver's license issuance to reduce fraud, 
improve consistency in issuance processes among the States, and to 
require proof of lawful immigration status. As to immigration status, 
under REAL ID, a driver's license applicant must demonstrate proof that 
he or she: (1) Is a U.S. citizen; (2) is lawfully admitted for 
permanent or temporary residence; (3) is a conditional permanent 
resident; (4) has a pending or approved application for asylum; (5) is 
a refugee; (6) is a nonimmigrant with a valid, unexpired visa; (7) has 
a pending or approved application for temporary protected status; (8) 
has approved deferred action status; OR (9) has a pending application 
for permanent residence or conditional permanent residence.
    Some States opposing REAL ID have chosen to proceed with a 
Memorandum of Understanding with DHS to create an enhanced driver's 
license for compliance with WHTI requirements. Washington State is an 
example of this approach. Vermont, Arizona, and New York are apparently 
also heading down this path. In Texas, S.B. 2027 introduced by State 
Senator Eliot Shapleigh of El Paso amended Section 521.032 of the Texas 
Transportation Code as of September 1, 2007 to allow those U.S. 
citizens residing in the State of Texas to apply for an enhanced 
driver's license, which requires the Texas Department of Public Safety 
to implement a one-to-many biometric system for such licenses and to 
secure any RFID chip used in such licenses from unauthorized access. 
While laudable in effort, the State enhanced driver's license (EDL) 
option to deal with WHTI demands is a redundant and unnecessary 
precedent. It steps squarely onto the issue of Federal preemption under 
the U.S. Constitution.
    WHTI deals with the issue of documenting citizenship and applying 
Federal immigration/citizenship laws. The Federal courts have 
repeatedly commented on the complex nature of immigration law. 
``Immigration laws bear a `striking resemblance .[to] King Minos's 
labyrinth in ancient Crete. The Tax Laws and the Immigration and 
Nationality Acts are examples we have cited of Congress's ingenuity in 
passing statutes certain to accelerate the aging process of judges.'' 
Lok v. INS, 546 F.2d 37, 38 (2d Cir. 1977).
    In addition, DOS and DHS with all of their experience trying to 
create machine-readable admission documents are still not utilizing the 
full biometric capacity of documents for admission to the U.S. 
Biometric scanning options have not met with success even with the use 
of greater Federal resources. The issuance of international admission 
documents for U.S. citizens is not an area for the State of Texas to 
waste funds upon when the PASSCARD will soon be available for issuance. 
Instead, efforts should be focused upon demanding that the Federal 
Government implement enhanced inspection processes as well as 
infrastructure and staffing improvements. DHS cannot even figure out a 
way to allow SENTRI and NEXUS holders to use their admission documents 
interchangeably at the northern and southern borders. Contemplate the 
use of State-issued EDLs at all ports of entry.
    SENTRI and NEXUS.-- 7208(k) of IRTPA regarding expediting 
travelers across international borders via the use of registered 
traveler programs mandates that applicants be provided with clear and 
consistent eligibility guidelines. Although CBP has information on such 
registered traveler programs on www.cbp.gov as well as published 
regulations at 8 CFR  235.7 as to automated inspection services, users 
and those desiring to use frequent traveler programs continue to 
receive conflicting messages from CBP enrollment centers and management 
as to eligibility standards for such programs as SENTRI, NEXUS, and 
FAST. This criticism was outlined in the Office of Inspector General 
report entitled, ``A Review of the Secure Electronic Network for 
Travelers Rapid Inspection Program,'' dated April 2004 (OIG-04-14). 
Page 15 of this report notes, ``CBP has not established thresholds for 
allowable violations, arrests, or convictions before an application 
must be denied.'' This criticism is still applicable. As noted in the 
September 27, 2007 issue of the Northern Light:

``Despite broader uses for the NEXUS card, including the likelihood it 
will be accepted as an alternative to a passport when they become 
mandatory for entering the U.S. next year, membership in the program 
appears to be dropping. This summer the original memberships in the 
program--25,446 issued in the second half of 2002--began to expire. 
According to figures provided by Hicks, 2,205 renewals were issued (two 
were denied) in July and August 2007, outpacing the new applications, 
1,428 of which were approved during that period (133 were denied). 
However, by the end of August Hicks reported 3,198 memberships had 
expired and not been renewed. During the same period, 96 people had 
their NEXUS memberships revoked. The program therefore lost almost as 
many members as it gained in a 2-month period--perilously close to 
negative growth. What determines admissibility to the program? Those 
who have been denied membership complain that they don't know why, with 
letters stating only that they are `otherwise ineligible' to 
participate in a trusted traveler program, but not providing the basis 
for determining ineligibility.''

    Decreased usage of registered traveler programs does not improve 
security. Currently, the statement in 8 CFR  235.7 allowing an officer 
to deny a PORTPASS to someone who is ``otherwise determined by an 
immigration officer to be inadmissible to the United States or 
ineligible to participate in PORTPASS . . .'' should be void for 
vagueness. This language and that of the similar provisions published 
on www.cbp.gov (e.g. ``cannot satisfy CBP of their low-risk status'') 
provides the public no predictability as to program eligibility as 
mandated by the ITRPA. Furthermore, for those caught in this purgatory 
of the bar or ejection from participation due to this vague provision, 
the current process of review provided through the CBP ombudsman allows 
no meaningful review or confirmation of any security risk presented. 
Often, the applicant is not questioned to clarify whether certain 
rumors regarding the applicant might have any basis in fact. This 
status quo is totally unacceptable and serves no security interests, if 
indeed the desire of our Government is to apply intelligent security 
risk assessments.
    CBP should follow the recommendations of the OIG report and publish 
more specific guidelines as to the security risk assessment bases for 
ineligibility to frequent traveler programs. A zero-tolerance policy 
does not provide a valid risk assessment. The following points, which 
are utilized daily in the review of various waiver eligibilities under 
U.S. immigration law, should be considered:
    A. Length of time since commission of offense;
    B. Penalty imposed for commission of offense;
    C. Potential risk to national security (identify risk and allow 
        submission of documentation for review as well as a personal 
        interview);
    D. An arrest versus a conviction shall not serve as the sole basis 
        for denial of frequent traveler privileges.
    The standards of inadmissibility under  212(a) of the Immigration 
and Nationality Act could also be applied in a parallel manner to the 
frequent traveler programs of NEXUS, FAST, and SENTRI. As to frequent 
traveler programs needing to set a higher standard due to decreased 
primary inspections, this higher standard is already applied because of 
the increased biographic and biometric review mandated by the programs. 
Further, the review process on denials and revocations in these 
programs must allow for a personal interview and the provision of 
additional information. The refusal to make sure that information being 
used is accurate serves no security purpose.

    III. CROSS-BORDER CONSULTATION AND COOPERATION HAVE A LONG AND 
             SUCCESSFUL HISTORY ALONG OUR SOUTHWEST BORDER

    The Paso del Norte region has a rich and long trade history. El 
Paso was originally founded by Spanish explorers in 1581. In 2003, 
trade through the land ports along the U.S.-Mexico border represented 
about 83 percent of the trade between the countries. As to numbers of 
inspection of people, El Paso surpasses all ports of entry in Texas. 
This trade volume and active cooperation between local community groups 
and their corresponding associates from Mexico have resulted in several 
firsts from a security and trade perspective in El Paso:
    1. First Dedicated Commuter Lane in the State of Texas using Secure 
        Electronic Network for Travelers Rapid Inspection (``SENTRI'') 
        through a partnership with the El Paso Chamber Foundation for 
        infrastructure funding.
    2. First Expansion of an Existing Cross-Border Bridge (Bridge of 
        the Americas--``BOTA'') funded with local trade community 
        voluntary funding project.
    3. First and second commercial Fast and Secure Trade (``FAST'') 
        lanes for commercial traffic in the State of Texas.
    4. First pilot land border use of the Pulsed Fast Neutron Analysis 
        (``PFNA'') technology.
    Regular meetings are still held between Federal, State, and local 
U.S. and Mexican counterparts regarding the ongoing operations of the 
FAST and SENTRI lanes operating between El Paso and Ciudad (Cd.) 
Juarez, as well as concerning our shared ports of entry over the Rio 
Grande river.

                      IV. INSPECTION IMPROVEMENTS

    In order to improve efficiency and security at our ports of entry, 
we should consider:
    A. Options to maximize limited resources, such as the additional 
        staffing necessary to allow for staggered inspections booths to 
        be placed on inspection lanes to increase lane capacity.
    B. Assess port's capacity by reviewing available full-time 
        inspectors and inspection demands to determine allocation and 
        need for additional resources.
    C. Create a port of entry devoted to FAST commercial crossings.
    D. Increase Frequent Traveler Program use by establishing standards 
        that are more predictable and a meaningful review process.
    E. Even if DOS does not have the PASSCARD (for U.S. citizens) ready 
        to process--establish a way to allow for electronic intake of 
        the application now due to the implementation date of WHTI. 
        Note that when the Dedicated Commuter Lane was started in El 
        Paso, the local Chamber and Foreign Trade Association provided 
        information on the process and initial data intake to reduce 
        the processing burden. Another option may be to expand the 
        capacity of the EVAF electronic visa application system or the 
        INFOPASS system used by CIS to accept PASSCARD information. DHS 
        should also be required to report to Congress on the readiness 
        of all ports based on staffing levels and infrastructure to use 
        PASSCARDs as well as e-passports and resident alien cards for 
        admission purposes. The same information must be provided to 
        Congress as to interim measures requiring inspectors to review 
        birth certificates or other documentation of U.S. citizenship.
    F. The SENTRI inspection process should be geared to eliminate 
        primary inspection. There should be no need for questions in 
        primary, unless there is a reasonable suspicion of some 
        violation, which should result in secondary referral.
    G. Security and legal compliance have suffered due to the One Face 
        at the Border program in which inspectors are to become jacks-
        of-all-trades and arguably masters of none. Senior specialists 
        must be assigned to provide regular training and review of the 
        application of customs, immigration, and agricultural laws 
        among others at our ports of entry. Advancement must be tied 
        meeting educational and performance criteria within CBP.
    H. We still do not have consistency on the return process of the I-
        94 card. When the I-94 is sent to Kentucky by those who do not 
        turn it in upon departure, we do not determine if the entry in 
        the database made by Kentucky office as to departure compliance 
        is accurate. So, do not require I-94 return at the ports, but 
        do create a standard process for submitting information as to 
        departure, which can be input into US-VISIT as needed. Give the 
        I-94 holder some grace period (e.g. 30 days) to confirm 
        departure electronically. If banks can be required to report if 
        money is coming from outside the United States for reporting 
        purposes, surely departures must be able to be reported 
        electronically.
    I. Add a subset to frequent traveler programs by allowing B-1/B-2 
        I-94 applicants to provide additional information as required 
        to obtain a pro forma 1-year I-94 for business and visitation 
        purposes to reduce the need to apply for multiple I-94s during 
        the year. The regulations already provide this latitude, but 
        this validity period will reduce the burden on CBP to keep 
        reissuing shorter-term I-94s to those with a 10-year laser/BCC 
        or B-1/B-2. In addition, provide expedited processing lanes to 
        separate those with valid I-94 cards.
    J. Add a benefit to the Customs Trade Partnership Against Terrorism 
        (CTPAT) program from the immigration area by allowing current 
        employees of CTPAT certified manufacturers to be approved for 
        1-year business visitor I-94s, if the person possesses a B-1/B-
        2 or laser visa. In addition, provide for a specific time frame 
        and location for such I-94 applications to be made to reduce 
        processing times. In addition, allow such companies to report 
        I-94 departure compliance through uploading such information to 
        the company's CTPAT information on the CTPAT database.
    K. Create product line inspection lanes and train inspectors to be 
        able to process those types of admission applications. For 
        example, a lane for U.S. Citizen and legal permanent residents. 
        Another lane could be established for those with valid I-94s.
    L. Establish a state-of-the-art methodology for determining current 
        wait times at each port to allow for timely shifting of 
        resources.
    M. Work on modification of union agreements as necessary to enhance 
        the flexibility of resource use.
    N. Provide incentives for efficient passenger inspection without 
        loss of security similar to those provided for drug busts.
    O. CIS already has overseas offices. Establish a CBP office at the 
        U.S. Consulate in Cd. Juarez to provide pre-input of data 
        necessary to effectuate admission of the nonimmigrant or 
        nonimmigrant visa holder. A standard CBP initial I-94 could be 
        provided at the consulate for swiping upon application for 
        admission. Think of airline processes for data scan for use in 
        this scenario.
    P. Establish inadmissibility specialists to prepare appropriate 
        documentation to improve efficiency and accuracy.
    Q. Provide clerical and administrative support sufficient to free 
        up CBP inspectors to focus on tasks, which utilize their 
        training to its highest and best use.

       V. RECENT DEVELOPMENTS AND OPPORTUNITIES FOR COLLABORATION

    If signed by the President, the Consolidated Appropriations Act of 
2008 (H.R. 2764) (omnibus bill) will provide some necessary relief 
regarding the current pressures being placed upon the land border by 
the Western Hemisphere Travel Initiative. Section 545 of Division E of 
the bill delays implementation of section 7209(b) of the Intelligence 
Reform and Terrorism Prevention Act of 2004 \19\ regarding the use of 
certain travel documents by U.S. Citizens and other applicants for 
admission for whom documentation requirements have been waived (e.g. 
Canadian Citizens) until June 1, 2009. This delay makes sense in light 
of delays in the implementation of the DOS PASSCARD as well as the 
upcoming wave of renewal demands for Mexican laser visas upon the State 
Department. In the interim though, border communities and the relevant 
Federal agencies engaged in visa issuance and admission inspection must 
consider alternative private and public sector informational and 
process initiatives to improve and facilitate the issuance of Frequent 
Traveler Cards as well as PASSCARDS.
---------------------------------------------------------------------------
    \19\ Pub. L. No. 108-458 (ITRPA).
---------------------------------------------------------------------------
    In addition, the Registered Traveler Programs promoted in section 
7208 of ITRPA as well as section 565 of the omnibus bill will not 
flourish without a thorough review of the current Zero Tolerance Policy 
applied in the NEXUS and SENTRI programs. U.S. immigration laws provide 
a long history of risk assessment from an admission perspective, which 
has been seemingly ignored by the current less than transparent 
standards required for participation in registered traveler programs. 
To improve enrollment as well as security, it is imperative that this 
policy be revised and clarified, and that true security threats be 
readily assessed and addressed. A registered program must be devised to 
include those who are frequent border crossers without such high 
enrollment costs and the Mexican government must be fully engaged to 
reduce the prohibitive costs applied on SENTRI enrollees in the El Paso 
area. Further, inspection processes must be further abbreviated for 
those enrolled in these programs. I am sure that the El Paso community 
would be an excellent test site for a variety of options to try to 
define and create these programs.

    Mr. Cuellar. Thank you, Ms. Walker, for your testimony. At 
this time I will recognize myself for 5 minutes of questions. 
Ms. Walker, you know, this new requirement is coming in on 
January 31, asks for an ID or driver's license or birth 
certificate. What effect do you think this will have, this rule 
will have in our communities? Let's say El Paso as an example.
    Ms. Walker. I can already tell you that just in the time 
frame that they test-drove just looking at driver's licenses, 
which I think, my speculation of the idea behind it, was just 
to see what it was like to have U.S. citizens asked to show 
something, was one of delay. You've got to have proper rollout 
in public engagement and public education to be able to do 
that.
    But on the flip side, you've also got to realize that 
that's going to suck up time from an inspector's perspective, 
and you need training there, as well. So I think, yes, it will 
cause waits, and it won't necessarily increase security, and 
you won't know that the person is a U.S. citizen.
    Mr. Cuellar. From your observation do you think they have 
the training, the efficiency, the effectiveness to be able to 
move people quickly? Because I've heard the Government say: Oh, 
but it's only going to take, you know, 15 seconds, or it's 
going to take only 30 seconds. Let's say it takes 45 seconds.
    Ms. Walker. What will you know in 45 seconds by looking at 
a driver's license?
    Mr. Cuellar. That's right.
    Ms. Walker. Let's talk about a U.S. citizen on a different 
note. Only 2 percent of individuals have to actually go through 
US-VISIT on entry in land borders, as we know. Even in that 
context we haven't seen the true impact of US-VISIT.
    Mr. Cuellar. So if you add 45 seconds, you're the first 
person, that's 45 seconds. You're the second person, that's 
another 45 seconds. That's a minute and a half. If you're the 
third person, you add another 45 seconds. You keep adding 
hundreds and thousands--if you're the number 2,000 at the end 
of that day, 45 seconds times 2,000, that would add----
    Ms. Walker. As you well know as a border representative, 
that any additional time frame, you're supposed to weigh the 
time it takes against the security gain. I think the cost 
benefit analysis, if you want to put it in economic terms, is a 
loser in that circumstance. It's not because we don't want to 
improve security, and it's not because we don't want to get 
there. It's just the placebo doesn't really serve its purpose.
    Mr. Cuellar. Okay. Thank you. Question to Ms. Kelley, then 
I will go ahead and transfer this over.
    In your estimation, how many new CBP officers would the 
Agency need to hire to properly staff our ports of entry?
    Ms. Kelley. At this point our suggestion and what we're 
asking for is an additional 4,000 CBP officers across the 
country to be, you know, distributed at all the ports of entry.
    You know, there is some history to this. If you go back to 
Commissioner Ray Kelly, who was commissioner back in 2000, he 
actually submitted a report to Congress saying that at that 
time he believed the U.S. Customs Service--and, of course, 
today CBP is the U.S. Customs Service plus Immigration plus 
Agriculture--but his estimation at the time on the report he 
submitted on a port-by-port analysis was that Customs needed 
14,000 employees at that time, and that was before September 
11. So, you know, it's hard to know for sure.
    CBP has the best information about the passenger processing 
and border crossings and cargo entries and all of those things, 
but their own model said they need thousands of additional 
employees. So at this point NTEU is asking for Congress's 
support for an additional 4,000 CBP officers, and that is in 
addition to all of the vacancies that they currently have and 
aren't filled.
    Mr. Cuellar. Could I ask both of you to provide to the 
committee the number of adequate staffing we should have? But 
give me--don't just give me a global number. Give me the 
rationale or how you break that down as to how you got up to 
the 4,000 whatever the amount might be.
    Ms. Kelley. I'll be glad to give you our best guess, but 
let me clarify, it is that, because the specific information 
about staffing at the ports of entry is held by Customs and 
Border Protection. They believe it's a national security issue, 
and so there is not specific information that they will give to 
me. They will give it to you. They will give it to Members of 
Congress. But I will be glad to give you the information as to 
how we arrived at the 4,000. I'll be glad to do that.
    Ms. Walker. Respectfully, I have a list of, let's see, 18 
different reports I've collected since 1999 that establish 
staffing needs. If acceptable to the committee, I would like to 
append that to my testimony.
    But, again, the problem, when you ask the question: What 
will it take? If you don't put it in a really small context of 
as far as an inspector on the line available to inspect 
individuals versus staffing at the ports, I don't think it will 
be a very lucid--or maybe it will be lucid but accurate answer 
in order to make that evaluation to support staffing 
capabilities.
    Ms. Kelley. If I could also add, it does depend on what 
priority CBP sets for the work to be done. One of NTEU's 
biggest concerns is that under the One Face at the Border 
initiative the expertise that these officers have and have 
acquired over the years from doing this work has been lost. 
They are not able to use that expertise to pass on to others. 
They put them all in one uniform, said they were going to 
cross-train them so that they would know a little bit about 
everything. But the bodies of law rule and regulation in each 
of these areas, Customs, Agriculture, and Immigration, are very 
voluminous and very specific. Years and years of experience on 
the front line is what makes these officers as good at this as 
they are, and they're not being able to use that because of 
this One Face at the Border initiative. I believe it's a good 
slogan for CBP to say they have One Face at the Border. I do 
not believe it is helping them to do their job or helping these 
officers to do their jobs at the front lines.
    We heard reference by GAO to fleshing the lanes. Well, if 
CBP's intent is to flesh the lanes when the lines back up, then 
you need one level of staffing. If their intent is to do the 
inspections that these officers know need done and that I 
believe CBP wants to do but they need the staffing to do it, 
then you need a different level of staffing. So it really 
depends on what the judgment is given to these front-line 
officers to do. That is a big part of their job, is their 
professionalism and their judgment as to whether an entry is 
good or not, whether it should be sent to secondary or not, 
whether it should be looked into further or sent back. You 
know, that's--you can only do so much if you don't have the 
staffing.
    Mr. Cuellar. All right. Well, again, as Members of 
Congress, we want to help, but we need to know what the 
accurate number is because we've been hearing different things 
and getting piecemeal information. So if both of you could 
provide this, and I'm sure we'll get it from our assistant 
commissioner, also, so we can look at the numbers so we can 
then make that decision. But we want to thank you.
    At this time the Chair recognizes Mr. Davis from Tennessee 
for 5 minutes.
    Mr. Davis of Tennessee. Thank you, Mr. Chairman, and before 
I ask a question, I would like to say I'm very impressed with 
the dedication of Federal employees I saw. Thank you for what 
you do. Thank you for your dedication that I saw at the border 
crossing and I saw this week as I traveled across the area. I 
really appreciate that.
    The question I'd like to start with, Ms. Kelley, if you 
would: Would you tell me a little more about the law 
enforcement officer status that was just granted, and do you 
think it went far enough, and talk about that concept for me, 
please?
    Ms. Kelley. The law enforcement officer status that was 
passed as part of the omnibus spending bill will provide LEO 
status to CBP officers prospectively beginning July 1, 2008. I 
think it is a giant step in the right direction, and it was 
years and years in coming, and it took a lot of work by Members 
of this committee as well as many others who stepped forward on 
behalf of these officers.
    The language in the omnibus spending bill was a compromise. 
Does it go far enough? I believe that most officers will tell 
you and that NTEU will tell you, we believe they should have 
had the status 10, 15, 20 years ago from the day they were 
first armed and required to be armed as a CBP officer or a 
Customs inspector or an Immigration inspector. They have had to 
qualify at the range three times a year. They have all the 
authority and the responsibility of a law enforcement officer.
    So in the ideal world they would be granted LEO status 
retroactively from the day that they first held that status. 
But this omnibus spending bill is a giant step forward and is--
like I said, was a lot of hard work by a lot of people and will 
ensure that at least some benefit ensues to each CBPO as of 
July 1, 2008. Whether they work 1 more year or 10 more years, 
there will be a benefit to them with credit for that LEO status 
as of July 1.
    Mr. Davis of Tennessee. What needs to be done now? You said 
that proactive, moving forward, those that will be hired. What 
do we need to do for those who have worked and have been 
willing to protect us over the last several years?
    Ms. Kelley. On the LEO issue? Well, the only way to make 
them whole and to recognize them for the work that they have 
been doing all these years not being a covered position would 
be to provide them with that status and that coverage 
retroactive so that they receive credit for all the years they 
already served.
    Now the issue that has always been identified by the 
administration is that it's a cost issue, and I recognize that 
there's a cost attached to it, but I think that there's a 
bigger cost, if someone would ever measure it, of the turnover 
that is occurring because of the lack of LEO status of these 
officers by them moving to other positions that are covered.
    Mr. Davis of Tennessee. That's one thing that I picked up 
on last night. Fairly successful in bringing in new employees, 
but after the training they move on to another position that 
has coverage. Do you think this will help the morale of those 
that are going to be hired, and what do you think it will do to 
the morale for those who have been there for awhile?
    Ms. Kelley. You know, it will definitely help. It is long 
overdue, and I know it's much appreciated. The recognition in 
the omnibus spending bill to these officers has been very much 
appreciated and articulated to me across the country, and I do 
think that it will help the morale.
    That being said, while this is a huge issue on the morale 
front, there are so many other issues within CBP's control that 
aren't about cost, aren't about giving them LEO coverage, 
aren't about needing some action of Congress. CBP has, in these 
CBP officers, the skill and expertise of hundreds of years that 
is not being tapped into. There was a time when NTEU worked 
with CBP on issues, on work-related issues as to how to get the 
work done better. These front-line officers have a lot of ideas 
about how to do the work better, about how to make it safer, 
about how to make it faster, about how to make it more 
efficient. It is not being tapped into.
    The atmosphere in CBP is that they are told what to do, how 
to do it, when to do it, how long to take to do it. There is 
nothing that's being done to engage NTEU and these front-line 
employees in making the operations of CBP more efficient. 
Whether it's about working free doubles or whether it's about 
how they're assigned work or working three or four 16-hour 
shifts in a row, I mean all of those things are--they do come 
back to the staffing issue, but they are things that are within 
CBP's control. All of those things I outline in my testimony 
impact the morale of these employees.
    You know, someone had asked earlier about if they were 
rated 35 out of 36. There were actually two surveys. One survey 
is best places to work, and the employees rated Homeland 
Security as 29 out of 30, every year the survey has been done, 
not the year they stood up as a new department, every year 
since. As you so appropriately noted, it's been 5 years. I mean 
that excuse is kind of over, you know, and shouldn't be used 
anymore.
    The other survey made, the employees rated them 35 out of 
36 on three--on the three out of the four top key issues. The 
first year this happened I talked to the Secretary of Homeland 
Security--the deputy secretary, and he was very dismissive of 
this. He said, ``We're a new department; this is expected.'' It 
was really just unbelievable that he was so dismissive of the 
voices of the front-line employees. That has not changed over 
these 5 years. It has not changed. These employees want to be 
involved. They want to share their expertise. They want to make 
the operations better, and they're not being allowed to do 
that.
    Mr. Davis of Tennessee. Well, one last question. As elected 
officials, the American people want to see efficient use of 
their tax dollars, and you just testified there's hundreds of 
ways we can improve morale without increasing the amount of 
money we get from the taxpayers. That being the case, will you 
provide us a list of some of those things so that we can again 
provide it to the----
    Ms. Kelley. I will be glad to do that.
    Mr. Davis of Tennessee. Thank you for your testimony.
    Mr. Cuellar. Thank you, Mr. Davis. At this time the Chair 
will recognize Mr. Carney from Pennsylvania.
    Mr. Carney. Thank you, Mr. Chair. Ms. Kelley, we know that 
there's inadequate cross-training going on for some of the 
jobs, and that some folks get 2 weeks training and some get 12 
to 14 weeks. Has CBP done anything to try to address this?
    Ms. Kelley. No. Initially when they announced the One Face 
at the Border slogan, they had a training--a cross-training 
plan, and there was no way they could ever deliver on that, 
just because there wasn't enough staffing. You couldn't pull 
the officers off line to do all the training that they had 
outlined. So over time they've adjusted their training plan.
    Unfortunately what has happened now is the 12 to 14 weeks 
that you mentioned are actually the first weeks they spend at 
the academy as new hires. That training is intact and it goes 
on, you know, as they do their hiring. It's once they're back 
at the port that the delivery of training falls apart.
    Most of the training I hear about is a CD. They're given a 
CD and told to view this on the computer. It may be a 2-hour 
session, and they're told to get it done in 30 minutes because 
they really can't be off the line for 2 hours. There's no 
interaction. There's no opportunity to ask each other 
questions, to talk to an instructor and bounce ideas off them. 
So I would say that's how most officers would describe the 
training that they're receiving today.
    Mr. Carney. Okay. The triple doubles at CBP, what's being 
done to alleviate that?
    Ms. Kelley. You know, I have to tell you this. Free 
double--I mean the idea that you would work someone 16 hours 
and then schedule it so that you have an excuse, you think, not 
to pay them overtime for the second 8 hours, like I said, I 
just think that's appalling.
    You know, why they do it, you would have to ask them. When 
I became aware of this, I was told that for a while when it was 
brought to management's attention it stopped, but I understand 
that it has started up again. I will be addressing this when I 
get back to the District of Columbia.
    Mr. Carney. Ms. Walker, you've done a number of immigration 
cases, correct?
    Ms. Walker. Yes, sir.
    Mr. Carney. If you were an immigration attorney 
representing clients, would you find sort of fertile ground to 
go after CBP or whoever because you run across agents who are 
on their 16th hour in their third shift and they made a mistake 
because of fatigue? What are the legal ramifications here, if 
there are any?
    Ms. Walker. I think it works both ways. What I can also 
tell you is we have about 35 chapters across the United States 
within the American Immigration Lawyers Association. We have 
two different CBP-related committees that report in information 
from different ports, both north and south.
    The problem that we see is that you've got new people 
coming on board. There's a lack of training. So you've got 
errors made to the good and errors made to the bad because 
people just don't know. So you'll end up admitting someone in 
the wrong category or not recognizing that there's a ground of 
an inadmissibility applicable to the individual, just because 
of lack of training, or you'll end up with a simplistic 
situation in which it should be simple and the person should be 
admitted, but because they don't know the regulation, then the 
person is not admitted, which takes two and three times the 
amount of time then to try to fix. So it's a waste of time and 
energy. So that training is critical, and it's to the good and 
to the bad.
    Mr. Carney. Well, if you believe Mr. Davis' team, it also 
takes taxpayers dollars, as well.
    Ms. Walker. No question.
    Mr. Cuellar. At this time the Chair recognizes Mr. Reyes 
for 5 minutes.
    Mr. Reyes. Thank you, Mr. Chairman. Ladies, thank you for 
your testimony here this morning. Now I'll just point out to 
the Chairman and the Members of the committee that Ms. Walker I 
consider an expert on border issues. In fact, I've had the 
privilege of submitting her as a nominee under the previous 
system for commissioner of INS, so we're certainly pleased to 
have you here for this. Thank you very much.
    Ms. Walker. Thank you for the chance.
    Mr. Reyes. Ms. Kelley, I'm wondering, you heard some of the 
previous testimony. You obviously know the challenge and how 
difficult working at the ports of entry is. Do you have any 
recommendations on incentives or other ways that we can--that 
you can recommend to the committee for consideration in terms 
of recruitment, retention, traditional issues that affect our 
ability to have sufficient personnel working on those bridges 
and those ports of entry?
    Ms. Kelley. You know my understanding is on the recruitment 
front, that when CBP opens announcements, opens vacancy 
announcements, they get tens of thousands of applications 
pretty quickly, so that there is always that initial interest. 
What I see as the problem is the retention issue. Once the 
employees are here, they are not valued and respected. Their 
expertise is not respected, and they're not involved in how to 
help CBP be most effective. It gets down to these morale 
issues.
    You know I heard the previous panel testify and say that 
one of the reasons for the turnover was this new generation 
that wants to have four or five jobs and that there have been a 
lot of retirees. Well, yes, there have been retirees, but I 
believe the biggest turnover factor CBP has seen is not 
retirements, it is officers who were hired who come, they're 
here for 2, 3, 4 years. It is not a place they want to work, 
and so they go elsewhere. That is a cost that has never been 
measured, the cost of having to train new hires because there's 
so much turnover.
    You know, for me it is a very basic issue of respect and of 
acknowledging the expertise that they have and the skills that 
they have and the judgment and the professionalism that they 
have and letting them use that.
    You know, also in the prior discussion, you know, all the 
conversation about infrastructure, and some of the things that 
GSA testified to I was very pleased to hear. But in all of 
those discussions, they're between GSA and CBP, and never once 
at the ports of entry where the construction is being done here 
in El Paso, NTEU has not been involved in those discussions. 
That doesn't mean that we get to decide what construction is 
done and where the bridge is, but as they start making design 
decisions about how the passengers will flow, how the traffic 
will flow, how cargo will work, these front-line officers have 
a lot of really good ideas about that. There is zero 
opportunity for that to happen, and that is why employees are 
leaving.
    It's not--you know, it's not because--some, I'm sure, you 
know, in the next generation might want to have a couple of 
jobs, but I can tell you I talk to these officers as I travel 
around the country, and it is not an environment where they 
want to continue to work, where they feel that they're allowed 
to do the best work they're trying to do for the country.
    Mr. Reyes. Mr. Stana made mention of the issue of morale 
and the surveys that have been conducted. Has your organization 
done any studies similar to that?
    Ms. Kelley. Actually we have not done our own survey, 
because we think that, first of all, I'm sure there would be 
many just waiting for us to do our own survey and to take issue 
with the results that we would post. So we think it's better 
that OPM is doing the survey and that the Partnership for 
Public Service is doing the survey, and that employees are 
making it loud and clear, not just through NTEU, that they 
rated them as 29th out of 30th in best places to work. In the 
OPM survey they ranked 35 out of 36 on the key four questions. 
This has been year after year. If this were a 1-year phenomena, 
then there might be something to this: It was a big 
reorganization, 22 agencies, a lot of change.
    But, you know, as I mentioned and as the committee noted, 
that was 5 years ago. That as an excuse--the time for that as 
an excuse is over. Year after year employees continue to answer 
the survey the same way. It's an OPM survey and a Partnership 
for Public Service survey. CBP is doing nothing to address 
this.
    I have heard just recently another executive at CBP told me 
how seriously Commissioner Basham takes the survey, and I was 
very glad to hear that. I can tell you the next time 
Commissioner Basham and I meet we're going to talk about the 
survey and what it is that he can point to that CBP says 
they're doing to address those issues, because I can see them 
doing nothing, absolutely nothing to address the employee voice 
in the survey.
    Mr. Reyes. In that vein, Ms. Walker, I guess I'm curious, 
if you were to get the opportunity to either be considered for 
either Mr. Basham's position or Mr. Chertoff, what are the 
three things, based on your experience and knowledge of the 
border operations, what would be three things that you can 
mention, or a couple that you would prioritize to address the 
issue of staffing at the ports of entry?
    Ms. Walker. It's an interesting idea to have the 
opportunity to say something on that. First of all, I think I 
would have a ready answer that the staffing is inadequate. I 
think also that having an analysis before you in which you're 
able to see the number of inspections per port that they're 
trying to handle and then being able to allocate resources 
according to actual volume would be important.
    Then the training modules, how they're currently conducted, 
I just don't think it's working. I think that the One Face at 
the Border has got to be morphed into a multifaceted face with 
one mission statement but with clear accountability for making 
sure that people have the tools that they need to achieve the 
objectives. When they can't get there, somebody has got to 
actually say to Congress, I can't get there because of X. If 
the results are losing your job, so be it, but someone needs to 
tell exactly what's going on.
    Mr. Reyes. Do you see a role for technology in terms of 
perhaps facilitating the----
    Ms. Walker. I think technology, yes, sir, has a clear role, 
but I don't think that it replaces the importance of the human 
element. I would say that the human element is more important 
than any piece of technology and that technology is merely a 
force multiplier. I tried to include in my testimony two 
examples of how it was the inspector and the inspector with an 
incredible amount of experience who is able to spot 
individuals, not based on whether or not the particular red 
light flashed regarding an indicator that the person might have 
a problem. The 19 highjackers all had visas.
    Mr. Reyes. Finally, I think one of the key elements in 
addressing morale and staffing and all these, assuming that we 
can staff up to a level that's adequate where the ports of 
entry can be managed, is having the employee buy in or be a 
stakeholder. Have either of you got any ideas of how that would 
be accomplished or how that would be possible, to make an 
employee a stakeholder in the bridge operation, in the port of 
entry operation?
    Ms. Kelley. I will give it more thought for more specifics, 
but I will tell you this, Chairman Reyes. There was a time when 
NTEU and unions across our country worked with Federal agencies 
in what was called partnership, a word that is not allowed to 
be discussed in this administration. When we worked in 
partnership, one of the best examples I can give you was, there 
was an effort by Customs at the time, the U.S. Customs Service, 
they were looking to enhance their drug interdiction program, 
and they recognized that the front-line inspectors who did this 
work would have a lot of good ideas, and NTEU and Customs 
worked together on a project that became known as Brass Ring. 
It was a very, very successful program where we saw the 
seizures of drugs increase incredibly, and it was because, 
whether you call it a stakeholder or because they were tapping 
into the front-line employees, but it was management and front-
line employees and NTEU, all the way up and down the chain 
across the country, working together. But that message came 
from the top. That message came from the commissioner at the 
time that this is how we were going to do this.
    It was supported. Was there some risk attached for both 
management and for employees in the union to, you know, to all 
get together on this from a stakeholder perspective? Sure. But 
everyone recognized that it could be done better, and everybody 
wanted to be a part of that. They wanted a chance to make it 
better.
    You know, I've heard it said here today, and I'm glad to 
hear it because it needs to be said more, that the front-line 
employees of Customs and Border Protection do an outstanding 
job every day. They are dedicated, committed, and they are 
determined. Even with morale as low as it is, these employees 
do an incredible job every day at every port of entry in our 
country. They don't let the morale issue get in the way. It may 
make them leave CBP and go look for another job, but when 
they're here, they're doing the job that needs to be done for 
our country. They deserve the respect and the inclusion--
stakeholder, you know, like I said, whatever the word is. I've 
always said I don't care if it's called partnership. It just is 
good business sense to me, and it's how you keep a work force 
involved and invigorated and how you make the Agency better 
every day.
    Ms. Walker. There have been various projects here in El 
Paso, for example, like the I-94 auto population software, and 
unless you really get into inspections, you won't appreciate 
what that means, but it came from people here in the El Paso 
Field Office.
    What I've seen from CBP here in the El Paso Field Office 
for over 20 years is dedication to task. But how can you keep 
up morale when you can't achieve the objectives you wish to? I 
think that's what should be facilitated. I think also this idea 
of making sure that you have empowerment of people that are 
serving, that indeed you need to go ahead, and sometimes just 
the ask is the most important thing and the follow-through on 
the ask. I think I don't see that necessarily always carried 
out.
    I'm tired of just seeing awards for drug busts. I want to 
see awards very publicly for great inspection jobs, for 
innovative ideas, and for actually perhaps knowing 8 CFR 214 
really well, among other provisions.
    Mr. Reyes. Thank you, Ms. Walker.
    Mr. Cuellar. Thank you, Mr. Reyes. Members, any other 
questions?
    All right. At this time I want to thank the witnesses for 
their valuable testimony and the Members for their questions. 
The Members of the committee may have additional questions for 
the witnesses that we ask you to respond to them as soon as 
possible in writing to those questions.
    We want to thank Mr. Chairman, Chairman Reyes. We 
appreciate the leadership that you and Mr. Rodriguez also have 
provided, especially you as the chairman of the intelligence, 
we appreciate everything you've done. Thank you for hosting us 
here. We want to thank you very much.
    Hearing no further business, the committee stands 
adjourned. Oh, I'm sorry. I'll unadjourn this. I'm sorry.
    There are some statements from some of the local folks 
here. Some of the--I know we got one from Commissioner Miguel 
Teran and a couple other folks. I would ask that those, just 
like we did a while ago, that we ask unanimous consent that 
this be part of the record also for the committee. No 
objections? So approved.
    [The statements of Mr. Carrillo, Mr. Cook, Mr. Dayoub, Mr. 
Conde, Mr. Shapleigh, Mr. Stamper, and Mr. Teran follows:]

   Statement of Victor Carrillo, County Supervisor, First District, 
                      Imperial County, California
                           December 15, 2007

    I want to thank the committee for taking the time to address the 
important issue of delays at the international ports of entry and the 
resultant economic and social costs to the communities along the U.S.-
Mexico border.
    I live in Calexico, California a community of roughly 30,000 people 
that is separated by a fence from the Mexican mega-city of Mexicali, 
which boasts a population of about 1,000,000. The economy of Calexico 
is almost totally dependent upon Mexicali, both for our retail segment 
that exists primarily because of our proximity to the border and our 
agricultural and logistics industries that rely on workers and trade 
from Mexico. Even our education sector is being affected as Mexican 
parents have begun taking their children out of several private schools 
in Calexico that cater to families in Mexicali who wish to have their 
children learn in an English-speaking environment.
    Calexico belongs to the Imperial Valley Association of Governments 
(IVAG) as does the County of Imperial. IVAG, in cooperation with our 
State transportation agency jointly undertook a study that was released 
in late November that quantified the economic costs of the long delays 
that are experienced by persons trying to cross the border through 
either of Calexico's ports of entry. Normal waits range in the 1-hour 
time frame, but often can be as long as 2 to 3 hours. These delays are 
having devastating effects on our economy and on the economy of 
Mexicali as well.
    I won't go into too much detail about our study here, other than to 
present a few of the most staggering findings. The total output loss 
for both personal trips and freight movements combined for the United 
States and Mexico is estimated at $1.4 billion in 2007. And nearly 
11,600 jobs are sacrificed because of the reduction in output. Even 
worse the findings show that if the delays continue to grow, the impact 
on the Imperial/Mexicali Valleys will double by 2016.
    In San Diego, a similar study was completed in 2006 that looked 
into the costs of delays at the ports that join San Diego and Tijuana, 
Mexico. Their study showed similar staggering economic consequences of 
the long border crossing delays. When one combines the findings from 
the San Diego study with the IVAG study the combined costs for 
California/Mexico crossings exceeds $8.6 BILLION and a loss of 
employment of 74,000 jobs in the in the California/Baja California 
region.
    Clearly something has to be done soon to alleviate these 
conditions. We have to find ways to move people and goods in an 
efficient manner that does not compromise our national security goals. 
The most obvious short-term solution is to create more lanes at the 
borders and to hire a full complement of inspectors to man these lanes 
to keep the delays to an absolute minimum. Those are solutions that can 
work in the short term. A real permanent solution is going to involve 
the implementation of more technology that will enable the inspectors 
to move persons and goods through the process much more quickly with a 
higher degree of security than we currently maintain. It is folly to 
spend most of our money today on programs to build more fences and 
technology to keep people out of the country without a corresponding 
increase in expenditures to expedite legitimate border crossings with a 
higher level of security. The expenditures made to expedite commerce at 
the ports of entry will enable the recovery of the lost economic 
opportunities which will in turn provide some return to the Federal 
treasury in the form of taxes and duties on the increased economic 
activity.
    We have to be able to deliver new and expanded ports of entry much 
faster that it currently takes. The downtown Calexico port is currently 
undergoing the planning for a significant increase in number of vehicle 
and pedestrian lanes that will be available. The problem is by the time 
the expanded port is opened in 2012 or 2013, it will already be 
obsolete. We need to be planning many more new lanes and be more 
creative about how we finance these ports.
    In California, traffic congestion on our freeways is impacting the 
movement of people and goods to an extent that a solution that would 
have been universally rejected a decade ago is now becoming a 
commonplace solution to speeding up the delivery of badly needed 
transportation capacity improvements. This solution involves various 
models of public/private partnerships and tolling. At the Federal 
level, the Department of Transportation and the Secretary have embraced 
the concept of using tolls as a means to speed up the delivery of 
critical goods movement projects.
    DHS needs to come to the same rational understanding that the only 
way to finance the necessary capacity expansions at our border 
crossings is by a pay-as-you-go system. The studies that I referred to 
earlier on the cost of economic delay asked border crossers if they 
would be willing to pay to access a shorter wait time at the border. 
Seventy percent of the crossers indicated a willingness to pay $3 to 
cut the wait time to 20 minutes or less. A smaller number indicated a 
willingness to pay $5 or more to cut wait times in half. The reality is 
that toll lanes can help us deliver more lanes, more technology, more 
staffing, and more security. This will also increase the level of 
taxable economic activity thus providing more tax revenue to government 
at all levels.
    In Mexico many of the new expressways are toll roads. This is 
accepted as long as there is an optional way for travelers to reach the 
same destination on a slower free road. This is surely a concept that 
we should consider as we develop strategies to improve the efficiency 
and capacity of our border crossings. Obviously the same concepts work 
on the cargo side of the border crossing situation since delays at the 
border are more easily quantified in economic terms and a subsequent 
willingness to pay for improved productivity is a long-established 
business practice.
    Finally, I want to comment on the issue of granting CBP officers 
law enforcement status. We are constantly facing shortages of trained 
CBP personnel because other DHS officers have full LEO status and the 
corresponding benefits. Even when CBP is able to recruit and train 
officers, they often leave at the first opportunity to upgrade their 
status to LEO. The chronic personnel shortage at our border crossings 
is just one more situation that exacerbates the poor situation that 
exists at our ports of entry.
    The urls for the studies I mentioned earlier are found here:
  <bullet> VAG Study--http://www.co.imperial.ca.us/IVAG/
        EconomicImpactDelaysImperialCountyMexicaliBorder.htm;
  <bullet> SANDAG Study--http://www.sandag.org/
        index.asp?projectid=253&fuseaction=projects.detail.
                                 ______
                                 
        Statement of John F. Cook, Mayor, City of El Paso, Texas

    Chairman Thompson and Members of the committee: On behalf of the 
citizens of the El Paso Borderplex, I want to thank you for taking the 
time to travel to the region to conduct your hearing. As Mayor of the 
city of El Paso, of course I am concerned with matters of border 
security, but I am also acutely aware of the fact that any discussion 
regarding border security must also include an examination of the 
effects the actions to secure the borders have upon the Nation's 
economy. The number of components and parts that traverse the southern 
border on a daily basis and the dependence upon those goods by American 
manufacturers must not be ignored. The increased costs of excessive 
wait times to the manufacturers and ultimately the average U.S. 
consumer of products that cross the southern border more than justify 
the investments that must be made in technology and work force to 
maximize efficiencies at the ports of entry. Secure borders and ports 
of entry that operate efficiently and in a commercially reasonable 
manner are not mutually exclusive.

                               BACKGROUND

    The El Paso/Ciudad Juarez Borderplex has been recognized as the 
fifth largest manufacturing community in North America and El Paso 
Texas is the second-largest importer/exporter along the U.S. southern 
border. According to the Bureau of Transportation, in 2006 exports 
through El Paso ports exceeded $21.02 billion per year and imports 
exceeded $25.7 billion. Approximately $97 million in imports and 3,000 
commercial vehicles pass through El Paso ports of entry on a daily 
basis. Imports and exports through El Paso's ports of entry impact 6 
percent of the national economy.
    At present time there are approximately 340 maquiladora plants in 
Juarez, Mexico that require commercial transport daily through El 
Paso's four ports of entry. At least 70 of the companies are Fortune 
500 companies and employ approximately 245,000 people. At least 3,400 
of the people working in the maquiladoras are U.S. citizens who reside 
in El Paso and must cross the international border daily. The El Paso 
Regional Economic Development Corporation estimates that there are 
14,000 people in El Paso whose jobs directly support maquiladora 
operations and another 30,000 whose jobs are indirectly dependent upon 
them. The national impact of the maquiladora operations is estimated to 
be in the billions of dollars.
    The products manufactured in our border region are goods that are 
integral elements of the U.S. economy and include:
  <bullet> Automotive parts;
  <bullet> Computer equipment;
  <bullet> Electronic components;
  <bullet> Appliances.
    The border manufacturing community is heavily dependent on exports 
of raw materials from the United States. It has been estimated that 
over 90 percent of the manufacturing suppliers to El Paso's sister 
city, Juarez, operate outside of the border area and are predominantly 
located in the traditional manufacturing regions of the United States. 
Exports of raw materials to the manufacturing sector of El Paso/Ciudad 
Juarez were estimated at $16 billion in 2006. Delays in delivery of 
finished manufactured products to the United States caused by 
bottlenecks at El Paso's commercial ports of entry can result in 
inefficiencies to the supply chain. These inefficiencies negatively 
impact inventories and production scheduling in the manufacturing 
community. Those manufacturing disruptions result in negative ripple 
effects on the U.S. suppliers of raw materials. In addition, U.S. 
imports of manufactured components, that traverse El Paso's ports of 
entry, are critical to the final assembly production chain of original 
equipment manufacturers (OEMs) in the automotive, defense and 
electronics industry located in the U.S. border delays of legitimate 
commercial cargo to U.S. markets result in harmful effects to the 
manufacturing sector in the United States and the national economy.

                              ONE EXAMPLE

    To illustrate the fact the border wait time problem is one of 
national concern and not solely a local problem, I would like to 
provide you with one example of a company and an industry negatively 
impacted by excessive wait times. In the interest of brevity I will 
only provide this one example, but please rest assured there are 
hundreds of similar fact situations.
    The Delphi Corporation is a leading global supplier of mobile 
electronics and transportation systems including powertrain, safety, 
steering, thermal controls & security systems, electrical and 
electronic architecture and in-car entertainment technologies. The 
company is headquartered in Troy, Michigan, has approximately 171,000 
employees and operates 159 wholly owned manufacturing sites and sales 
of $26.4 billion in 2006. One manufacturing site is located in Ciudad 
Juarez. Delphi is a significant presence at the El Paso ports of entry:
  <bullet> On an annual basis at least $100 million worth of Delphi 
        component parts flow into Mexico and come back into the United 
        States as final assembled products for use in the automotive 
        industry.
  <bullet> Hundreds of trucks carrying Delphi components and parts 
        traverse the El Paso ports of entry both northbound and 
        southbound directions.
  <bullet> Billions of Delphi products are shipped to hundreds of 
        customers such as, General Motors, Ford, Toyota, Chrysler, 
        Mercury, John Deere, Kia, and Honda located throughout the 
        United States and Canada.
  <bullet> 400 Delphi employees who reside in El Paso cross into Mexico 
        on a daily basis for work.
  <bullet> Delphi employees in El Paso create a $300 million direct 
        impact on the El Paso economy through wages, property taxes, 
        etc.
  <bullet> Every year thousands of Delphi employees from other 
        facilities travel to El Paso and cross over into Mexico. It is 
        estimated that 8,000 hotel nights are purchased for Delphi 
        employees visiting the El Paso Borderplex each year and 13,000 
        airline tickets are acquired to get them here.
    The majority of Delphi customers utilize ``just in time processes'' 
and are dependent upon the quick and reliable delivery of products. 
While excessive border wait times add costs, they do not add value to 
finished products. If products are not delivered to Delphi customers in 
time, there is a risk that production at facilities located in other 
areas of the United States will be interrupted. Continuous excessive 
wait times at U.S. ports of entry jeopardize an entire system and have 
impacts that reach far beyond the communities located at the 
international borders.

                              LACK OF DATA

    While it is common knowledge that lengthening the time required to 
traverse the international border is increasing labor costs, 
transportation costs, accessibility costs, inventory costs and 
distributions delays, there is no concrete data regarding the total 
costs to our Nation's economy. I support the efforts lead by Senator 
Kay Bailey Hutchison and Congressman Ciro Rodriguez to pass legislation 
to study the effects of the wait times. The compilation and study of 
comprehensive data and statistics will not only enable stakeholders to 
find solutions address the issues, it will surely justify the 
expenditures that must be made in order to safeguard the strategic 
economic resources the ports of entry have become. I urge you to 
support the ``Border Wait Times Study Act'', and to provide the 
resources necessary to fully study the effects of extended wait times 
on our national economy.
    Our community is also concerned about the environmental impact of 
thousands of passenger vehicles and trucks idling for extended periods 
of time at the ports of entry.
    To my knowledge there has never been a study done to evaluate the 
negative effects upon the air quality of the region. Damage to the 
environment and the health concerns of the residents of the Borderplex 
should be taken into account when considering measures to mitigate 
congestion at the ports of entry.

                 DEPLOYMENT OF TECHNOLOGY AND RESOURCES

    The men and women who are responsible for securing our Nation's 
borders on a daily basis and provide the front line of defense against 
the entry of terrorists and illegal drugs do an amazing job with very 
limited resources. Unfortunately, our country has neglected to provide 
the resources necessary to increase their effectiveness and 
efficiencies in operations. We have failed to make the investments 
necessary to integrate 21st century technologies into the system and to 
provide adequate staffing to carry out the increased security measures. 
In the aftermath of September 11, 2001, through the leadership of 
Congress, new technologies and manpower were deployed in our Nation's 
airports that resulted in a systemic overhaul. The changes were made in 
record time but always with sensitivity toward the marketplace and the 
traveling public. There has been recognition of the delicate balance 
required to provide for the security of the traveling public while not 
overburdening the system and causing the collapse of the airline 
industry and all the tourism economy. Our country's land ports deserve 
the same attention and investments.
    The ``Border Infrastructure and Technology Modernization Act of 
2007'' is a good first step. I support the passage of this important 
piece of legislation and urge you to do the same. I do however suggest 
that selection criteria contained in Section 7 be modified to allow for 
a demonstration site at one of the busier ports of entry. The selection 
criteria seem to favor newer, less traveled locations. In order to have 
a meaningful pilot program, new technologies should be tested in the 
locations that move the most goods and people.

                           LOCAL INVOLVEMENT

    The El Paso community wants to be part of the solution. Our 
community has a proven track record of success in addressing border 
crossing issues in a collaborative manner. In the 1990's, our local 
business community lead by the El Paso Chamber of Commerce partnered 
with the city of El Paso Federal agencies to design, construct and fund 
the dedicated commuter lane. We would welcome the opportunity to 
partner with GSA, CBP and the business community to pilot programs and 
to work for long-term solutions to the bridge congestion problems.
    Thank you again for your time and attention. I am very encouraged 
by the fact the committee has chosen to come into our community to hear 
first-hand about this very important issue. Through these types of 
discussions, Members of Congress who do not represent communities 
located on the international border may be made aware of the widespread 
economic impact of trans-border trade. The problem of border congestion 
is not a local problem and one that affects only the economies of the 
border communities. Ultimately, the national economy is affected. 
American jobs may be in jeopardy if the maquiladora system is allowed 
to flounder because we are unable to find safe and efficient ways to 
move component parts to U.S. markets and the cost of consumer goods 
will reflect the increased expenses associated with excessive wait 
times.
                                 ______
                                 
 Statement of Richard E. Dayoub, President and CEO, and Conrad Conde, 
  Chairman of the Board, 2007, The Greater El Paso Chamber of Commerce
                           December 15, 2007

    The greater El Paso Region has long been a thriving multi-national 
borderplex and is positioned in southwestern Texas and south-central 
New Mexico on the U.S.-Mexican border. Our region encompasses an 
estimated population of over 2.5 million. In addition, El Paso is the 
largest metro area on the U.S.-Mexican border and the region 
constitutes the largest bi-national metropolitan area in the Western 
Hemisphere.
    In 2003, trade through the land ports along the U.S.-Mexico border 
represented about 83 percent of the trade between the countries. 
Together, the top 10 ports of entry account for 98 percent of trade 
passing through the border. With $152 billion in land trade with 
Mexico, Texas surpassed other States by far: California ($30 billion), 
Arizona ($12 billion) and New Mexico ($1.1 billion). In 2006, El Paso 
had approximately $25.79 billion of imports and $21.03 billion in 
exports, which put the city only behind Laredo in volume. In addition 
to trade improvements, the number of individuals crossing the ports of 
entry daily has also increased. In overall inspections of people, El 
Paso surpasses all ports of entry in Texas. Many are employed in the 
construction, healthcare, restaurant, transportation, hotel, elder 
care, and childcare job sectors, among others.
    El Paso's neighbor to the south, Ciudad Juarez contributes $1.7-1.8 
billion worth of retail sales in El Paso per year. In addition to the 
economic impact that visitors have on our local economy, there is also 
a very strong economic impact from the maquildoras (twin-plants) in our 
region and our Nation as a whole. Maquiladoras are assembly or 
manufacturing operations that are located in Mexico and can be subject 
up to 100 percent non-Mexican ownership. Maquiladoras utilize 
competitively priced Mexican labor to produce equipment and machinery 
generally geared for export from Mexico. Almost 100 of the 400 
maquiladoras located in Mexico are located in Ciudad Juarez. Just a few 
of the companies that have maquiladoras in Ciudad Juarez include: 
Delphi Automotive, Johnson & Johnson, A.O. Smith, Elmers Glue, 
Electrolux/Eureka, Tyco Healthcare, Microcast Technologies, Delphi-
Packard Electronics, Tyco Electronics, Honeywell International, Auto 
Kabel GMBH, Levi Strauss, Toro Company, Hoover, Levinton, Sumitomo, 
Almeida Sewing Machine Co., and Cardinal Health.
    These companies import equipment and machinery all over the United 
States. As a result of the large number of maquiladoras in the region; 
El Paso, Ciudad Juarez and Southern New Mexico equates to the fourth-
largest manufacturing center, in terms of workers, in North America. In 
addition, Ciudad Juarez makes up the largest share of maquiladora 
employment along the Texas-Mexico border with 53 percent (see Exhibit 
B). It should be apparent that the El Paso economy is very much 
interconnected with the economy of Ciudad Juarez, and both cities 
depend greatly on commercial, vehicular and, pedestrian border crossers
    Of the 1.6 million people currently in Ciudad Juarez, 35 percent of 
the population has visas allowing them to cross into El Paso. There 
were 15,690,244 private vehicle and 7,508,247 pedestrians that crossed 
the bridge to El Paso from Ciudad Juarez in 2006 (see Exhibit B). On 
average, there are 43,000 private vehicles and 21,000 people crossing 
the bridges in El Paso daily. El Paso's population is expected to grow 
by more than 60 percent by 2030. As the city of El Paso, Ciudad Juarez, 
and the surrounding region continue to grow at a rapid pace, it is 
unrealistic to expect the current bridge infrastructure and inspection 
procedures to support the region's growth without substantial 
modifications.
    With such a rapid increase of commuter and commercial traffic at 
the current ports of entry, a productive solution in which to alleviate 
traffic congestion at the bridges is of critical necessity. Currently, 
it is not uncommon to experience wait times on the ports of entry from 
2 to 3 hours. As a direct result of the long wait times, the Paso Del 
Norte Bridge (downtown) northbound auto trips have decreased from 2006 
to 2007 by 34 percent for the period June thru September and northbound 
pedestrian trips have increased by 21 percent for the same period. 
During the same time period there was an 18 percent decrease in 
northbound auto traffic and a 23 percent increase in pedestrian traffic 
for all El Paso international bridges.
    Previous border studies indicate that auto cross-border shoppers in 
the El Paso area spend 9 to 10 times more than pedestrian cross-border 
shoppers per average trip ($20 per trip vs. $180 per trip) (Source: UT 
Pan Am Study 2005).
    A recent (unscientific) study conducted by the Diario del El Paso 
revealed that long border delays have impacted the number of cross 
border trips made by frequent travelers on a weekly basis. It is 
estimated that trips of frequent travelers would decrease by 14 percent 
if wait times were significantly reduced.
    From 2005-2006 sales tax revenues for the downtown zip code (79901) 
decreased by approximately $35 million according to the State 
Comptroller's office previous reporting methodology.
    The Texas Transportation Institute recently performed an analysis 
on congestion delays in our region. The Texas Transportation Institute 
2007 Urban Mobility Study analyzed congestion in the United States and 
assigned two cost components associated with congestion: delay cost and 
fuel cost. Approximately 700,000 commercial vehicles cross from Juarez 
into El Paso annually. Utilizing $75 an hour estimating congestion cost 
and assuming that 50 percent of the commercial vehicles experience just 
a 1-hour delay during the year the cost of congestion can be estimated 
at $25 million while 4 hours of delays on an annual basis, would 
increase the cost to $100 million annually. Per the U.S. Department of 
Transportation, trade activity (by truck) between United States and 
Mexico at the Ports of Entry in El Paso averages $2.2 billion per month 
(2007).
    This trend of increasing lines on the ports of entry and decreasing 
border crossers is detrimental to the economy of this region and also 
economically impacts the Nation as a whole, by increasing delivery 
times and the costs of goods. Solutions to this increasing problem must 
be formulated.
    In recent years the El Paso community has worked with 
representatives and agencies in Mexico and the United States to create 
secure and expedient trade and traffic programs, including the first 
Dedicated Commuter Lane (``DCL'') and Fast and Secure Trade (``FAST'') 
in Texas. These successful programs assisted in reducing some of the 
congestion; however, as the El Paso/Juarez community continues to grow 
the need for improvements to the current processes and procedures can 
no longer be ignored.
    With our current situation, implementation of 24-hour service at 
the FAST Lanes is appropriate and essential. We understand that the 
lanes are currently open during the day and that there is a concern 
that there is not enough demand for the lanes to be open 24 hours a 
day. However, if you make the FAST lanes more accessible to commercial 
vehicles, more maquiladoras are likely to use the lanes, particularly 
with the current wait times on other lanes often exceeding 2 hours. Any 
business would jump at the opportunity to cross the port of entry at 
two o'clock in the morning and wait only 15 minutes versus waiting on 
line for 3 hours during traditional peak crossing times. If more and 
more commercial vehicles crossed during non-peak times, the wait times 
during the day would decrease exponentially. Less time spent waiting on 
line to enter the United States, would mean American retailers and 
consumers would receive their products faster and cheaper.
    In 1999, the Greater El Paso Chamber of Commerce developed the 
first Dedicated Commuter Lane in the United States, as a public/private 
partnership. The Dedicated Commuter Lane is a high-efficient, low-risk 
commuter lane that enables motorists to cross the border quickly due to 
pre-screenings and thorough background searches. Only qualified 
applicants are permitted to utilize the DCL. As of the date of this 
document, there are 21,000 registered users for the DCL.
    Although the Dedicated Commuter Lanes are being utilized, the 
Chamber would like to address its concerns regarding the efficiency of 
the DCL application process. The Chamber is particularly concerned with 
zero tolerance policy that is being implemented at the Dedicated 
Commuter Lanes. Over the past couple of months, more and more 
individuals are being denied the use of the DCL. These denials are a 
result of background checks that identify minor driving infractions on 
the records of these individuals. The Chamber understands and 
appreciates the need for national and bridge security. We are in no 
manner requesting that Customs and Border Protection relax its security 
enforcement. However, the zero tolerance policy could be refined and 
made more efficient. The fact that an individual received a speeding 
ticket 20 years ago does not make this individual a national security 
threat. To deny this individual the use of the DCL on the sole basis of 
a moving violation is improper. The Chamber wants those individuals 
kept out of the United States, who have a history of violent activities 
or represent a threat to national security kept. However, individuals 
who have simply committed minor driving infractions are generally not 
terrorists nor do they represent a threat to our community and Nation. 
By making this process more efficient, and a bit less stringent, 
ridership on the Dedicated Commuter Lanes will naturally increase.
    Another related issue is the use of armed and uniformed officers 
being used to process the Dedicated Commuter Lanes Passes. These 
officers were trained and equipped to perform interrogations and 
inspections on the ports of entry. These officers were not trained as 
clerical assistants or data collectors. Consequently, the efficiency of 
the application process and the efficiency of entering background 
information for the ports of entry are compromised. Customs and Border 
Protection should employ individuals that are trained in data input in 
an effort to speed up the application and verification process on the 
Dedicated Commuter Lanes and return the uniformed officers to the ports 
of entry. This single action will increase the number of officers 
available to perform inspections and/or to extend hours of operations.
    In recent weeks, wait times have become such a problem that 
Congressman Silvestre Reyes has made this issue one of his primary 
concerns at the national level. The local community must also do its 
part and lend support. In order for the reduction of bridge wait times 
to be a success, the entire region must do its part to alleviate the 
long lines. Some of these steps are already being implemented. The city 
of El Paso has recently installed electrical signs near the ports of 
entry that announce the ``live'' wait times on the bridges and often 
redirects traffic to less congested bridges. Another step in the 
positive direction was taken recently when the hours of operation for 
the Dedicated Commuter Lanes were extended. The decision to expand the 
hours of operation to the DCL lanes stems from a trip to Washington, DC 
the Greater El Paso Chamber of Commerce and the Mayor's Office made 
last month. With the assistance of Congressman Silvestre Reyes, the 
Chamber was able to secure a meeting with Commissioner Basham of 
Customs and Border Protection. The Greater Chamber and the city voiced 
their concerns regarding the problems at the Ports of Entry and offered 
numerous local and immediate suggestions for improvements. Expanded 
service hours will be in place for at least 90 days on a trial period. 
Hopefully, the expanded hours will prove to increase ridership on the 
DCL and justify leaving the DCL open 24 hours.
    Another easily implemented step that should strongly be considered 
is for the local radio and news stations to contribute to the process 
by assisting Customs and Border Protection in the rerouting of 
vehicular traffic. When there is a 3-hour wait at the Paso Del Norte 
Bridge, the local media could ask drivers crossing the ports of entry 
to utilize another bridge that may have only a 15- to 30-minute wait. 
Although it may seem an inconvenience for drivers to drive 45 minutes 
out of their way to access another bridge and wait in a 30-minute line 
at that bridge, the 1 hour and 15 minute-trip will still take less time 
than waiting in a 3-hour line at the Paso del Norte port of entry.
    Technology is a huge part of the solution on our bridges. Customs 
and Border Protection must be supplied with technological 
infrastructure that will enable the officers on the bridges to inspect 
and process border crossers in a more efficient manner. Currently many 
individuals are being process manually by computers, this simply is not 
acceptable. Scanners and secure identification cards must be utilized. 
Any form of technological improvement on our bridges would be welcomed 
and supported by the Chamber.
    The Chamber realizes that the regional office for Customs and 
Border Protection is currently experiencing financial and employee 
constraints. The Chamber's leadership is prepared to advocate on behalf 
of Customs and Border Protection at the Federal level for more funding 
and more Customs officers. We understand the current limitations; 
however, something must be done to improve the situation at our Ports 
of Entry. Idling vehicles due to the extended delays on the 
international bridges produce excessive emissions that are harmful to 
those that are exposed. We respectfully request that more lanes be 
opened, that more officers be stationed at the ports of entry, that 
commercial lane hours of operations be expanded to 24 hours, and that 
the security process be expedited through the acquisition of 
technological infrastructure improvements. The Greater El Paso Chamber 
of Commerce also supports House Resolution 4309 in its efforts to 
conduct Federal bridge wait time and economic impact studies.
    The Chamber realizes that a permanent solution to the problem will 
likely take some time to implement. In the meantime, the Chamber is 
willing to do its part to expedite and contribute to this process, 
including providing testimony for any all future committee hearings. 
Customs and Border Protection should do the same. We all want our bi-
national metroplex to develop and prosper. However, we must provide 
people with a safe and viable alternative to sitting on the bridges for 
hours at a time waiting to cross.
    The Chamber would like to thank the House Committee on Homeland 
Security for recognizing that the wait times at the ports of entry have 
become a problem and we thank the committee for their continuous 
involvement and participation in developing creative and innovative 
solutions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                           EXHIBIT B.--BORDER CROSSERS
----------------------------------------------------------------------------------------------------------------
                                       2002            2003            2004            2005            2006
----------------------------------------------------------------------------------------------------------------
Private Vehicles:
    Total.......................      13,094,686      13,696,844      14,836,243      15,957,591      15,690,244
Cargo-Trucks:
    Total.......................         705,200         659,614         717,407         740,654         748,672
Pedestrians:
    Total.......................       9,300,683       8,898,741       8,441,293       7,638,801       7,508,247
----------------------------------------------------------------------------------------------------------------
Bridges Include: Paso Del Norte, Bridge of the Americas, Ysleta Bridge, Stanton St DCL, Ysleta DCL.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
           Statement of Eliot Shapleigh, Texas State Senator
    The massive and increasing congestion at U.S.-Mexico ports-of-entry 
not only threatens the local economies of the border region but also 
affects trade throughout the United States. A crossing that used to 
take 30 minutes now takes up to 3 hours. Increased wait times translate 
into fewer pedestrian and commercial crossings. This in turn leads to 
congestion, cost to products, services, and transportation, less tax 
revenue for border States, dangerous pollution, and a cost to our 
Nation's competitiveness as we compete in a world of ``just-in-time'' 
manufacturing. Increased wait times are not due to increased volume; to 
the contrary, the volume of goods moving across the border has 
decreased. Rather, U.S. border agents have stepped up scrutiny of 
Americans returning home from Mexico, slowing commerce and creating 
delays at our ports-of-entry that have not been experienced since the 
months following the 9/11 attacks without regard to mobility, commerce, 
and prosperity.
    Our governments, State, local, and Federal need to value mobility 
as much as safety, commerce as much as security, and prosperity as much 
as enforcement because terrorists win if all we have is fear, 
congestion, and lines.
    Of the $332 billion in trade last year between the United States 
and Mexico, more than 80 percent entered Texas' ports-of-entry by 
truck. Mexico is our country's third-largest trading partner, and 
Texas' largest trading partner. Texas' exports to Mexico far exceed all 
trade with the European Union countries combined. El Paso, with its 
four international bridges, is the second-largest importer/exporter 
along the U.S.-Mexico border, after Laredo, Texas, accounting for 
nearly $47 billion in trade last year. These imports and exports 
account for approximately 6 percent of the entire U.S. economy.
    Employment and education are affected as well by the increased 
congestion at out border ports-of-entry. Our sister city, Ciudad 
Juarez, has 340 maquiladora plants, employing approximately a quarter 
of a million people, that require commercial transportation of 
manufactured good to the United States on a daily basis. More than 70 
of these plants are Fortune 500 companies. About 3,400 maquiladora 
managers live in El Paso and commute to Juarez daily, and about 14,000 
El Pasoans are employed in direct support of maquila operations. Each 
day, about 3,000 students cross the border from Mexico to attend the 
University of Texas at El Paso.
    To date, the post-9/11 debate has focused too much on fences and 
the exclusion of undocumented people, and too little on creating 
policies that foster prosperity, mobility and secure trade to enhance 
economic growth not only in America but in the Americas. How do we 
expedite the movement of people and product safely, securely, and 
smarter in a post-9/11 world? How do we create an immigration policy 
designed to produce jobs with security?
    The short-term solutions to these challenges include issuing 
enhanced driver licenses, Freight Highway Administration Programs 
(FHWA) pilot programs at border ports-of-entry, and improved port 
management standards, in particular for pedestrian crossings. Mid-term 
solutions include accelerated bridge construction, and ``one-stop'' 
border inspection facilities. Last, long-term solutions include the 
adoption of the Border 2020 concept of ``Secure, Fast, Smart Movement 
of People and Product promoting 21st Century trade,'' and a fair 
Migration Act of 2009.

                          SHORT-TERM SOLUTIONS

Enhanced Driver Licenses
    On March 20, 2007, the State of Washington established the high-
security driver's license pilot program. U.S. Homeland Security 
Secretary Michael Chertoff formally approved the pilot program on March 
23, 2007. Recently, an agreement was announced with the State of 
Arizona, according to comments made by Secretary Chertoff. All of the 
U.S.-Canadian border States are nearing agreement as well.
    His endorsement of the enhanced driver license program comes as 
Border States prepare for new Federal security requirements mandating a 
passport for U.S. citizens who enter the country by land or sea. This 
requirement can take effect as early as January 1, 2008.
    Given the negative impact that this requirement would have on 
commerce and tourism in Texas and particularly in the Border region, 
the Texas legislature passed S.B. 11 during the last legislative 
session which would authorize the Department of Public Safety to 
initiate a pilot program similar to the one enacted in Washington under 
which DPS would issue enhanced driver's licenses for individuals who 
apply for one. The measure would allow DPS to adopt rules to implement 
the program and allows for the department to enter into a memorandum of 
understanding with any Federal agency for the purposes of facilitating 
the movement of people between Texas and Mexico.
    Under the pilot program, the enhanced licenses will not be 
mandatory for drivers. Those who apply will go through an in-person 
interview, and proof of citizenship will be mandatory. The enhanced 
driver's licenses will look much like a conventional driver's license, 
but will also include proof of citizenship and other information that 
can easily be scanned at border ports-of-entry. Other advantages are 
that they cost less--at about $40, the licenses will be less expensive 
than a $97 passport--and will be available faster than passports, which 
usually take 6 to 8 weeks to process.

Freight Highway Administration Programs (FHWA) Pilot Programs at Border 
        Ports-of-Entry
    We need Congress and the Federal Government's strong and immediate 
support for this key project. The El Paso County Secure Border Trade 
Demonstration Project, upon final approval, will be funded with 
Coordinated Border Infrastructure (CBI) funds administered by the 
Federal Highway Administration (FHWA) through the Texas Department of 
Transportation (TxDOT). El Paso County will implement the project with 
oversight from the U.S. Customs and Border Protection Agency (CBP) and 
Technology Monitoring Assistance from the Texas Transportation 
Institute (TTI) Center for International Intelligent Transportation 
Research in El Paso.
    In September 2007, El Paso County was notified that FHWA will fund 
the Intelligent Transportation Systems (ITS) portion of the project 
assuming that an agreement to include a Technology Monitoring System 
for the project could be mutually agreed upon by CBP and El Paso 
County. El Paso County is currently working with CBP to finalize a 
memorandum of understanding between the two agencies, and anticipates a 
project implementation date in the third quarter of 2008.
    The overall emphasis of the project is to heighten security and 
promote economic development and border trade efficiency by enhancing 
collaboration between maquiladoras, transporters and border security 
personnel. Specifically, the project will introduce new electronic 
tracking and reporting and monitoring technology that will expand the 
capabilities of the private sector to monitor the loading of trucks and 
track the movement of goods and operation of vehicles, from origin to 
destination, as well as to electronically verify the identity of 
drivers and other participants in the cross-border supply chain in real 
time.
    Among the project objectives, is to provide the opportunity to 
extend the monitoring of vehicles and cargo away from the border by 
providing more information across the entire supply chain providing 
software-enhanced analysis of data. Specifically, the Secure Border 
Trade Demonstration Project consists of the following components:
    A. Equip three designated ``secure'' maquiladora sites with 
        monitoring devices (real-time video cameras and communications, 
        etc.) and establish procedures and protocols for the 
        manufacture and loading of goods at each site.
    B. Equip thirty (30) designated heavy-duty tractors and trailers 
        with electronic ``Bulldog'' or similar locking systems that 
        will be continually monitored for tampering as well as 
        equipping the same trucks with GPS tracking and real-time voice 
        communication and operations equipment. These systems will 
        allow each vehicle to be tracked along a designated route from 
        the moment the door is closed and it leaves the secure sites in 
        Mexico until such time as it arrives at the border and then 
        again until it reaches its destination in the United States or 
        vice versa.
    C. Equip one (1) central monitoring facility (selected by 
        participants) with the software and technology sufficient to 
        monitor all vehicles and facets of the supply chain from goods 
        production and loading, to transport, to border crossing and 
        onto its destination. The focus of the information gathered and 
        analyzed at this site is to provide a more transparent and 
        comprehensive vision of selected border activities and 
        crossings.
    El Paso County and the TTI Center for International Intelligent 
Transportation Research, along with the project contractors (once 
selected), will develop and implement monitoring protocols and 
procedures and will communicate with public and private sector 
participants to enhance the effectiveness of the effort. An iterative 
process will be established with CBP to allow for adjustments in the 
program as required and to better focus on issues as they arise.
    It is important to note that this project has been designed to work 
with and potentially enhance current CBP programs including C-TPAT, 
FAST and ACE in the future. However, the Secure Border Trade 
Demonstration Project's initial focus is to provide additional updated 
real-time information by monitoring additional aspects of the supply 
chain away from the border not currently under surveillance by CBP or 
industry.
    While the Secure Border Trade Project currently focuses on 
expanding supply chain visibility and developing secure manufacturing 
facilities, substantial future opportunities exist to expand the 
project into additional areas which further benefit both maquilas and 
fleet operators. Specifically, through deployment of clean fuel vehicle 
technologies (primarily natural gas or hybrid engines), cost savings of 
up to $1.25-plus per diesel gallon can be realized. In addition to the 
immediate economic savings for fleet vehicle operators, utilization of 
clean fuel technologies benefit the bi-national community by 
substantially reducing diesel related vehicle emissions.
Improved Port Management Standards
    In the 21st century Texas economy, the border will be recognized as 
the State's greatest geographically manifested asset. Sealing the 
border and denying Texans access to this resource would have the same 
impact this century's State economy as capping the oil wells would have 
had in the last. The United States shares 2,000 miles of border with 
Mexico, of which 1,254 miles are along the Texas border. Of the 309 
official ports of entry (POE) in the United States, 166 of these are 
land POE's. The southern border's 43 POE's contain 86 pedestrian lanes, 
216 lanes for personally owned vehicles (POVs) and 70 lanes for cargo 
carrying vehicles. In Texas, 23 international crossings serve as 
overland ports-of-entry for trade with Mexico. Two of the fastest-
growing metropolitan areas of the country are the Texas border cities 
of Laredo and McAllen. There are multiple facets to border 
transportation activity which are typically divided into Commercial 
Truck, Personally Owned Vehicle (POV) and Pedestrian Crossings.
    One common assumption is that commercial truck crossings alone 
constitute international trade. In fact, personal vehicle and 
pedestrian crossings are integral to international trade and often have 
a greater impact on the Texas economy than commercial crossings. This 
is especially true in border cities but not exclusively. For example it 
is estimated that almost 10 percent of shoppers at Rivercenter Mall in 
San Antonio made the trip directly from Mexico. For reasons such as 
these, congestion and delays at the border for commercial or personal 
vehicles can severely hurt the Texas economy. Delays also hurt those 
seeking to visit friends and family and the thousands of children who 
cross the border to attend school every day in the United States.
    Homeland security and improved trade processes are not mutually 
exclusive and can be accomplished simultaneously. To accomplish both, 
existing or new pre-screening programs should be considered to allow 
the Federal and State governments' to have advance knowledge of the 
people, freight, and vehicles crossing our borders. To be able to 
identify, in advance, the overwhelming majority of the individuals who 
cross the border as law-abiding and low-risk crossers, innovative 
technology with precise filtering devices can be used so that law 
enforcement personnel can focus on high-risk movement. Improving the 
capacity of border inspection agencies to validate legitimate cross-
border pedestrians should be the basis for implementing new models of 
risk management.
    The high volume of persons and vehicles crossing the border may 
make the implementation of new technology appear daunting. However, it 
is not as difficult a task as it might appear. Aggregate border 
crossing numbers are somewhat misleading since so many of the vehicles, 
drivers, and pedestrians are local, frequent travelers. For example, 
the 4.2 million recorded commercial vehicle southwest border crossings 
in 2000 were made by only 80,000 trucks. If even one-half of these 
trucks, or 40,000 were found eligible for low-risk crossing, it is 
conceivable that Federal and State workloads would decline 
significantly, representing ongoing annual savings after an initial 
investment.
    To address these issues and expedite the use of new technologies at 
border ports-of-entry, the following priorities for implementing a 
U.S.-Mexico ``Smart Border Plan'' should be addressed.

                     STEPS TO SECURE FLOW OF PEOPLE

  <bullet> Develop common biometric identifiers in documentation such 
        as permanent resident cards, NEXUS, and other travel documents 
        to ensure greater security. Use innovative technology to 
        develop and deploy a commuter or secure identity card for 
        permanent residents that includes a biometric identifier to 
        allow for the timely determination of legitimate crossers.
  <bullet> Support pilot programs to experiment with prototypes for 
        low-risk travelers, such as Dedicated Commuter Lanes (DCLs), 
        and frequent traveler cards for U.S. citizens. The concept of 
        ``Frequent Traveler Cards'' is an example of ways that 
        technology at ports-of-entry can be used to expedite the 
        inspection process. Biometrics can be embedded in the card, 
        such as a digitized photograph, handprints, or facial or retina 
        recognition that will verify the individual's identity.
  <bullet> Pre-Cleared Travelers.--Expand the use of the Secure 
        Electronic Network for Traveler's Rapid Inspection (SENTRI) 
        dedicated commuter lanes at high-volume ports-of-entry along 
        the U.S.-Mexico border.
  <bullet> Advanced Passenger Information.--Establish a joint advance 
        passenger information exchange mechanism for flights between 
        Mexico and the United States and other relevant flights.
  <bullet> Visa Policy Consultations.--Continue frequent consultations 
        on visa policies and visa screening procedures. Share 
        information from respective consular databases.
  <bullet> Joint Training.--Conduct joint training in the areas of 
        investigation and document analysis to enhance abilities to 
        detect fraudulent documents and break up alien smuggling rings.
  <bullet> Compatible Databases.--Develop systems for exchanging 
        information and sharing intelligence.
  <bullet> Screening of Third-Country Nationals.--Enhance cooperative 
        efforts to detect, screen, and take appropriate measures to 
        deal with potentially dangerous third-country nationals, taking 
        into consideration the threats they may represent to security.

                     STEPS TO SECURE FLOW OF GOODS

  <bullet> Public/Private Sector Cooperation.--Expand partnerships with 
        private sector trade groups and importers/exporters to increase 
        security and compliance of commercial shipments, while 
        expediting clearance processes.
  <bullet> Electronic Exchange of Information.--Continue to develop and 
        implement joint mechanisms for the rapid exchange of customs 
        data.
  <bullet> Secure In-Transit Shipments.--Continue to develop a joint-
        in-transit shipment tracking mechanism and implement the 
        Container Security Initiative. In this new system, all 
        containers brought into the United States would have to be 
        registered 24 hours before their arrival and pre-screened for 
        suspicious content.
  <bullet> Technology Sharing.--Develop a technology sharing program to 
        allow deployment of high technology monitoring devices such as 
        electronic seals and license plate readers.
  <bullet> Secure Railways.--Continue to develop a joint rail imaging 
        initiative at all rail crossing locations on the U.S.-Mexico 
        border.
  <bullet> Combating Fraud.--Expand the ongoing Bilateral Customs Fraud 
        Task Force initiative to further joint investigative 
        activities.
  <bullet> Contraband Interdiction.--Continue joint efforts to combat 
        contraband, including illegal drugs, drug proceeds, firearms, 
        and other dangerous materials, and to prevent money laundering.

                           MID-TERM SOLUTIONS

    Port-of-entry along the southern border and the transportation 
systems associated with them were not designed to handle the types of 
security protocols the U.S. Government is imposing in the post-9/11 
world. One answer is to invest in new ports-of-entry and improve 
existing ones. However, this is not happening fast enough. For example, 
the last new port-of-entry to be built along the southern border was in 
Laredo, Texas, in 2000. The next one, due to open in 2009, will be in 
San Luis, in Yuma County, Arizona. Last year, the U.S. Government spent 
$96 million on its land ports, with half of that amount earmarked for 
the new facility in Arizona. Next year, the Government has committed 
$345 million. To show how insignificant a figure that is, consider that 
a new international bridge at San Ysidro, in San Diego, California, is 
slated to cost $550-$660 million. Another problem is that the Federal 
Government requires the General Services Administration to capitalize a 
new project in 1 year.
    On both sides of the U.S.-Mexico Border, the sheer volume of 
commercial vehicles has overwhelmed Government agencies charged with 
inspections and exacerbated inefficiencies in outdated inspection 
processes. In its December 2001 border transportation report, the 
General Accounting Office (GAO) found that five primary factors 
contribute to northbound congestion at the border:
    1. Multiple inspection requirements;
    2. Staffing and human resources problems;
    3. Limited use of automated management information systems for 
        processing commercial traffic;
    4. Insufficient roads connecting ports-of-entry; and,
    5. Limited coordination and planning among U.S. inspection agencies 
        and between the United States and Mexico.
    The GAO report noted that the lack of coordination among agencies 
within countries, as well as between countries, stands in the way of 
reducing shippers' transaction costs. Depending on the type of load, 
commercial vehicles have to pass through customs, agriculture, drug, 
immigration and safety inspections. Further, with 50 to 100 percent 
increases in commercial vehicle traffic between 1994 and 2001, 
Government funding for additional staff and facilities had fallen 
behind. Despite new ``intelligent transportation'' technologies that 
could drastically reduce processing times, Federal agencies had been 
slow to incorporate these technologies, and most processing is still 
paper-based. The bottom line was that the cumbersome processing of 
northbound shipments could be improved by better cooperation among U.S. 
Government agencies and greater use of available technology.
    The growth of RFID use in the border inspection process has the 
potential to reduce paperwork and eventually improve border crossing 
times, however it also puts an even higher premium on ensuring that the 
border is staffed with officers well-trained in the proper uses of 
these new technologies. Furthermore, some policymakers may believe that 
the addition of new technologies can substitute for investments in 
traditional infrastructure, however this is clearly not the case. In 
2003 the Data Management Improvement Act Task Force concluded that 70 
percent of the 166 land ports of entry had inadequate infrastructure. 
Of these:
  <bullet> 64 ports have less than 25 percent of required space;
  <bullet> 40 ports have between 25 and 50 percent of required space; 
        and,
  <bullet> 13 ports have between 50 and 75 percent of required space.
    These alarming statistics show that the problems at the border are 
not something that can be tweaked or easily corrected. Rather, they 
require a long-term program of sustained and strategic investments.

                  OTHER STEPS TO SECURE INFRASTRUCTURE

  <bullet> Long-term Planning.--Develop and implement a long-term 
        strategic plan that ensures a coordinated physical and 
        technological infrastructure that keeps peace with growing 
        cross-border traffic.
  <bullet> Relief of Bottlenecks.--Develop a prioritized list of 
        infrastructure projects and take immediate action to relieve 
        bottlenecks.
  <bullet> Infrastructure Protection.--Conduct vulnerability 
        assessments of trans-border infrastructure and communications 
        and transportation networks to identify and take required 
        protective measures.
  <bullet> Harmonize Ports of Entry Operations.--Synchronize hours of 
        operation, infrastructure improvements, and traffic flow 
        management at adjoining ports-of-entry on both sides of the 
        U.S.-Mexico border.
  <bullet> Demonstration Projects.--Establish prototype smart port-of-
        entry operations.
  <bullet> Cross-Border Cooperation.--Revitalize existing bilateral 
        coordination mechanisms at the local, State, and Federal levels 
        with a specific focus on operations at border crossing points.
  <bullet> Financing Projects at the Border.--Explore joint financing 
        mechanism to meet essential development and infrastructure 
        needs.

``One-Stop'' Border Inspection Facilities
    A ``Smart Border'' bi-national trade system uses technology to help 
streamline the passage of low-risk goods and people into the United 
States. At the same time, the system seeks to prevent dangerous or 
illicit goods from entering the country. To that extent, smart border 
innovations have been in progress for some time.
    To cope with NAFTA's strain on border infrastructure and to 
expedite the flow of commerce at our ports of entry, the Texas 
Legislature passed S.B. 913 in the 76th Legislative Session to require 
the Texas Department of Transportation (TXDOT) to build one-stop border 
inspection stations in the cities that have experienced the greatest 
increase in commercial traffic, Laredo, El Paso, and Brownsville.
    S.B. 913 has five goals: (1) To facilitate the flow of commerce; 
(2) improve Federal efforts aimed at interdiction; (3) protect our 
public health; (4) conserve our environment by decreasing the idling 
time of commercial vehicles; and (5) protect our already severely 
overburdened highways along the border by preventing overweight trucks 
from traveling on Texas' roads.
    In response to the passage of S.B. 913, former Texas Secretary of 
State Elton Bomer, working in conjunction with TxDOT, directed the 
Center for Transportation Research (CTR) of the University of Texas at 
Austin and the Texas Transportation Institute (TTI) of the Texas A&M 
University System to examine the feasibility of an expedited border 
process that would facilitate trade while permitting Federal and State 
agencies to maintain their inspection responsibilities. In addition, 
CTR and TTI were directed to determine the potential to enhance 
security through improved automation and screening. The final product 
envisioned was the ``one-stop'' border inspection facility prototype. 
The one-stop model can be viewed at: www.bordercross.tamu.edu.
    Co-locating the myriad State and Federal agencies with inspection 
and regulatory responsibilities at the border and integrating the 
various processes into one streamlined and cohesive approach is 
critical if we are to succeed in expediting U.S.-Mexico overland trade. 
For example, using devices that enable communication from electronic 
container seals to a PDA Network will improve security and facilitate 
trade by incorporating the processing of commercial vehicles, rail 
freight and crews, and addressing inland pre-clearance/post-clearance, 
international zones, and pre-processing centers at the border. Creating 
this standardized platform is achievable, but will require strong 
direction from our State and the Federal Government.
            The Role of RFID Technology
    The ``one-stop'' border inspection facility would combine the use 
of a Radio Frequency Identification (RFID) system, which transmits data 
back and forth from truck to border processing agent. RFID is a Federal 
Government information technology initiative to implement an 
integrated, Government-wide system for the electronic collection, use, 
and dissemination of international trade data. It will reduce burdens 
for the trade community and the Government by eliminating duplicative 
information requirements and the collection of excessive data. The 
initiative will also improve enforcement of and compliance with 
Government trade requirements. RFID promises to create a Government 
that works better and costs less by:
    1. Reducing the cost and burden of processing international trade 
        transactions for both the private trade community and the 
        Government;
    2. Improving the enforcement of and compliance with Government 
        trade requirements such as public health, safety, and export 
        control; and
    3. Providing access to international trade data and information 
        that are more accurate, thorough, and timely.
    By digitizing the paper trail, the system promises to significantly 
reduce delays without compromising the objectives of U.S. law 
enforcement and other Government agencies involved in the regulation of 
commerce. By providing users ``dedicated trade lanes'' in the ``one-
stop'' border inspection facility, it will ensure expedited clearance 
and passage in approximately 12 minutes. According to researchers and 
Mexican government officials, technological and other innovations, such 
as an automated clearance system requiring carriers to provide 
documentation electronically would also encourage the development of 
cross-border trucking beyond the commercial zones by reducing the need 
for time-consuming paperwork reviews at the border.\1\
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, North American Free Trade 
Agreement: Coordinate Operational Plan Needed to Ensure Mexican Trucks' 
Compliance With U.S. Standards Report (Washington, DC, December 2001), 
p. 3. online. Available: http://www.gao.gov.
---------------------------------------------------------------------------
    The key to implementing the ``one-stop'' border inspection facility 
is to bring cost-effective technology into the process. In particular, 
Texas must focus and expand the use of RFID. Presently, U.S. Customs 
will not share RFID with other law enforcement groups as they claim 
that it is a proprietary technology and can not be shared. Thus, the 
only option available for local law enforcement groups stationed at 
ports-of-entry is to purchase their own form of technology. From a 
public policy perspective of saving precious and few resources, 
duplication should always be avoided, especially when technology is 
already available. In Texas, DPS officials at the border inspect trucks 
for safety concerns. If they had access to driver and truck safety 
data, they could determine in advance if approaching trucks need 
inspection. Ideally, the RFID transponders would be linked to the 
Federal Motor Carrier Safety Administration's query central information 
system, providing DPS officials with this information.
    RFID technology will not only improve inspection and enforcement, 
but will also speed the flow of commerce. The use of transponders, 
weigh-in-motion scales, existing Federal and State agency databases, 
and Internet connectivity will also expedite trade in Texas. RFID 
technology must also be incorporated as a key part of the physical 
design and layout of each ``one-stop'' border inspection facility. In 
addition, the implementation of the ``one-stop'' should include 
provisions for co-location of all Federal and State agencies with 
responsibilities at our ports-of-entry and include key Mexican 
counterparts through ``virtual'' connectivity.
    Immediate action is necessary to head off congestion that is 
choking trade, increasing product cost, and adversely impacting the 
quality of life at our key ports-of-entry. The need, the will, the 
funding and the technology exist now to make the ``one-stop'' a 
reality. When Texas-Mexico trade increases, the entire State will 
benefit.

                          LONG-TERM SOLUTIONS

Secure Manufacturing Zones
    The objective of a Secure Manufacturing Zone (SMZ) concept is to 
develop secure and efficient manufacturing zones that enhance the 
security and efficiency of the border and the manufacturing supply 
chain. The importance of the SMZ is that it would established a 
specific location at which inspections and clearance can occur away 
from the border. These specifically sanctioned zones would operate 
under current, and as required, new industrial standards and operating 
protocols (ISOs). The result will allow the monitored placement of 
goods into secure authorized vehicles for transport to specified 
destinations on the other side of the border. The effect of the SMZ 
will move activities and functions that have previously occurred at the 
border to the manufacturing facility or other designated sites. This 
process is known as ``Point of Origin Clearance.''
            Point of Origin Clearance--Moving the Border to the Plant
    The maquiladora industry represents the largest component of trade 
between the United States and Mexico. The maquiladora industry and the 
local economies along the border cannot afford to have inefficient 
inspections processes impede these vital flows of trade. The key to 
creating SMZ along the border and enhancing the efficiency of Federal 
inspection facilities is to bring cost-effective technology into the 
process. Point-of-origin clearance is a concept developed by border 
trade professionals offering a multiple value proposition: predictable 
trade for industry, secure trade for Government, and environmental 
innovation that benefits the quality of life of the border region. By 
securing the manufacturing supply chain, this concept serves the 
industry-Government partnership essential to border security and 
homeland security.
    Point-of-origin clearance is a concept that responds to two 
significant issues impacting the economy of the United States-Mexico 
border. The first is the ``just-in-time'' manufacturing and shipment of 
goods. To be competitive in the modern global economy border operations 
must be responsive to the needs of those engaged in international trade 
and industry sectors that are increasingly dependent on the ``just-in-
time'' model. Thus, it is critical that these needs be protected in a 
post-September 11, 2001 environment. The second issue is the fact that 
the SMZ and point of origin clearance can provide effective inspection 
and oversight to protect the citizens of the hemisphere from the 
movement of illegal or dangerous materials across the border. Point-of-
origin clearance offers intelligent monitoring and protection of the 
United States-Mexico border and its vital cross-border conveyances 
while concurrently facilitating the needs of cross-continental and 
global trade flows. By applying innovative and proven integrated 
technologies, SMZ provide a starting point for a secure and totally 
transparent supply chain.
    This point-of-origin issue is of such overriding importance that 
the U.S. Senate Permanent Subcommittee on Investigations has released 
two reports compiled by the Government Accountability Office (GAO) from 
its investigation of key Homeland Security cargo security programs 
administered by United States Customs and Border Protection. The two 
reports are: (1) Container Security Initiative (CSI); and (2) Customs-
Trade Partnership Against Terrorism (C-TPAT). These reports were 
initiated to determine just how many containers crossing United States 
borders were in fact being inspected, the types of inspections 
conducted and where such inspections occurred.
    The report identified weaknesses in cargo inspections that include 
the following:
    a. Only a low percentage of all of the containers passing through 
        our ports are inspected overseas;
    b. Only a low percentage of high-risk cargo is inspected overseas;
    c. That the inspections (overseas) utilized untested nuclear 
        detection devices and non-intrusive inspection machines;
    d. Importers who own and operate the entire supply chain route from 
        start to finish suffer fewer security breaches than others 
        because they have greater control over their supply chains;
    e. Relatively few importers own and operate all key aspects of the 
        cargo container transportation process, relying instead on 
        second parties to move containerized cargo and prepare various 
        transportation documents; and,
    f. As a result, a security gap exists. Certified C-TPAT importers 
        benefit from fewer inspections, despite inadequate validation 
        of their supply chain security.
            Hemispheric Security and Secure Manufacturing Zones
    The creation of SMZ also creates an opportunity to refocus both the 
perception and function of border communities from merely crossing 
points or places where companies can achieve lower manufacturing costs, 
to places that can produce high-value goods central to the security of 
the hemisphere--in other words, Hemispheric Security Zones (HSZ).
    In the simplest terms, the basic premise behind a Hemispheric 
Security Zone concept is that regardless of the ostensible lower costs 
of offshore manufacturing (such as China), there are certain materials 
and products that affect the security of our Nation and the hemisphere 
in such a profound way that we do not wish to have them manufactured or 
processed on other continents. Utilizing and expanding the SMZ proposed 
here, industries central to the strategic security of the hemisphere 
could be focused on the United States-Mexico border region, thus taking 
advantage of a younger and increasingly higher-skilled work force, 
while maintaining a level of security that will satisfy the defense 
establishment and other interests. Secure Manufacturing Zones also 
complement the trend toward border-based value-added manufacturing and 
innovation.
    The creation of a SMZ concept will require the development of a new 
set of industrial operating standards (ISO 25,000). If implemented 
along the border, these new security standards will provide an inherent 
competitive advantage for border regions and allow them to attract 
industries from areas where cost structures are higher and security 
standards are lower. For example, if the United States wished to avail 
itself of the secure economic advantages of border production, it could 
move the manufacturing of bullet resistant Kevlar vests to a secure 
facility just over the border, without compromising its ability to 
obtain the quick delivery of vests or exporting a technology that North 
American security interests did not want in the hands of less secure, 
distant facilities. Therefore such industrial operating standards can 
help, maintaining not only manufacturing security, but also supply 
chain visibility from the manufacturing plant to the point of use 
process that cannot be matched by other domestic or international 
manufacturers.
    Existing Federal programs administered by the U.S. Department of 
Homeland Security permits qualified businesses to voluntarily 
participate under the Customs-Trade Partnership Against Terrorism (C-
TPAT)--a public/private partnership program aimed providing security 
and facilitation of commercial supply chain at U.S. land, air and sea 
ports of entry. Participating businesses provide U.S. Customs and 
Border Protection (CBP) a security profile outlining the specific 
security measures and addresses a broad range of security topics 
including personnel security; physical security; procedural security; 
access controls; education training and awareness; manifest procedures; 
conveyance security; threat awareness; document processing; business 
partners and relationships; vendors; and suppliers. Security profiles 
also list actions plans the companies implement to align security 
throughout the supply chain.
    While CBP, through the implementation of the C-TPAT and the SAFE 
programs, has made progress in securing and expediting commercial cargo 
at land ports of entries along the U.S.-Mexico border since the 9/11 
terrorist attacks, more needs to be done. A May 2005 General Accounting 
Office (GAO) study found key cargo security programs, including C-TPAT, 
needed to be improved. Specifically, the study found that CBP had 
validated only 11 percent of C-TPAT members (as of April 2005); had not 
developed a comprehensive set of performance measures for the program; 
and that key program decisions were not always documented and 
programmatic information not updated regularly or accurately. Moreover, 
commercial traffic congestion at border land ports of entry continues 
to be a significant problem, causing delays and economic impacts for 
cross-border businesses, particularly those involved in ``just-in-
time'' markets.
    One way to encourage investments in cargo supply chain security and 
efficiency processes to promote the development of Secure Manufacturing 
Zones along the U.S.-Mexico border region is by complementing Federal 
programs aimed at enhancing security and safety of cross-border 
shipment of goods by providing eligible businesses within border States 
with tax incentives for investments aimed at enhancing the supply chain 
visibility of their operations; value-added trade; and efficient 
operations.

             FAIR AND COMPREHENSIVE IMMIGRATION ACT OF 2009

    John F. Kennedy once said: ``Our attitude toward immigration 
reflects our faith in the American ideal. We have always believed it 
possible for men and women who start at the bottom to rise as far as 
their talent and energy allow. Neither race nor place of birth should 
affect their chances.''
    This is not to say the American public is of one mind on the 
subject of immigration, and many Americans have been influenced by the 
persistent and negative perceptions of immigrants painted for them by 
lawmakers. Yet, a majority of Americans continue to favor more 
inclusive solutions to the challenges brought by immigration. A review 
of polls by the Pew Hispanic Center, conducted between February 8 and 
May 14, 2006 found that:
  <bullet> ``A majority of Americans believes that illegal immigrants 
        are taking jobs Americans do not want.''
  <bullet> ``A majority of Americans appears to favor measures that 
        would allow illegal immigrants currently in the U.S. to remain 
        in the country either as permanent residents and eventual 
        citizens or as temporary workers who will have to go home 
        eventually. When those options are presented, only a minority 
        favors deporting all illegal migrants or otherwise forcing them 
        to go home.''
    In general, Americans understand that increased globalization not 
only boosts the movement of goods and capital across borders, but also 
the movement of people in search of the jobs created by globalization. 
Americans also appear to understand how much their lifestyle is 
dependent on the cheap labor of immigrants. Finally, Americans 
recognize the value of legalizing the hard-working immigrants who 
already contribute in so many ways to our economy, by bringing them out 
of the shadows so they can reach their full potential and, in turn, 
enable America to reach its full potential.
    Almost all experts agree our economy needs immigrant labor for the 
emerging technology, construction, service, and agriculture jobs of the 
future. In response, Congress must pass fair and comprehensive 
immigration policies that meet basic economic need of 21st century 
America. Specifically, we need a fair and comprehensive Federal 
immigration act that:
  <bullet> Balances border security concerns with recognition of the 
        U.S. demand for workers in the numerous sector of the U.S. 
        labor force, including agriculture, construction, and the 
        service economy;
  <bullet> Offers a path to citizenship, under clearly defined 
        guidelines, to immigrants who have demonstrated citizenship, 
        paid taxes, and birthed children and grandchildren;
  <bullet> Creates a temporary worker program that allows employers to 
        sponsor low-skilled immigrant workers to obtain a permanent 
        residence status. Undocumented students under the age of 21 
        should be able to satisfy the requirements under such a program 
        by attending an institution of higher education or a secondary 
        school full-time;
  <bullet> Provides a larger number of employment and family-based 
        green cards to promote family unification and reduce backlogs 
        in application processing; and,
  <bullet> Provides initiatives aimed at promoting investment and 
        economic opportunities of migrant sending regions in Mexico, 
        such as the U.S.-Mexico Partnership for Prosperity and Mexico's 
        3-for-1 program that encourages the use of remittances to build 
        local infrastructure and economic development in Mexico.
    In conclusion, any changes proposed at our ports-of-entry must take 
into account that the vast majority of people and goods cross the 
border for legitimate purposes. We need Congress to demonstrate strong 
leadership to ensure that our efforts to increase national security 
must be made alongside equal efforts to enhance trade. Open markets, 
trade, and cooperative bi-national relationships, not long lines, 
impaired trade, and isolationism are what terrorists fear most. We need 
your leadership now.
    The terrorist attacks of September 11, 2001, have significantly 
increased congestion along Texas trade corridors, compounded by the 
increased suspicion and fear of outsiders. With no reliable means to 
filter illicit cross-border activity from the legitimate exchange of 
goods and people, the response after the World Trade Center attacks has 
been to effectively clamp the bi-national transportation arteries. This 
may have been a prudent response to the increased fear of international 
terrorism, but the effect was to place a choke-hold on our cross-border 
economies. In El Paso, with 62 million legal crossings each year, the 
increased congestion has imposed an enormous strain on an already over-
burdened infrastructure.
    The country is now in the process of rethinking its international 
ports-of-entry in new terms--with national security added to the mix of 
law enforcement and regulatory issues. While achieving adequate 
security is a crucial issue along the border, new security policies 
must not transform the U.S.-Mexico border into a ``security fence'' or 
a highly fortified physical barrier that impedes the legitimate flow of 
commerce and people. Because our Nation's ports-of-entry face these new 
challenges, effective regulation at our borders will require the 
coordination of State and national resources, as well as international 
cooperation.
    Our country's focus on safeguarding our people from further 
barbaric acts of terrorism is appropriate. This new this war on 
terrorism must not undermine our confidence or dictate our destiny, but 
rather must be integrated into our Nation's vision for expeditious and 
enhanced trade. If we allow congestion at border ports-of-entry to 
obstruct free trade with our second-largest trading partner, the 
terrorists will have won. With the words ``The only thing we have to 
fear is fear itself,'' Franklin Delano Roosevelt moved a whole Nation 
to test the character of its people in a time of uncertainty and 
trouble. We too must do the same. If we don't, ultimately, trade will 
move to other competitors eager to take advantage of an economy 
governed by fear.
                                 ______
                                 
   Statement of Dan Stamper, President, Detroit International Bridge 
                       Company, Detroit, Michigan
                           December 15, 2007

    Mr. Chairman, I am Dan Stamper, President of the Detroit 
International Bridge Company/Canadian Transit Company in Detroit, 
Michigan--commonly known as the Ambassador Bridge--and I am honored to 
have this opportunity to offer this testimony at your important field 
hearing in El Paso, Texas. I congratulate you and especially the 
distinguished committee Member, Representative Sylvestre Reyes, for 
focusing the committee's attention on the matter of ``Ensuring Homeland 
Security While Facilitating Legitimate Travel: The Challenge at 
America's Ports of Entry''. There may be no more important 
international security or trade issue facing our Nation than the one 
you will be discussing with your distinguished line up of witnesses 
today.
    As the primary officials responsible for all operations and 
activities at the Ambassador Bridge between Windsor, Ontario and 
Detroit, Michigan, the issues that are the focal point of this hearing 
are ones that I live with every day, 365 days a year. The purpose of my 
testimony today is to share with the committee some of the innovative 
initiatives that we have taken at the Ambassador Bridge to streamline 
traffic flow of commercial and vehicular traffic between Canada and 
Detroit, while maintaining a close working partnership with Federal 
inspection agencies to help ensure that the bridge is secure and those 
crossing it fully comply with all laws on both sides of the border. We 
believe that we have some unique, private sector-based perspectives 
that hopefully can be applied at the southwest border ports of entry, 
including your vital bridges between El Paso and Ciudad Juarez.
    I am particularly pleased to be presenting testimony at a hearing 
where one of your primary witnesses will be Ms. Lurita Doan, 
administrator of the General Services Administration. The administrator 
has been to the Ambassador Bridge to see how we operate our border 
crossing and has been very supportive of the private sector approaches 
and collaboration we have taken with GSA, the Federal inspection 
agencies, and law enforcement. We have also hosted visits to the 
Ambassador Bridge by former Secretary of Homeland Security, Thomas 
Ridge, and the current Secretary for Homeland Security, Michael 
Chertoff. In addition, both have been very generous with their praise 
of the Ambassador Bridge and how it has responded to the increased 
threat of terrorism to the northern border ports of entry. In September 
2002, President Bush and then Canadian Prime Minister Jean Cretien, 
with the Ambassador Bridge as their backdrop, jointly announced the 
Free and Secure Trade (FAST) initiative which has improved efficiency 
and border security. We are proud of our reputation as perhaps the most 
efficient and secure port of entry in the Nation.

    HISTORY OF THE AMBASSADOR BRIDGE: THE BUSIEST COMMERCIAL BORDER 
                     CROSSING IN THE UNITED STATES

    The Ambassador Bridge connects Windsor, Ontario and Detroit 
Michigan and is owned by the Detroit International Bridge Company 
(DIBC), a wholly owned subsidiary of their parent company, CenTra Inc. 
CenTra is a diversified transportation/economic development corporation 
with holdings throughout North America. Centered in the transportation 
industry, these holdings include trucking companies, air freight, a 
short-line railroad, warehousing, logistics, customs brokerage, 
insurance and truck pre-processing centers which help thousands of 
truck drivers clear the border process safely and efficiently.
    As North America's busiest border crossing, the Ambassador Bridge 
was built in 1927, and handles 25 percent of all the trade between 
Canada and the United States. More than $1 billion worth of trade 
crosses the Ambassador Bridge everyday. In 1995, the Ambassador Bridge 
surpassed the Peace Bridge (in Buffalo, NY) as the No. 1 commercial 
crossing in North America. Today, the Ambassador Bridge handles more 
than double the commercial traffic as the Peace Bridge and almost twice 
as much as Laredo/Nuevo. This incredible facilitation of traffic was 
realized through the bridge company's tremendous vision and timely 
infrastructure investments supporting the Canada/U.S. Free Trade 
Agreement and the NAFTA which created a very prosperous environment for 
the entire region.
    Since 1992, DIBC has invested millions of after-tax dollars in 
property acquisitions and new infrastructure in order to ensure the 
ability to improve our facility by adding additional infrastructure at 
the appropriate time. These improvements include, but are not limited 
to:
  <bullet> Created additional entrances and exits to the Ambassador 
        Bridge in the early 1990's;
  <bullet> Built a dedicated commercial vehicle-only ramp off the 
        bridge allowing for the efficient separation of truck and car 
        traffic prior to the inspection lanes and more than doubling 
        the size of our U.S. Customs secondary parking facility in 
        1992;
  <bullet> Built a new Canada Customs plaza and administration building 
        more than doubling throughput capacity in 1994;
  <bullet> Opened new duty-free store in Canada in 1995 with traveler 
        amenities;
  <bullet> More than doubled the size of our Canada Customs secondary 
        parking facility in 1995;
  <bullet> Re-located entire toll operation to the U.S. plaza in 2002 
        freeing up much-needed plaza space in Canada for traffic 
        management purposes;
  <bullet> Removed the old Canada Customs administration building 
        allowing for better traffic flow on the Canadian plaza in 1999.
    And, since the terrible attacks of 9/11:
  <bullet> Added 7 additional Customs booths in the United States and 9 
        additional Customs booths including a new dedicated ramp to 
        them in Canada to eliminate truck inspection delay time;
  <bullet> Reconfigured U.S. Customs secondary inspection facilities to 
        accommodate radiation portals, license plate readers, 
        stationary cargo X-ray devices (and other security technology) 
        as well as absorbing additional staff;
  <bullet> Established new Advanced Border Processing Centers (ABpC) in 
        advance of the border to assist trucks, drivers and cargo in 
        complying with new ``E-Manifest'' and pre-notification 
        requirements. ABpC has reduced wait times for paperwork delays 
        by 90 percent at secondary Customs processing for commercial 
        vehicles;
  <bullet> Embraced and built dedicated NEXUS lanes for pre-cleared 
        passenger vehicles, eliminating delays for frequent border 
        users.
    MR. CHAIRMAN, The Ambassador Bridge established a security 
department on 9/11 with the sole purpose of protecting the bridge 
structure. Private armed security forces were put in place 24 hours per 
day, 7 days a week in both the United States and Canada and continue 
today at the Ambassador Bridge's direction and expense.
    The Ambassador Bridge is also working today, in partnership with 
the Federal Highway Administration (FHWA) and the Michigan Department 
of Transportation (MDOT) on the Ambassador Bridge Gateway Project in 
the United States. This project is a $220 million investment that will 
accomplish better traffic flow and fewer delays by directly connecting 
the three major highways in Detroit to our plaza and is scheduled for 
completion in 2009. This will also allow us to further expand our 
throughput capabilities on our plaza and ensure that international 
trucks never again will have to use local city streets.
    Furthermore, DIBC is in the process of building a state-of-the-art 
cable stay bridge to replace the existing almost 80-year-old 
Ambassador. This six-lane span will ensure that international traffic 
will experience fewer and fewer delays and offer back up redundancy as 
we will also be retrofitting and rehabbing the current bridge to use as 
back up in case of emergencies. We are currently progressing through 
the Environmental Assessment (EA) process and our goal is to have our 
new $1 billion crossing open for use in 2010.
    Finally, MR. CHAIRMAN, the DIBC and its parent company have made 
special efforts to establish more friendly and cooperative 
relationships with many groups on both sides of the border. DIBC is a 
member of the International Bridge, Tunnel & Turnpike Association; the 
Association of International Border Agencies; THE BORDER TRADE 
ALLIANCE; the Metropolitan Affairs Coalition; the Detroit Economic 
Growth Corporation; Detroit Regional Chamber and the U.S. Chamber of 
Commerce.

  PROPOSAL FOR ENHANCING OPERATIONS OF EL PASO, TEXAS BORDER PORTS OF 
                    ENTRY: ENGAGE THE PRIVATE SECTOR

    MR. CHAIRMAN, it would be presumptuous to state before this 
committee that everything that has worked so well at The Ambassador 
Bridge will work perfectly for enhancing traffic flows and maintaining 
tight security here in El Paso. However, after examining traffic flow 
data on the El Paso bridges and meeting with the Mayor, business 
leaders and leaders from Ciudad Juarez, I remain convinced that the 
primary approach to both enhancing security at the ports of entry and 
facilitating the flow of trade and other commercial traffic, is to 
fully engage the private sector in a ``true'' public-private 
partnership for bridge/crossing operations, maintenance and support.
    Perhaps the one constant among our initiatives that we have taken 
to sustain successful operations at the Ambassador Bridge, is our on-
going vigorous engagement with both the Federal inspection agencies and 
the General Services Administration (GSA). Let me quickly say that our 
relationships have not always been harmonious, nor did we always find a 
willing Federal sector to ``think outside of the box'' in addressing 
infrastructure, personnel, and technology changes at the busiest 
international crossing in the United States. To the contrary, there 
have been times when we have had to work with our Members of Congress, 
trade associations, and use good old-fashioned ``jaw boning'' in order 
to convince a doubting GSA and other agencies, that there were 
effective ``private sector'' approaches that could improve traffic 
flows while bolstering security. However, in the end, the DIBC has been 
able to convince both the Department of Homeland Security and GSA, that 
private sector options in terms of infrastructure improvement, 
coordination of inspection facilities, and negotiation of ``times of 
operation'' that there are major benefits for all parties.
    MR. CHAIRMAN, by putting up our own private funds to construct new 
inspection booths for the DHS, in accordance with their specifications, 
we have dramatically accelerated the availability of such facilities as 
compared to the long, drawn-out process of waiting for the GSA and the 
Office of Management and Budget to approve appropriated funds for such 
facilities. We have improved the ability of the inspection agencies to 
fulfill their mission by expeditiously building facilities that allow 
them to accomplish their many responsibilities in a post-September 11 
world.
    In addition, by taking much of the burden off the inspection 
agencies and DHS, for the design, planning and construction of their 
inspection facilities, the Department has been able to spend its scarce 
resources on what it does best: inspect cargo, vehicles, and focus 
almost exclusively on their critically important law enforcement 
mission. There is no price tag for security on our bridges and border 
crossings, and a vigorous, robust and engaged private sector can help 
enormously in enhancing the mission of both GSA and the inspection 
agencies that guard our borders.
    MR. CHAIRMAN, one advantage we obviously have had is that we own a 
bridge over which more than 8,000 trucks cross each day, and therefore 
could move quickly to take action to construct facilities and propose 
infrastructure improvements to meet the goals of Customs and the other 
Federal agencies with jurisdiction on the Ambassador Bridge.
    However, in El Paso, I understand that the city actually owns three 
of the four primary border crossings into Ciudad Juarez. Therefore, it 
would appear that the tables are set for a similar ``partnership'' with 
these Federal agencies, including GSA, to eliminate traffic delays, 
accelerate the construction of additional inspection booths, and 
negotiate increased operational times on your bridges. Specifically, we 
would suggest that a permanent Public-Private Sector Working Group be 
formed to meet regularly to examine:
  <bullet> alterations to hours of operation at the Ysleta Bridge to 
        keep that major bridge open longer in concert with busiest 
        commercial crossing times;
  <bullet> construction of additional inspection booths by the city 
        and/or with private sector capital, to have them available to 
        be staffed during peak periods of commercial and vehicular 
        traffic; and
  <bullet> consider postponing the proposed Yarborough Bridge until it 
        can be quantified that enhancements to the existing bridges, 
        including infrastructure changes, inspection booth construction 
        and operational time adjustments have been exhausted. This 
        could potentially save both the Federal Government and the El 
        Paso community millions of dollars in construction and 
        investment costs.
    MR. CHAIRMAN, let me quickly say that the ``partnership'' with the 
private sector must be real, solid, and mutually supported by both the 
private sector and the executive branch. While the Government 
frequently establishes public-private partnerships, too often these 
``partnerships'' are significantly skewed, with the Government setting 
the agenda and developing all the initiatives, which it then expects 
the private sector to support. The Department of Homeland Security 25 
percent Border Capacity Challenge that was established by the 
Department of Homeland Security in the aftermath of September 11, was a 
true public-private partnership where members met monthly and genuinely 
considered all ideas--good and bad--that could help meet the goal. 
Indeed, most of the leadership and the good ideas came from the private 
sector, not the Government. All Government officials were open to 
private-sector suggestions, allowing the leveraging of entrepreneurial 
energies and private-sector resources to solve common problems.
    At the Ambassador Bridge we far exceeded the goals set forth within 
the 25 percent challenge, achieving an actual reduction in wait times 
in excess of 70 percent. I am convinced that El Paso can achieve 
similar results through true public-private sector partnerships with 
GSA and the agencies that comprise the Department of Homeland Security.
    The Ambassador Bridge continually embraces our private sector role 
in assisting Homeland Security, General Services Administration and all 
other agencies with a role at our Nation's borders to embrace the dual 
goals of security and trade efficiency. It's more than patriotism or 
profit motive: uniting the public and private sectors is the right 
thing to do, both in Detroit, El Paso and anywhere that legitimate 
trade and tourism cross our borders. I have attached a recent letter to 
the White House which communicated our continued willingness to offer 
entrepreneurial creativity to this process. I believe that this 
committee may benefit from the perspective contained in our efforts. 
(See Attachment--Nov. 21, 2007 letter from Ambassador Bridge to 
President Bush.)

                                CLOSING

    In conclusion, MR. CHAIRMAN, I am convinced that El Paso and its 
private and public sectors, have a unique opportunity to engage each 
other to truly make a difference in both the enhancement of traffic 
flows and the maintenance of a rigorous security operation on all of 
the El Paso border crossings. With Federal appropriated funds at an 
all-time premium and with significant border crossing investment an 
uncertainty, the DIBC believes that the lessons learned at our bridge 
in Detroit, can be replicated in large part on the southwest border, 
beginning in El Paso, Texas.
    We are most grateful for this opportunity to present testimony 
before this distinguished committee and look forward to continuing our 
dialog with leaders throughout the southwest border region on these 
critically important security and trade issues. Thank you, MR. 
CHAIRMAN, and our thanks to Representative Reyes for his leadership in 
organizing this vital hearing.

                               Attachment
                                                 November 21, 2007.
President George W. Bush,
The White House, 1600 Pennsylvania Avenue, NW, Washington, DC 20500.

    Dear Mr. President: As the owners and operators of the Ambassador 
Bridge, we have seen a lot of changes throughout our history. Toady, 
almost $1 billion in trade crosses our bridge each day and new 
equipment, technology, and inspection protocols have, without any 
doubt, dramatically increased security along our border. It is a 
significant achievement in protection of our country and peoples.
    While Detroit is one of the largest and most important trade 
corridors, virtually all of the Nation's largest Ports of Entry (POE) 
along both the U.S.-Canadian and U.S.-Mexican border are now turning 
additional attention to meeting a second and equally important goal of 
speeding the flow of legitimate trade and travel across the border 
while maintaining security. Border communities and POEs on both borders 
are all reporting long lines of frustrated travelers, often spending 
hours waiting in long lines to cross the border. Our situation in 
Detroit is actually better, however, we share our colleagues' concerns 
at the border, long lines of idling trucks and cars represent increased 
costs, wasted fuel, higher air pollution, and wasted productivity. 
Chaos at the border created by long delays reduces the ability to 
secure our country.
    Your administration has recently raised expectations and kindled 
hope by removing many of the bureaucratic impediments that, for too 
long, had artificially hindered sensible ideas to build more capacity 
and infrastructure at our POEs and corridors, the new GSA 
Administrator, Lurita Doan, has recently visited many of the largest 
POEs, including the Ambassador Bridge, and has challenged us to come up 
with immediate and practical solutions that we can work with the 
government to implement. She even asked us, when and where appropriate, 
to provide the additional funding that will be required to add more 
capacity and additional inspection lanes to meet the needs of 
legitimate trade and travel.
    The Ambassador Bridge proudly accepts that challenge, and we are 
allocating $50 million dollars [sic] to improve and expand the 
infrastructure used by the Federal agencies in Detroit. We are fully 
prepared and willing to not only fund and build the appropriate 
government facilities, but to lease those facilities to the applicable 
parties for whatever short or long-term time frame is deemed acceptable 
by all involved. It is a sensible idea that we are happy to fully 
support.
    The Federal Highway Administration (FHWA) is aware of additional 
projects being undertaken by the Ambassador Bridge including the 
construction of a brand new six lane cable stay bridge as a replacement 
to our current four lane Ambassador Bridge. This new structure will 
include dedicated lanes for F.A.S.T. commercial vehicles. We have 
already expended $500 million private dollars [sic] in property 
acquisition, demolition, environmental and engineering costs, and we 
expect to spend another $500 million dollars [sic] in the construction 
of the new bridge.
    Mr. President, we share your view that it is possible to improve 
security while simultaneously speeding the flow of legitimate trade and 
travel. We have proven our ability to deliver facilities necessary for 
the Department of Homeland Security to meet their mandates to secure 
our people and our country. Now we have the opportunity to replace 
inspection facilities designed and construction in 1985 for U.S. 
Customs to meet their mandates as duty collectors. These facilities 
were correct and adequate for the twentieth century. We now have the 
need to replace these facilities with new state of the art facilities 
designed and constructed for the purpose of homeland security and the 
efficient movement of legitimate trade and travelers. This opportunity 
at the Ambassador Bridge to build new facilities without interfering 
with current operations is only possible due to ongoing property 
acquisitions by our company. We would sincerely appreciate support from 
your administration to embrace this private effort to replace the 78-
year-old bridge with a new state of the art cable stay bridge with 
wider, safer and separate special lanes for low-risk travelers and 
F.A.S.T. commercial lanes. We also, are positioned to develop the 
needed and necessary facilities for CBP. WHEN CAN WE START?
    Please feel free to have appropriate parties contact my office to 
discuss any and all opportunities to continue to improve the number one 
border crossing in North America and do it with private investment.
            Kindest regards,
                                               Dan Stamper,
                   President, Detroit International Bridge Company.
                                 ______
                                 
Statement of Miguel Teran, Commissioner, El Paso County, El Paso, Texas
                           December 15, 2007

                              INTRODUCTION

    Chairman Thompson and Members of the committee, my name is Miguel 
Teran and I am the El Paso County Commissioner for Precinct 3. Thank 
you for allowing me to submit testimony as a part of this field hearing 
focusing on the challenges at America's ports of entry.
    Chairman Thompson, it is good to see you in El Paso once again. 
Thank you for scheduling this field hearing and for your commitment to 
border communities. Your leadership of this committee has brought an 
increased focus to the problems at our ports of entry. Those of us who 
live and work here thank you and your staff for your assistance. 
Congressman Rodriguez, you have been here countless times since being 
elected and we thank you for your dedication to our issues. Congressman 
Perlmetter and Congressman Carney, welcome to El Paso. I hope your 
visit, while brief, provides you with some insight on the true state of 
affairs along the border. Chairman Reyes, thank you for your leadership 
on this issue and for bringing your colleagues to El Paso to hear first 
hand about the challenges we face along the border. El Paso County and 
the entire border region are fortunate to have you as our champion in 
Congress. You have spent much of your time in Congress trying to 
educate your colleagues about the unique nature of our border and the 
importance of our relationship with Mexico. It is fitting that this 
hearing is being held here in the Chamizal Memorial, where in 1963 the 
United States and Mexico finally settled a contentious boundary dispute 
after more than 100 years of animosity and tense relations. This 
memorial reminds us of what can be accomplished when we come together 
to discuss our problems, identify solutions, and work together to make 
life better for residents along the border.

                                SUMMARY

    My testimony will focus on the Tornillo-Guadalupe New International 
Bridge currently being developed in the eastern part of the county and 
how this new port of entry is an integral part of any solution designed 
to relieve the regional wait times and traffic congestion at our 
existing ports of entry. Eight years ago when the county started the 
process to get the new bridge approved, few people had any confidence 
that it would become a reality. They told me I was going after a dream, 
a chimera. As Congressman Reyes and Congressman Rodriguez know, the 
dream is becoming a reality thanks in large part to the commitment of 
the Federal Government. The committee is going to hear about a number 
of plans, projects, personnel recommendations, toll roads, and 
additional lanes at current ports of entry. I would like to stress that 
this project is a reality and will be completed well before most other 
plans to relieve congestion in the El Paso area.
    Congress and the administration have shown their commitment to the 
Tornillo-Guadalupe New International Bridge by including $4.3 million 
for the design of the Federal inspection facilities in the President's 
fiscal year 2008 budget and in the fiscal year 2008 appropriations 
bills. I know that it is unclear what the final appropriations picture 
will look like but I am encouraged by the progress we have made this 
year. We are anticipating similar budget and appropriations requests 
and support for $50 million for the construction of the Federal 
inspections facilities in fiscal year 2010. This amount may change 
following the completion of the Program Development Study (PDS) now 
underway and due to be completed by February 11, 2008.
    Once completed, the Tornillo-Guadalupe New International Bridge 
will relieve congestion at our current ports of entry in El Paso. By 
2015, the new POE will handle substantial amounts of traffic through 
its linkage with key transportation corridors in the United States and 
Mexico. The new POE will handle large amounts of commercial traffic 
which will be directed to nearby warehouses and a new highway leading 
from the POE to Interstate 10. This new transportation investment will 
expedite traffic flows to the east and north, reducing waiting times, 
reducing congestion, and improving air quality throughout the region. 
The Tornillo-Guadalupe New International Bridge will be equipped with 
the latest technology to efficiently and securely inspect cargo and 
travelers.

                               BACKGROUND

    The economies of the El Paso and Ciudad Juarez are fused together 
in large part due to their proximity to each other, cultural 
similarity, and more recently due to integrated economies via NAFTA. 
Four international bridges serve both communities: the Paso Del Norte 
Bridge, the Stanton Street Bridge, the Bridge of the Americas, and the 
Zaragoza Bridge. A fifth international bridge, Fabens/Caseta, is 35 
miles from downtown El Paso/Juarez, and provides limited international 
crossing access to a growing rural population in the region. This POE 
is soon to be replaced with a full-service bridge and POE facilities, 
the Tornillo-Guadalupe New International Bridge. El Paso's 
international bridges within the urbanized area are congested with 
vehicles heading from Mexico to the United States. As of October 2007, 
664,620 commercial carriers used the Bridge of the Americas and the 
Zaragoza ports of entry to enter the United States. Passenger vehicles 
headed to the United States at the international bridges totaled 
6,869,978 for the same time period. From 1990 to 2005, northbound 
commercial traffic in El Paso increased 45 percent whereas passenger 
traffic increased 7.7 percent for the same period. According to Customs 
& Border Protection, El Paso's commercial vehicles wait times at the 
end of November 2007 drifted upwards to 60 minutes to reach the primary 
inspection booth.

                 COMMERCIAL VEHICLE WAIT TIMES 11/30/07

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 PASSENGER VEHICLES WAIT TIMES 11/30/07

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It is evident that the existing international bridges within the 
urban area contribute to increased traffic congestion, environmental 
injustice, and costs of operation. Increased trade with Mexico as 
evidenced from the above growth patterns require additional 
infrastructure to be able to move goods and services across 
international lines. Inherent in building additional capacity for the 
bridges within the urban core is a need for raw land. Coupled with 
permitting, lost costs of opportunity for retailers, and development 
costs, infrastructure additions to the existing bridges can be 
expensive.

         NEW INTERNATIONAL BRIDGE AND PORT OF ENTRY FACILITIES

    The County of El Paso is the U.S. sponsor of the Tornillo-Guadalupe 
New International Bridge. The county has worked diligently with local, 
State and Federal officials, the citizens of El Paso County, and 
Mexican officials at all levels of government to advance the 
development and construction of the Tornillo-Guadalupe New 
International Bridge. The Presidential Permit for the new international 
bridge was issued by the U.S. Department of State to the County of El 
Paso on March 16, 2005. The new bridge is designed for commercial 
trucks, passenger cars, and pedestrians. The Tornillo-Guadalupe New 
International Bridge will be equipped with the latest technology to 
efficiently and securely inspect cargo and travelers. It will be 
located approximately 650 yards upstream from the existing Fabens/
Caseta POE. The Fabens/Caseta POE is not a full-service facility and 
its international bridge is structurally unable to handle commercial 
traffic. A major roadway will provide direct access between the 
international bridge and Federal port facilities to Interstate 10. A 
200-foot right-of-way has already been acquired by the County of El 
Paso. The roadway is designed for two lanes in each direction and the 
county is now finalizing construction plans and bid documents to begin 
construction of two lanes from the POE to State Highway 20 (SH-20). 
Phase 2 is the continuation of the highway from SH-20 to Interstate 10 
and will be jointly developed by the County of El Paso and the Texas 
Department of Transportation.
    The decisions on the final cost and layout of the Federal 
facilities at the POE will be made by GSA in conjunction with the 
Department of Homeland Security (DHS) and other Federal tenants. 
Following the completion of a Program Development Study (PDS) now 
underway, the cost of construction will be determined. The PDS is 
projected to be completed by February 11, 2008. The information 
contained in the PDS will form the basis for the fiscal year 2010 
budget and appropriations requests.

                       U.S. GOVERNMENT COMMITMENT

    Congress and the administration have shown their commitment to the 
Tornillo-Guadalupe New International Bridge by including $4.3 million 
for the design of the Federal inspection facilities in the President's 
fiscal year 2008 budget and in the fiscal year 2008 appropriations 
bills. I know that it is unclear what the final appropriations picture 
will look like but I am encouraged by the progress we have made this 
year. We are anticipating similar budget and appropriations requests 
and support for $50 million for the construction of the Federal 
inspections facilities in fiscal year 2010. This amount may change 
following the completion of the Program Development Study (PDS) now 
underway and due to be completed by February 11, 2008.

                    GOVERNMENT OF MEXICO COMMITMENT

    On the Mexican side, the State of Chihuahua has already acquired 
76.4 acres for donation to INDAABIN (Instituto de Administracion y 
Avaluos de Bienes Nacionales) necessary for Mexico's Federal 
facilities. Mexico's Secretaria de Communicaciones y Transporte (SCT) 
has also issued a contract for all studies and preliminary design work 
required to meet all Federal requirements and to provide the basis for 
awarding a concession to build and operate the Mexican portion of the 
project. The study is to be completed by April 2, 2008.

                       EL PASO COUNTY COMMITMENT

    The estimated cost to the county for their portion of the project 
is $50 million. This includes the bridge and appurtenances at $13.5 
million. The cost of these items will be paid from Road and Bridge 
funds and county bonds backed by bridge toll revenue. The 6.3 miles of 
roadway from the POE to Interstate 10 is estimated at $28 million. 
Funding is anticipated to come from El Paso County Road and Bridge 
funds, $4.5 million (already approved) from the Texas Department of 
Transportation, and funds projected from SAFETEA-LU's Coordinated 
Border Infrastructure program (currently under final review). The 
County of El Paso is presently acquiring 135.5 acres of land adjacent 
to the Tornillo-Guadalupe New International Bridge for the construction 
of all components needed to operate the international port of entry. A 
tract of 108 acres will be donated to the General Services 
Administration (GSA) for the Federal inspection facilities as defined 
by a feasibility study completed by GSA with participation by El Paso 
County during March 2006.

                           ESTIMATED TIMELINE

    The County of El Paso has acquired most of the necessary right-of-
way for construction of the connecting road. The county is also moving 
swiftly to acquire that portion of land where the bridge and inspection 
facilities will be located. Concurrently, the county expects to go out 
to bid for the roadway construction by early or mid-2008. Construction 
of the roadway is expected to take approximately 1 year. Once the 
roadway (Phase I) from the POE facilities to SH-20 is completed, and 
the construction agreement is in place, construction of the new 
international bridge will begin in tandem with construction of the U.S. 
Federal POE facilities in 2010-12.

                               CONCLUSION

    The County of El Paso wishes to thank the Members of the House 
Homeland Security Committee and specifically Chairman Thompson for 
holding this field hearing to address the complex problems at America's 
ports of entry. We would also like to once again thank Congressman 
Reyes and Congressman Rodriguez for their commitment to improving the 
quality of life for border residents. I hope I have demonstrated the 
critical role that the Tornillo-Guadalupe New International Bridge will 
play in any solution designed to relieve the regional wait times and 
traffic congestion at our existing ports of entry.

    Mr. Cuellar. At this time, I hear no further business, the 
committee stands adjourned.
    [Whereupon, at 12:35 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Questions From Chairman Bennie G. Thompson for Thomas S. Winkowski, 
Assistant Commissioner, Office of Field Operations, Customs and Border 
              Protection, Department of Homeland Security

    Question 1. According to a GAO report released in November 2007, 52 
CBP officers left the agency each 2-week pay period in fiscal year 
2007, up from 34 officers in fiscal year 2005. Why is CBP losing so 
many qualified officers? Are you losing mostly new hires or are senior 
officers leaving too? What effect has this attrition had on CBP's 
staffing levels and its ability to accomplish its mission?
    Answer. In fiscal year 2005, an average of 45 CBP officers departed 
the agency each pay period. This number increased to an average of 68 
CBP officers departing the agency per pay period in fiscal year 2007. 
Most of the officers leaving CBP in fiscal year 2007 did so to work at 
other Federal agencies and law enforcement components. The number of 
employees that left CBP from entry positions was 404. The number of 
employees that left CBP from senior officer positions was 990. The 
number of employees that retired was 376, the majority of those 
retiring generally exited the agency from the Grade 11 or above level.
    In GAO report number GAO-08-329T, the GAO provided testimony to 
Congress that summarized its study which examined the causes of 
staffing shortages in the field and their impact on CBP's mission. In 
that study, ``CBP officials'' cited the reasons for the staffing 
shortages as attrition due to retirements, officers receiving better 
benefits at other DHS components and Federal agencies, and new officers 
being unable to afford high cost-of-living locations. In addition, an 
Office of Personnel Management (OPM) Federal Human Capital Survey 
indicated that low job satisfaction is also a contributing factor to 
officer attrition.
    GAO investigated the impact of the staffing shortages at 20 field 
offices and CBP's headquarters preclearance office and found that 
managers at 19 of the 21 offices cited examples of the effect of 
staffing shortages as some important CBPO activities not being fully 
addressed, new or expanded facilities that were not fully operational, 
and radiation portal monitors and other inspection technologies not 
being fully used. In addition, at 7 of 8 major ports that the GAO 
visited, officers and managers told the GAO that not having sufficient 
staff contributes to morale problems, fatigue, lack of backup support, 
and safety issues when officers inspect travelers.
    CBP takes these issues very seriously and will continue to 
implement an aggressive hiring and recruitment strategy in order to 
continue to accomplish its mission of protecting the borders. CBP will 
also analyze attrition data from OPM's Human Capital Surveys and its 
employee satisfaction and exit surveys and develop some initial 
retention strategies by December 2008, with a more complete approach to 
follow by September 2009.
    Question 2. Commissioner Basham was cited in a recent New York 
Times article as saying the delays at border entries were caused in 
part by security measures, but also due to border stations that are 
``aging, outmoded and facing surging traffic.'' What is necessary to 
upgrade these stations to help ensure both security and facilitation 
through America's ports of entry?
    Answer. The rapid evolution in CBP's mission has left the land port 
of entry inspection facilities in need of modernization. Many of the 
inspection facilities housing CBP operations today struggle with 
explosive increases in traffic volume, changes in technology, and 
general deterioration. Some land ports of entry facilities were built 
more than 70 years ago and are under the extreme stress of high-volume 
traffic, and often under 24 hour-per-day, 365 day-per-year use.
    Beginning in 2003, CBP launched a systematic review of the land 
port inspection facilities to determine the enhancements needed to 
sustain its evolving operational requirements. Based on the information 
gleaned from these assessments, CBP has identified repairs, 
enhancements and replacement projects across the entire land port 
inventory. Since that time, CBP has annually sought funding to address 
the growing backlog of enhancements within this vital inventory.
    Beginning in late 2006, CBP in partnership with GSA, determined 
that the time required to fully recapitalize the current inventory of 
inspection facilities would exceed four decades based on the current 
average annual funding.
    Question 3. According to GAO, it takes approximately 7 years for a 
capital improvement to be completed at GSA-owned ports of entry and 
possibly longer if the port of entry is owned by a non-Federal entity. 
How would you describe CBP's relationship with GSA? Would border 
security be better served by having more ports of entry owned by CBP?
    Answer. CBP operates and is the primary tenant at each of the ports 
of entry. However, ownership of the land port inspection facilities is 
divided among a variety of entities. Of the 163 facilities distributed 
along the northern and southern borders, CBP directly owns 43 
facilities, GSA owns 97 facilities, and the remaining 23 facilities are 
owned by various State entities and public/private port authorities. 
This distribution of ownership presents a series of challenges for CBP 
to ensure that the infrastructure effectively supports its operations.
    We continue to work in partnership with GSA and over the past few 
years CBP has reviewed various service-provider models to assess the 
best approach to implement a major capital improvement initiative for 
land ports of entry.
    Given the current delivery capacity within CBP and GSA, CBP has 
identified a partnering approach with GSA as the most expedient method 
to modernize the facilities at a pace reflective of CBP's mission. This 
partnership is premised on key improvement objectives: reducing the 
cost and time that GSA requires to deliver land port enhancements and 
improving the performance of the resulting facilities.
    Through this partnership, the agencies have jointly identified a 
new business model that describes the funding requirements and 
programmatic improvements needed to sustain and recapitalize the land 
port inspection facilities over the next decade. Over the coming fiscal 
years, both CBP and GSA plan to continue in partnership to implement 
this new model across the inventory.
    Given the current limitations on CBP's internal capacity, the 
continued GSA-CBP partnership remains the most expeditious approach to 
port of entry modernization allowing both entities to exploit their 
respective areas of expertise; CBP's operational know-how and GSA's 
project management capabilities in the Federal buildings arena.
    Question 4. According to GAO, CBP is in need of thousands of 
officers to carry out its mission. What short- and long-term solutions 
is CBP proposing to meet staffing needs? Is CBP planning to allow more 
field offices to hire above their budgeted staffing levels in order to 
account for expected attrition?
    Answer. To meet staffing needs for CBP officers in the short- and 
long-term, CBP has implemented an aggressive hiring and recruitment 
strategy that includes focused hiring and a regular review of the 
staffing levels. This strategy takes into consideration current 
vacancies, attrition rates, and location specific initiatives. CBP 
selects recruitment events locations based on the current number of 
vacancies and the current applicant inventory. Some of the locations 
where recruitment events have taken place are Los Angeles/Long Beach, 
CA; Seattle, WA; Great Falls, MN; Grand Forks, ND; Calexico, CA; and 
the Virgin Islands. Recruitment events are planned for Vermont and 
Buffalo in conjunction with the CBP officer vacancy announcement for 
the open period February 25, 2008 through March 7, 2008. This hiring 
strategy has resulted in an increase of 978 CBP officers since 2004.
    CBP's initial retention strategy will be completed by December 2008 
and a more complete approach will be completed by September 2009 
(mentioned in answer to Question 1).
    Keeping attrition in mind, CBP plans to stay in line with its 
``staffing to budget'' philosophy. CBP will continue to hire positions 
according to the level of funding available.
    Question 5. CBP has the dual mission of preventing terrorists and 
terrorist weapons from entering the United States, while also 
facilitating the flow of legitimate trade and travel. How are 2- to 3-
hour wait times at some of our ports of entry consistent with CBP's 
mission of facilitating the flow of legitimate traffic?
    Answer. CBP's mission is preventing terrorists and terrorist 
weapons from entering the United States, while also facilitating the 
flow of legitimate trade and travel. Because we understand that the 
threat is present and the risks ever changing, we must remain ever 
vigilant in protecting the Nation's borders. While we do not wish to 
unnecessarily delay legitimate trade and travel, we face various 
constraints, such as facilities limitations, peak travel, and inclement 
weather, that impact wait times. CBP monitors wait times at both air 
and land border ports of entry, then posts this information so that the 
traveling public can make informed decisions about travel. 
Additionally, at each port of entry CBP supervisors monitor peak travel 
periods to ensure that the correct number of primary booths are staffed 
to handle surges in traffic.
    To address wait time issues at ports of entry, CBP has developed an 
8-point plan to comprehensively look at the many factors affecting 
processing times. This plan includes the following: wait time 
measurement; baselining inspection processing times; determining port 
throughput; proper allocation of staff; facility needs and 
enhancements; maximizing trusted traveler programs; a review of 
existing policy related to inspections; and implementing an effective 
outreach program. CBP promotes various Trusted Traveler Programs, with 
the goal of segmenting and facilitating low-risk travel, which allows 
us to focus other resources on those areas which warrant further 
inspection/examination. CBP continually seeks better and smarter means 
of accomplishing our two missions. These means include layered 
enforcement strategies, improved processes, and state-of-the-art 
technologies. With continued support of the Congress, programs such as 
the Western Hemisphere Travel Initiative will result in smart 
technology and improved document security that will make our ports more 
secure and our inspectional processes more robust and efficient.
    Question 6. Please provide the committee a description of the 
activities being conducted to implement the Border Partnership Action 
Plan in Division E, Title VI,  606(b) of the Consolidated 
Appropriations Act for Fiscal Year 2008 (Pub. L. 110-161).
    Answer. Response was not provided at the time of publication.
    Question 7. Please provide a description of CBP's efforts to meet 
the January 31 deadline for the Port of Entry Infrastructure Assessment 
Study in Division E, Title VI,  603 of the Consolidated Appropriations 
Act for Fiscal Year 2008 (Pub. L. 110-161).
    Answer. Response was not provided at the time of publication.
    Question 8. Please provide a status report and description of CBP's 
efforts to enter into a memorandum of understanding with Texas 
regarding the use of DHS-approved enhanced driver's licenses.
    Answer. Response was not provided at the time of publication.
    Questions From Chairman Bennie G. Thompson for Lurita A. Doan, 
             Administrator, General Services Administration
    Question 1. I understand that the GSA uses a tool called the 
``Border Wizard'' to calculate bridge wait times. Can you describe how 
this tool works and how it is used in your capital improvement 
assessments? Is the Border Wizard the most accurate tool available to 
calculate border wait times?
    Answer. Response was not provided at the time of publication.
    Question 2. According to CBP officials, the degree to which 
improvements will be made at land ports of entry and how long those 
improvements take is dependent upon available funding and the results 
of discussions with various stakeholders, such as GSA and private port 
owners. Which ports of entry are GSA's top priorities to improve, and 
why?
    Answer. Response was not provided at the time of publication.
    Question 3. CBP estimates that the cost of making capital 
improvements at land crossings totals about $4 billion. How much 
funding does GSA generally receive for POE construction? Over the last 
5 years, how has funding for POE construction compared to other GSA 
construction projects?
    Answer. Response was not provided at the time of publication.
    Question 4. GAO reports that it takes approximately 7 years to 
build a new piece of border infrastructure, from submitting a request 
for an infrastructure improvement through completion of the project. 
What accounts for this extraordinary delay for often desperately needed 
improvements? Are there any intermediate improvements that can be made 
outside the formal process?
    Answer. Response was not provided at the time of publication.
   Questions From Chairman Bennie G. Thompson for Colleen M. Kelley, 
         National President, National Treasury Employees Union
    Question 1. GAO reports that not having sufficient staff 
contributes to morale problems, fatigue, lack of backup support, and 
safety issues. How bad is officer morale at CBP, and to what do you 
attribute the current state of morale?
    Answer. The Federal Human Capital Survey released in 2007 shows 
that DHS received the lowest scores of any Federal agency on a Federal 
survey for job satisfaction, leadership and workplace performance. Of 
the 36 agencies surveyed, DHS ranked 36th on job satisfaction, 35th on 
leadership and knowledge management, 36th on results-oriented 
performance culture, and 33rd on talent management.
    One of the most significant reasons for low morale at CBP is the 
continuing shortage of staff at the 367 ports of entry (POEs). Despite 
CBP's own staffing allocation models and a GAO report that states that 
CBP needs up to 4,000 additional CBP officers at the POEs, the 
President's fiscal year 2009 budget includes funding for only 234 
additional CBP positions at land border POEs and 295 positions for 
Radiation Portal Monitoring staffing. This staffing increase requested 
is fewer than two additional CBP officers at each air, land and 
seaport. What steps does the Department plan to address the CBP officer 
staffing shortages outlined in CBP's port-by-port staffing allocation 
models? When does CBP expect to have full staffing of the U.S. Ports of 
Entry as specified in its staffing allocation models?
    Another effect on morale of the CBP officer staffing shortages at 
the POEs is that the emphasis on passenger processing and reducing wait 
times results in limited staff available at secondary to perform those 
inspections referred to them. CBP officers are extremely concerned 
about this diminution of secondary inspection in favor of passenger 
facilitation at primary inspection since the creation of the Department 
of Homeland Security. NTEU urges the committee to authorize at least 
2,000 CBP officer new hires in their fiscal year 2009 authorization 
bill to begin to address this staffing shortage as detailed in CBP's 
own staffing allocation model.
    Another action that the House Homeland Security Committee and the 
full House took last year that will greatly improve morale was approval 
of the fiscal year 2008 DHS Authorization bill, H.R. 1684, that 
included a provision (Section 512) repealing the DHS Human Resources 
Management System--Title 5, Chapter 97. Despite Congress' clear intent 
to stop implementation of the failed DHS Human Resources Management 
System, however, DHS continues to persist in implementing these 
compromised personnel regulations. NTEU urges the committee to include 
this Title 5, Chapter 97 repeal provision in its fiscal year 2009 DHS 
Authorization bill.
    Question 2. GAO found that some new CBP officers receive inadequate 
cross-training and receive as little as 2 weeks of on-the-job training 
rather than the recommended 12 to 14 weeks. What, if anything, is CBP 
doing to improve officer training? Do you believe that the current lack 
of adequate training contributes to increased wait times? How effective 
has CBP's ``one face at the border'' training initiative been?
    Answer. With the implementation of the One Face at the Border 
initiative, the curriculum for new hires at the Federal Law Enforcement 
Training Center (FLETC) in Glynco, Georgia has undergone major changes. 
Prior to the merger, INS trainees studied at FTETC for 65 days. 
Trainees from the former Customs Service had a 55-day course at FLETC. 
Unlike Customs and Immigration Inspectors who all attended basic 
Academy training at FLETC, Agriculture Inspectors have a different 
background; those Agriculture Inspectors who became CBP officers were 
required to complete the same basic training course as a new CBP 
officer hire.
    New CBP officers receive 73 days of FLETC training on all three 
types of inspection. ``Upon returning to their assigned port, they will 
be trained for the next year by a combination of classroom, computer-
based, and on-the-job (OTJ) training.'' The most critical part of this 
training is the year of OTJ training to teach specialized information.
    This OTJ training phase is not being adequately done. Many new CBP 
officers report that few of them have received extensive post-academy 
training yet are assigned to the primary passenger processing line. 
Inadequate mentoring and OTJ training make it difficult for CBP 
officers to become proficient in even one job while they are expected 
to be proficient at three.
    The three disciplines' skill sets--immigration, customs, and 
agriculture are highly specialized and require in-depth training and 
on-the-job experience. Agriculture specialists have a science 
background, immigration officers are trained to recognize suspect 
documents and customs officers are trained to identify counterfeit 
goods, drug smugglers and look for suspect passenger behavior at the 
airports and suspect products at the ports.
    CBP officers that have been given cross-training have reported to 
NTEU that training is inadequate in time, resources and mentoring. 
According to CBP, all cross-training has been provided via video, CD-
ROM/Web, classroom instruction, on-the-job training, or a combination 
of these methods. With limited exceptions, all of the training is 
provided at the CBP officers' post-of-duty.
    For legacy inspectors, the training both in class, computer-based 
and on-the-job is totally inadequate. According to CBP, all legacy 
Customs and CBP officers had mandatory training on Immigration 
Fundamentals. ``It will be delivered during officers' normal tour of 
duty in the form of eight electronic 45-minute lessons, after which the 
employee will be tested to ensure comprehension. A passing grade on the 
review is a prerequisite to taking the training for Full Unified 
Primary inspections.''
    NTEU believes that inadequate training not only contributes to wait 
times at the POEs, but also undermines security. This is a typical 
story about this training from legacy inspectors:

``I took the immigration class in January 2005 and have not been in a 
booth since. That is until I was told 3 weeks ago to go upstairs and 
get in the booth. I told the supervisor that I could not do it because 
I do not remember the training as it had been almost a year. She told 
me that she would put me with another inspector who would watch me for 
about 30 minutes and then I should be good to go on my own. After 
speaking with the experienced legacy INS inspector in the booth about 
how I was doing she changed her mind when he told her I was screwing up 
everything. CBP must create a refresher class for us or we will wind up 
screwing up and getting fired. I feel we are being fed to the lions.''

    As with almost every issue of concern at the POEs, the root of the 
training problem can be traced to staffing shortages. There just isn't 
enough staff to adequately man the ports and allow CBP officers 
sufficient time away from their stations for training. Again, the 
solution is for the committee to authorize at least 2,000 CBP officer 
new hires in their fiscal year 2009 authorization bill to begin to 
address this staffing shortage as detailed in CBP's own staffing 
allocation model.
    Question 3. In your testimony, you describe a number of 
``scheduling abuses'' that have hindered the recruitment and retention 
of CBP officers. Can you describe some of the more egregious abuses 
that you have discovered? What has NTEU and in return, CBP, done to 
return some normalcy back to CBP officers schedule?
    Answer. For the last 6 years, CBP has relied on its Revised NIAP 
(RNIAP) to run roughshod over an employee's right to be governed by 
sane scheduling practices that enable the agency to meet its many 
missions, yet at the same time recognizes both work and non-work 
employee needs. Whether the issue is canceling an employee's 
preapproved leave resulting in lost vacation moneys, forcing employees 
to work involuntary overtime at the expense of others who want to work 
the same assignment, or limiting bid and rotation opportunities to 
select employees, CBP justifies its scheduling practices by citing the 
RNIAP. While one would think that dismal attrition levels and 
embarrassing morale findings would cause CBP to reconsider this policy, 
it has not.
    The most egregious of these scheduling abuses is the scheduling of 
``free doubles.'' NTEU has been informed that CBP Port management is 
regularly using this practice to address staffing shortages while at 
the same time cheating employees out of overtime pay. A ``free 
doubles'' situation occurs at the end of a 2-week pay period and the 
start of the next: the Agency schedules employees from 1600-2400 on the 
last day of the pay period and then 0001-0800 the next morning, i.e., 
the first day of the new pay period, such that officers work 16 hours 
straight, but are not eligible for overtime pay because they have not 
worked over 8 hours in 1 day or 40 hours in 1 week.
    The Agency's position is that those two shifts are two distinct 
``work days'' and thus not overtime, despite the fact that the 
employees are doing a double shift (16 hours straight).
    Here's a brief list of other CBP problematic scheduling practices 
that violate 5 USC 6101 and the Customs Officer Pay Reform Act (COPRA):
    1. In some ports, CBP routinely schedules officers to work 
        staggered shifts within the same workweek. For instance, an 
        officer might work 2 days 6-2, then 1 day 8-4, then 3 days 12-
        8. CBP does this to save overtime.
    2. In the past, officers assigned to work a midnight shift would 
        not be forced to work a spill-over overtime shift to a day 
        shift. CBP vacated this long-standing agreement, and now forces 
        midnighters to work forced day-shift overtimes. Curiously, CBP, 
        citing safety concerns, determined that that it was too 
        dangerous to have infighters proceed to the range, on overtime 
        following a midnight shift, to qualify. To avoid the overtime, 
        officers with permanent swing or midshifts are now forced to 
        work 1 day on a day shift, on regular time when qualifying at 
        the gun range.
    3. If the employee is off for the holiday, 70 percent of which fall 
        on a Monday or Tuesday, CBP is counting that holiday off as one 
        of their normal regular days off for the week. Consequently, if 
        an employee is normally scheduled weekends off (Saturday and 
        Sunday), for instance, and has a Monday holiday off during a 
        week, he/she will lose either their Saturday or Sunday regular 
        day off for that week and be required to come in and work for 
        regular time on that day.
    NTEU recently won a major arbitration decision (attached)* striking 
down as violations of Federal law and regulations the unfettered 
discretion of CBP managers to set and change employee work schedules at 
will and without regard to the agency's legal obligations. Citing 
RNIAP, CBP has engaged in near total refusal of CBP to engage in 
substantive discussions, let alone bargain, over any issue even 
remotely related to assignment of work, staffing numbers, shifts, and 
overtime excusals. This means that CBP employees have virtually no 
voice on local scheduling matters.
---------------------------------------------------------------------------
    * Attachment has been retained in committee files.
---------------------------------------------------------------------------
    Recently, a mutually selected arbitrator found that CBP has 
violated long-standing, Government-wide laws and regulations, codified 
in Article 21, Section 3 of the National Agreement, concerning the 
proper scheduling of those CBP officers covered by COPRA. These rules 
include the requirements that:
  <bullet> Employees receive 1-week notice of their shifts;
  <bullet> Employees are scheduled so they receive 2 consecutive days 
        off;
  <bullet> Employees' schedules provide for uniform daily work hours 
        for each day of the workweek; and
  <bullet> Employees are scheduled regardless of whether a holiday 
        falls within the workweek.
    By law, CBP must follow these requirements unless it ``would be 
seriously handicapped in carrying out its functions'' or that ``costs 
would be substantially increased.''
    In reaching her decision, the arbitrator rejected CBP's defense 
that RNIAP set the same scheduling standards as those required by the 
United States and the Code of Federal Regulations. In particular, the 
arbitrator rejected CBP's RNIAP defense that when supervisors followed 
its provisions and scheduled employees based on ``operational needs'' 
while considering ``least cost,'' it really meant that CBP ``would be 
seriously handicapped'' and that ``costs would be substantially 
increased'' if it was not given unfettered discretion to set and change 
employee work schedules.
    The arbitrator then held:

``I further reject the agency's argument that the extensive number of 
instances in the record where the agency changed the work hours of 
Customs officers from 1 day to the next, failed to provide consecutive 
days off, changed schedules during weeks with holidays to avoid 
overtime premium pay, and otherwise failed to provide the protections 
embodied in law and applicable regulations, actually met the standards 
. . . Indeed, the agency appeared to recognize as much when it issued a 
`weekly muster' on January 1, 2007, emphasizing the employees' shifts 
or days off should not be changed `unless there are significant 
operational needs' and that `every effort should be made to assign 
employees the same work hours throughout the basic workweek.' (emphasis 
in original)

    Inasmuch as this national grievance was filed prior to the May 2007 
certification of the new NTEU bargaining unit, the arbitrator's 
decision only covers those CBP officers that were in NTEU's bargaining 
unit prior to the recent union election. However, NTEU is exploring 
similar litigation based on our review of CBP's scheduling practices 
for the expanded bargaining unit.
    CBP now has two choices. CBP will comply with the arbitrator's 
decision or CBP will file yet another appeal to yet another adverse 
legal decision.
    NTEU would appreciate the committee's support for resolving this 
continued stalemate over CBP workplace scheduling abuses.
    Question 4. What does it mean to CBP officers to have Law 
Enforcement Officer (LEO) status? How will LEO status benefit border 
security, in general?
    Answer. The CBP officer enhanced retirement program that Congress 
approved and the President signed as part of the fiscal year 2008 
omnibus spending bill has done much to improve CBP officer morale and 
has already proved to be a boon for retention of experienced CBP 
officers. This program (section 535 of the Act) provides a LEO 
retirement benefit for Customs and Border Protection (CBP) officers 
effective on July 6, 2008.
    This legislation will aid CBP's continued recruitment and retention 
of the best and brightest officers and build a vigorous work force for 
the future. On a daily basis, CBP officers perform as frontline 
officers in support of our homeland security mission which is critical 
to our Nation. This recognition and retirement compensation package is 
well-deserved and long over-due. Since passage of the omnibus in 
December, NTEU has heard that scores of CBP officers have rescinded 
retirement and transfer requests to other Federal LEO positions in the 
Federal Government. CBP officers are extremely grateful to Congress for 
this recognition of their law enforcement activities at CBP.
    The President, however, in his fiscal year 2009 budget, requests 
that Congress vote to repeal the authorization of the just enacted CBP 
LEO program. Furthermore, he requests that Congress rescind the $50 
million funding needed to begin the program in July 2008.
    NTEU has learned that CBP and the Office of Personnel Management 
(OPM) have prepared information and documents to share with CBP 
officers to inform them of how the program will work and of the 
upcoming opt-out decision they will need to make. The Office of 
Management and Budget (OMB), however, told both OPM and CBP that they 
cannot disseminate these materials to CBP officers at this time. CBP 
was unclear as to when OMB would give permission to release the 
materials to their employees. It is vital that Congress directs OMB to 
allow this program to go forward so that it can be implemented as 
stipulated in law by July 6, 2008.
    Question 6. Please provide the committee with an analysis on the 
number of CBP officers you feel are required to carry out the agency's 
dual mission of security and commerce facilitation.
    Answer. According to the former U.S. Customs Service's last 
internal review of staffing for fiscal years 2000-2002 dated February 
25, 2000 also known as the 2000-2002 RAM, the Customs Service needed 
over 14,776 Customs Inspectors (an increase of 6,481 new hires) just to 
fulfill its basic mission--and that was before September 11.
    Since the release of the U.S. Customs 2000-2002 RAM was released, 
the Department of Homeland Security was created and the U.S. Customs 
Service was merged with the Immigration and Naturalization Service and 
parts of the Agriculture Plant Health Inspection Service to create 
Customs and Border Protection (CBP) and given an expanded mission of 
providing the first line of defense against terrorism, in addition to 
making sure trade laws are enforced and trade revenue collected, while 
at the same time facilitating the flow of travel and trade.
    According to GAO, with the merger of the three agencies' inspection 
forces, there are now approximately 18,000 CBP officers currently 
employed by CBP. Based on the expanded mission of the CBP officers, and 
based on the results of the 2000-2002 RAM that stated the U.S. Customs 
Service needed to hire over 6,000 new inspectors to address the 
expanded workload projected at that time, I believe that at least 
22,000 CBP officers would be needed to have a robust and fully staffed 
force at our ports of entry.
    In Section 402 of the SAFE Port Act of 2006, Congress mandated CBP 
to conduct a new Resource Allocation Model for the ports of entry. CBP 
renamed this model the Staffing Allocation Model (SAM). It is NTEU's 
understanding that CBP produced SAMs for all the ports of entry as well 
as a Nation-wide [sic].
    CBP has deemed the SAM law enforcement sensitive, so NTEU has never 
seen or reviewed this information, however, the Washington Post 
reported that the CBP SAM concludes that CBP needs to hire 1,600 to 
4,000 new CBP officers and Agricultural Specialists to adequately staff 
the Nation's air, sea and land ports of entry while allowing for 
contingencies, such as training. This number is in line with NTEU's 
estimation of CBP officer staffing needs based on our own research.
   Questions From Chairman Bennie G. Thompson for Kathleen Campbell 
      Walker, President, American Immigration Lawyers Association
    Question 1. As of January 31, 2008, CBP will no longer accept oral 
declarations of citizenship from Americans re-entering the United 
States at land ports of entry. What effect do you anticipate this new 
rule having on the local community? Do you believe CBP has the capacity 
to effectively and efficiently implement this new rule?
    Answer. Response was not provided at the time of publication.
    Question 2. In a recent New York Times article, Commissioner Basham 
said that border cities, which own several international bridges, need 
to invest in expanding entry points. How feasible is the Commissioner's 
solution for border communities? Can you describe what stakeholders in 
the city of El Paso are doing to address the long wait times?
    Answer. Response was not provided at the time of publication.
    Question 3. In your testimony, you provide a number of inspection 
improvements that could be implemented, from providing additional 
staffing to establishing a state-of-the-art methodology for determining 
current wait times. Which improvements should Congress and CBP make top 
priorities?
    Answer. Response was not provided at the time of publication.
    Question 4. In your written statement, you describe some 
difficulties in the use of registered traveler programs such as SENTRI, 
NEXUS, and FAST and indicate that the use of some of the cards is 
declining. How can CBP better utilize its registered traveler programs 
to facilitate legitimate cross border traffic?
    Answer. Response was not provided at the time of publication.
    Question 5. What affect do increasing wait times have on the 
culture and economy of El Paso?
    Answer. Response was not provided at the time of publication.
    Question 6. Please provide the committee with an analysis on the 
number of CBP officers you feel are required to carry out the agency's 
dual mission of security and commerce facilitation.
    Answer. Response was not provided at the time of publication.

                                 <all>

</pre></body></html>
